No. 19-___

IN THE

7 WEST 57TH STREET REALTY COMPANY, LLC,
Petitioner,
v.
CITIGROUP, INC.; CITIBANK, N.A.; BANK OF AMERICA
CORPORATION; BANK OF AMERICA N.A.; BARCLAYS
BANKS PLC; UBS AG; JPMORGAN CHASE & CO.;
CREDIT SUISSE GROUP AG; BANK OF TOYKOMITSUBISHI UFJ, LTD.; COOPERATIEVE CENTRALE
RAIFFEISEN – BOERENLEENBANK B.A.; HSBC
HOLDINGS PLC; HSBC BANK PLC; HBOS PLC; LLOYDS
BANKING GROUP PLC; ROYAL BANK OF CANADA; THE
NORINCHUKIN BANK; THE ROYAL BANK OF SCOTLAND
GROUP PLC; WESTLB AG; WESTDEUTSCHE
IMMOBILIENBANK AG; DEUTSCHE BANK AG;
JPMORGAN CHASE BANK, N.A.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI
Daniel J. Mogin
MOGINRUBIN LLP
600 WEST Broadway
Suite 3300
San Diego, CA 92101
(619) 687-6611

Sarah E. Harrington
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

QUESTION PRESENTED
Respondents conspired to fix the price of the London Interbank Offered Rate (LIBOR) in order to manipulate the market for LIBOR-denominated financial
instruments. Because LIBOR was an enormously influential benchmark interest rate, the manipulation of
LIBOR had serious and predictable effects in the market for LIBOR-denominated financial instruments and
in related financial markets that predictably reacted
to changes in LIBOR.
The question presented is:
Whether an antitrust plaintiff with a direct privity relationship to a price-fixer has antitrust standing
under Section 4 of the Clayton Act, 15 U.S.C. § 15,
when it was injured by its participation in a market
that was foreseeably affected by defendants’ anticompetitive manipulation of a directly related market.

ii
RULE 29.6 DISCLOSURE STATEMENT
7 West 57th Street Realty Company, LLC has no
parent corporation, and no publicly held corporation
owns 10% or more of its stock.
RELATED PROCEEDINGS
United States Court of Appeals (2d Cir.):
7 West 57th Street Realty Co. v. Citigroup, Inc.,
No. 18-1102 (Apr. 30, 2019)
United States District Court (S.D.N.Y.):
7 West 57th Street Realty Co. v. Citigroup, Inc.,
No. 13-cv-981 (Mar. 20, 2018) (order on
motion for leave to amend complaint)
7 West 57th Street Realty Co. v. Citigroup, Inc.,
No. 13-cv-981 (Mar. 31, 2015) (order on
motion to dismiss)
New York State Courts:
Citibank, N.A. v. Solow, Index No. 603697/2008
(Sup. Ct. Mar. 24, 2011)
Citibank, N.A. v. Solow, Nos. M-955 and M-1203
(App. Div. Feb. 23, 2012)
Citibank, N.A. v. Solow, No. 2012-464
(Ct. App. June 27, 2012)

iii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RULE 29.6 DISCLOSURE STATEMENT .................. ii
RELATED PROCEEDINGS........................................ ii
TABLE OF AUTHORITIES ........................................ v
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
RELEVANT STATUTORY PROVISIONS ................. 1
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE..................................... 3
REASONS FOR GRANTING THE WRIT ................ 11
I.

The Courts Of Appeals Are Deeply Divided
On The Question Presented ................................ 11

II. The Second Circuit’s Erroneous Holding
On The Question Presented Merits This
Court’s Review ..................................................... 19
III. This Case Is An Excellent Vehicle To Decide
The Question Presented ...................................... 22
CONCLUSION .......................................................... 24

iv
TABLE OF APPENDICES
Appendix A, Court of Appeals Decision
(2d Cir. Apr. 30, 2019) ............................................... 1a
Appendix B, District Court Decision Denying
Motion for Leave to Amend Complaint
(S.D.N.Y. Mar. 20, 2018) ......................................... 11a
Appendix C, District Court Decision Granting
Motion to Dismiss (S.D.N.Y. Mar. 31, 2015) .......... 50a

v
TABLE OF AUTHORITIES
Cases
Apple Inc. v. Pepper,
139 S. Ct. 1514 (2019) ............................................ 21
Associated Gen. Contractors of Cal., Inc. v. Cal.
State Council of Carpenters,
459 U.S. 519 (1983) .......................................... 13, 15
Blue Shield of Va. v. McCready,
457 U.S. 465 (1982) .............................. 12, 13, 19, 20
Charles Schwab Corp. v. Bank of Am. Corp.,
883 F.3d 68 (2d Cir. 2018) ................................... 4, 6
Gelboim v. Bank of Am. Corp.,
135 S. Ct. 897 (2015) ................................................ 4
Gelboim v. Bank of Am. Corp.,
823 F.3d 759 (2d Cir. 2016) ........................... passim
Knevelbaard Dairies v. Kraft Foods, Inc.,
232 F.3d 979 (9th Cir. 2000) ............................ 16, 17
Loeb Indus., Inc. v. Sumitomo Corp.,
306 F.3d 469 (7th Cir. 2002) .................................. 16
Norris v. Hearst Tr.,
500 F.3d 454 (5th Cir. 2007) .................................. 14
Novell, Inc. v. Microsoft Corp.,
505 F.3d 302 (4th Cir. 2007) ............................ 17, 18
Sanner v. Bd. of Trade of Chi.,
62 F.3d 918 (7th Cir. 1995) .............................. 15, 16
S.D. Collectibles, Inc. v. Plough, Inc.,
952 F.2d 211 (8th Cir. 1991) .................................. 15
Serpa Corp. v. McWane, Inc.,
199 F.3d 6 (1st Cir. 1999) ................................ 14, 15

vi
Statutes
Clayton Act, 15 U.S.C. § 12 et seq. .............. 2, 9, 12, 21
15 U.S.C. § 15 (Section 4) .......................... 2, 12, 21
Racketeer Influenced and Corrupt Organization
Act, 18 U.S.C. § 1961 et seq. .................................... 9
Sherman Act, 15 U.S.C. § 1 et seq. .......................... 1, 9
15 U.S.C. § 1 (Section 1) ........................................ 1
Donnelly Act, N.Y. Gen. Bus. Law §§ 340-347 ........... 9
28 U.S.C. § 1254(1) ...................................................... 1
Other Authorities
P. Areeda & H. Hovenkamp et al.,
Antitrust Law (4th ed. 2014) ................................. 21
Herbert Hovenkamp, Fixing Antitrust’s Indirect
Purchaser Rule, Reg. Rev. (July 17, 2019),
https://www.theregreview.org/2019/07/17/
hovenkamp-fixing-antitrust-indirectpurchaser-rule/ ................................................. 21, 22

PETITION FOR A WRIT OF CERTIORARI
Petitioner 7 West 57th Street Realty Company,
LLC respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Second Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a10a) is unpublished but available at 2019 WL 1914278.
The most recent opinion of the district court (Pet. App.
11a-49a) is reported at 314 F. Supp. 3d 497. An earlier
decision of the district court (Pet. App. 50a-118a) is unpublished but available at 2015 WL 1514539.
JURISDICTION
The judgment of the court of appeals was entered
on April 30, 2019 (Pet. App. 2a). This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISIONS
Section 1 of the Sherman Act (15 U.S.C. § 1) states:
Every contract, combination in the form of
trust or otherwise, or conspiracy, in restraint
of trade or commerce among the several
States, or with foreign nations, is declared to
be illegal. Every person who shall make any
contract or engage in any combination or conspiracy hereby declared to be illegal shall be
deemed guilty of a felony, and, on conviction
thereof, shall be punished by fine not exceeding $100,000,000 if a corporation, or, if any
other person, $1,000,000, or by imprisonment
not exceeding 10 years, or by both said punishments, in the discretion of the court.

2
Section 4 of the Clayton Act (15 U.S.C. § 15) states
in relevant part:
(a) Except as provided in subsection (b), any
person who shall be injured in his business or
property by reason of anything forbidden in
the antitrust laws may sue therefor in any
district court of the United States in the district in which the defendant resides or is
found or has an agent, without respect to the
amount in controversy, and shall recover
threefold the damages by him sustained, and
the cost of suit, including a reasonable attorney’s fee.
INTRODUCTION
Respondents engaged in a massive conspiracy to
manipulate what was then the world’s most important
benchmark interest rate in order to increase their own
profits. Petitioner had a direct privity relationship
with a conspirator and, as a result of respondents’
price-fixing conspiracy, petitioner suffered hundreds
of millions of dollars in financial losses—losses from
which respondents directly profited. Petitioner should
therefore present as a textbook definition of a plaintiff
with antitrust standing. But the Second Circuit held
that, although petitioner suffered an antitrust injury,
it could not establish antitrust standing because it did
not participate in the market that respondents manipulated but instead participated in a directly related
market. That holding is wrong.
Respondents conspired to fix the prices of financial instruments indexed to the London Interbank Offered Rate (LIBOR) by colluding to set an artificially
inflated or depressed LIBOR value, depending on

3
respondents’ needs of the moment. As a direct and
predictable effect of respondents’ price-fixing scheme,
the value of petitioner’s bond portfolio (which collateralized a loan from respondent Citibank) declined—
and respondents promptly took advantage of the drop
in value that they caused by seizing the bonds. Petitioner’s antitrust injuries are precisely the type of injuries respondents would have expected to result from
their market manipulation—and when respondents
leveraged the predictable effect their scheme had on
petitioner’s bond collateral as a means of profiting
from petitioner, respondents fulfilled the goal of their
scheme. Nothing more should be required to establish
antitrust standing—and in three circuits, nothing
more is required. But in four circuits (including the
Second Circuit below) antitrust violators get a free pass
when their scheme is so large that it predictably (and
often intentionally) affects separate but related markets. This Court’s intervention is warranted to ensure
that a uniform standard applies nationwide, and this
case is an ideal vehicle to establish such a standard.
STATEMENT OF THE CASE
1. a. Respondents—some of the world’s largest
banks—engaged in a secret horizontal price-fixing
conspiracy to increase their own profits by manipulating LIBOR. Respondent Citibank used its direct relationship with petitioner 7 West 57th Street Realty
Company, LLC, to transfer nearly $450 million from
petitioner to itself and other co-conspirator respondents by taking advantage of a natural and foreseeable
consequence of the price-fixing scheme.
LIBOR is an interest-rate benchmark that is used
as a key price component in an array of financial

4
instruments, including loans, bonds, and derivative
instruments like swaps. Gelboim v. Bank of Am.
Corp., 823 F.3d 759, 765 (2d Cir. 2016); see also Gelboim v. Bank of Am. Corp., 135 S. Ct. 897, 903 (2015).
LIBOR often is directly incorporated as a component
of interest rates, with interest rates represented as a
fixed spread above LIBOR. 823 F.3d at 765-766. LIBOR is also used by financial-services companies in
pricing interest-bearing debt securities (i.e., bonds)
that are not denominated in terms of LIBOR because
of LIBOR’s overwhelming importance to the financialservices industry. Charles Schwab Corp. v. Bank of
Am. Corp., 883 F.3d 68, 78-79 (2d Cir. 2018). Thus,
LIBOR “has been called the world’s most important
number.” Gelboim, 823 F.3d at 765 (internal quotation marks omitted).
Respondents were all members of the British
Bankers’ Association (BBA), the leading trade association for the U.K. banking financial services sector.
Gelboim, 823 F.3d at 765. The BBA set a different
daily LIBOR value for ten separate currencies—at issue here is U.S. Dollar LIBOR.1 Ibid.; Pet. App. 14a.
During the relevant time, each member bank responded to the following question every business day:
“At what rate could you borrow funds, were you to do
so by asking for and then accepting inter-bank offers
in a reasonable market size just prior to 11 a.m.?” 823
F.3d at 765. Thomson Reuters later compiled each
bank’s submission and calculated the final daily LIBOR
by first discarding the four highest and four lowest

1

For ease of use, we will continue to refer to U.S. Dollar
LIBOR as simply “LIBOR.”

5
submissions and then calculating the mean of the
eight remaining submissions. Id. at 766.
Under the governing BBA rules, each bank was to
respond on the basis of its own research, as well as its
own credit and liquidity risk profile. Each bank was
required to independently exercise good-faith judgment and to submit an interest rate based on its own
expert knowledge of market conditions, without reference to rates contributed by other panel-member
banks. Each bank’s submission was required to remain confidential until after the final daily LIBOR
was published. And the daily submissions of each of
the 16 panel members were to be published along with
the final rate in order to promote “transparen[cy] on
an ex post basis.” Gelboim, 823 F.3d at 766 (citation
omitted).
In addition to being BBA LIBOR panel members,
respondents were also horizontal competitors in the issuance of a variety of financial services and products,
including LIBOR-denominated loans and derivatives.
Gelboim, 823 F.3d at 766.
b. On the basis of information disclosed after extensive government investigations, petitioner has alleged that respondents engaged in a collusive scheme
to fix LIBOR in order to financially benefit themselves.
Pet. App. 16a-17a. As revealed in government investigations, respondents effectuated their conspiracy
through coordinated daily submissions of their individual LIBOR values, for the purpose, inter alia, of increasing the banks’ profitability. See Gelboim, 823
F.3d at 781-782. As just one of many examples of respondents’ activities, respondent Barclays admitted to
government investigators that its traders coordinated
with the bank’s LIBOR submitters to submit inaccu-

6
rate daily LIBOR responses that benefitted the traders’ positions on various instruments. C.A. J.A. 56-57.
Barclays’ LIBOR submitters agreed to accommodate
the traders’ requests to submit “a rate higher, lower,
or unchanged” compared to what an accurate submission would have been in order to benefit the traders.
Ibid. Barclays’ traders also coordinated with submitters at other member banks to convince them to also
submit inaccurate rates. C.A. J.A. 56-58. Respondents UBS and RBS admitted that its traders and submitters also worked together to provide inaccurate
LIBOR submissions. C.A. J.A. 59-81.
As a result of respondents’ collusive behavior, the
published LIBOR value was inaccurate for months.
See Gelboim, 823 F.3d at 765. Respondents’ manipulation of LIBOR was evident in the fact that published
LIBOR was no longer tracking other economic indicators—including credit-default-swap spreads, the OneMonth Treasury Bill rate, and the actual costs of borrowing—as it historically had done. Schwab, 883 F.3d
at 96-98; C.A. J.A. 81-88; see Gelboim, 823 F.3d at 767.
Throughout 2008, as evidence from those investigations began to come to light, the BBA and the individual respondents repeatedly reassured the public and
government regulators that LIBOR was not being manipulated. C.A. J.A. 98-100. Those statements were
dishonest as respondents continued their price-fixing
scheme and, together with the BBA, continued to cover
it up.
c. For a period of about a month from mid-September to mid-October 2008, evidence shows that respondents’ LIBOR submissions—and the resulting
LIBOR values—were artificially inflated. C.A. J.A.
91-96. During that time, respondent Citibank was on

7
the verge of collapse, desperately in need of cash, and
rapidly approaching illiquidity in spite of receiving
two government bailouts that injected a total of $45
billion of capital into the company. Pet. C.A. Br. 14.
Just as Citibank’s financial woes were coming to a
head and threatening to shutter the bank for good, the
events giving rise to petitioner’s injuries took place.
In 2003, Sheldon H. Solow—the assignor of the
current cause of action to petitioner—had pledged
$450 million in pre-refunded high-grade municipal
bonds with virtually no credit risk as collateral for
LIBOR-denominated loans from Citibank.2 Pet. App.
17a; C.A. J.A. 41-42, 89. The loans were due in March
2009. C.A. J.A. 89. At all times, Solow was current on
his loan payments. Ibid.
In late September 2008—in the middle of respondents’ artificial inflation of LIBOR—respondent Citibank notified Solow that on five consecutive days between September 17 and September 23, 2008, the
value of his bond-portfolio collateral had dropped below the value required as collateral for his loans. C.A.
J.A. 90-91. As alleged in petitioner’s complaint, respondents’ temporary inflation of LIBOR depressed
the value of fixed-rate bonds, such as those indexed by
the Standard & Poor’s New York AMT-Free Municipal
Bond Index and the municipal bonds pledged by Solow
as collateral, because there was a direct, inverse, and
well-known relationship between LIBOR and the value

2

This petition sometimes refers to petitioner and Solow
interchangeably.

8
of fixed-rate instruments. C.A. J.A. 94-95. 3 During
the one-month period of respondents’ collusive inflation of LIBOR, Solow’s bond-portfolio collateral predictably decreased in value, even though the bonds
themselves were not denominated in LIBOR. C.A.
J.A. 91-96. Seizing on this temporary decrease in
value, Citibank claimed a technical default on the
loans and seized the bonds. C.A. J.A. 41-42, 90-91.
After seizing Solow’s bonds, the cash-desperate
Citibank sold them in a fire-sale for approximately
$415 million, with many of the bonds purchased by respondents, including by Citibank itself. C.A. J.A. 9096. Citibank also seized more than $4.2 million from
Solow’s accounts to pay interest on the defaulted loan.4
C.A. J.A. 96. By January 23, 2009—after respondents’
upward manipulation of LIBOR had ceased and before
Solow’s loans would have been due had Citibank not
seized his bonds and sold them—all of Solow’s bonds
had fully regained their value. C.A. J.A. 90.
3

The direct and inverse relationship between LIBOR and
bond values is easily understood. Bond investors are yield
investors who trade their bond instruments in order to ensure
that they receive a yield equal to the market rate. The yield on a
bond is a function of the purchase price, the interest rate it pays,
and the par value. The way to increase the yield on a lowerinterest bond that is already in the market is to buy it for a lower
price. Thus, as benchmark interest rates such as LIBOR go up,
the value of fixed-price bonds directly and predictably goes down.
4

Citibank sued Solow in New York state court to recover an
additional $67 million deficiency Citibank alleged remained after
the bond sale. C.A. J.A. 96-97. Citibank obtained a final judgment for more than $100 million in March 2011, which was affirmed on appeal. C.A. J.A. 97. Solow paid the judgment in full
in May 2012 because he lacked knowledge of respondents’ LIBOR
manipulation at that time. Ibid.

9
2. In February 2013, after Solow assigned his
claims to petitioner, petitioner filed this action in the
U.S. District Court for the Southern District of New
York alleging that respondents colluded to manipulate
LIBOR in violation of Section 1 of the Sherman Act,
15 U.S.C. § 1 et seq.; Section 15 of the Clayton Act,
15 U.S.C. § 12 et seq.; the Racketeer Influenced and
Corrupt Organization Act (RICO), 18 U.S.C. § 1961
et seq.; and New York’s Donnelly Act, N.Y. Gen. Bus.
Law §§ 340-347. Pet. App. 50a-51a. Respondents
moved to dismiss, and in March 2015, the court
granted the motion to dismiss petitioner’s first
amended complaint. Id. at 118a. The court concluded,
inter alia, that petitioner failed to establish that it had
suffered an antitrust injury and that its RICO claim
was barred both by the statute of limitations and by
res judicata. Id. at 80a-116a.
Petitioner moved for leave to file a second
amended complaint to cure the alleged defects identified by the district court. Respondents opposed the
motion on the ground that amendment would be futile.
Pet. App. 11a-13a. The court denied petitioner’s motion to file a second amended complaint. Id. at 49a.
On petitioner’s federal antitrust claim, the court reversed its initial finding that petitioner failed to adequately allege antitrust injury, relying on the Second
Circuit’s intervening decision in Gelboim, supra. Pet.
App. 32a-33a. The district court nonetheless held that
petitioner could not establish antitrust standing because it did not demonstrate that it is an “efficient enforcer” of its antitrust claim. Id. at 33a-40a. The court
also reversed its earlier holding that petitioner’s RICO
claim was time-barred, but affirmed its conclusion

10
that the RICO claim was barred by res judicata. Id. at
41a-48a.
3. On appeal, the Second Circuit affirmed, holding that petitioner is not an efficient enforcer of the
antitrust laws in spite of its direct privity relationship
with one of the price-fixers, and holding that petitioner’s RICO claim must fail because its injury was
too remote from respondents’ illegal conspiracy. Pet.
App. 4a-9a.
With respect to petitioner’s antitrust claim, the
court of appeals first held that petitioner’s injury was
not directly caused by respondents’ artificial inflation
of LIBOR because petitioner’s bonds were not denominated in LIBOR, and therefore the diminution in
value of the bonds was “necessarily directly caused by
the independent judgments of participants in the secondary municipal bond market.” Pet. App. 6a. The
court went on to hold that more direct victims of respondents’ price-fixing scheme exist—eliding the facts
that the victims the court identified were injured by
respondents’ suppression, rather than inflation, of
LIBOR and that petitioner had a direct privity relationship with respondent Citibank. Id. at 6a-7a. Finally, although the extent of the harm to Solow had already been clearly established through the state-court
proceedings, see note 4, supra, the court of appeals
found that “damages flowing from Appellant’s alleged
injuries would be highly speculative.” Pet. App. 7a.
With respect to petitioner’s RICO claim, the court
of appeals “decline[d] to address” the district court’s
holding that petitioner’s RICO claims were barred by
res judicata because Solow was put on inquiry notice
of his federal claims only nine days before the statecourt judgement was final. Pet. App. 9a; Pet. C.A. Br.

11
22. The court of appeals instead affirmed dismissal of
petitioner’s RICO claim because, the panel concluded,
it “would fail on the merits.” Pet. App. 9a. That conclusion merely piggy-backed the panel’s determination
that petitioner’s injury was not tied closely enough to
respondents’ conspiratorial acts to satisfy principles of
proximate cause. Id. at 9a-10a.
REASONS FOR GRANTING THE WRIT
Petitioner has plausibly alleged that respondents’
price-fixing in the market for LIBOR-denominated financial instruments directly and foreseeably affected
the value of petitioner’s bond portfolio, which predictably reacts to changes in LIBOR—and that as a result
of respondents’ market manipulation, money was
taken from petitioner by respondents. In at least three
courts of appeals, petitioner would have antitrust
standing at least sufficient to survive a motion to dismiss. But in the Second Circuit—and three others—
petitioner is out of luck because its injuries stem not
from participation in the manipulated market, but
from participation in a related market that predictably
reacted to that market. This Court should intervene
to settle the circuit conflict on this important and recurring question of antitrust standing—and this case
is an ideal vehicle in which to do so.
I.

The Courts Of Appeals Are Deeply Divided
On The Question Presented.

The courts of appeals are intractably divided
about whether a price-fixer may be liable in antitrust
for injuries to an individual who participates in a market that is different from, but directly and predictably
affected by, the market manipulated by the price-fixer.
Here, the Second Circuit held that petitioner lacked

12
antitrust standing because it did not participate in the
market directly manipulated by respondents—the
market for LIBOR-denominated financial instruments—even though petitioner was injured by its participation in a market that was directly and foreseeably affected by respondents’ price-fixing scheme—the
market for its bond portfolio. If petitioner had filed
the same complaint in the Fourth, Seventh, or Ninth
Circuits, it would have established antitrust standing
and survived respondents’ motion to dismiss. This
Court’s intervention is warranted to settle the circuit
conflict.
1. Section 4 of the Clayton Act, 15 U.S.C. § 15,
provides that “any person who shall be injured in his
business or property by reason of anything forbidden
in the antitrust laws,” has a private cause of action for
treble damages. As this Court has recognized, Congress had an “expansive remedial purpose in enacting
§ 4,” and nothing in the statute limits potential plaintiffs to individuals who are customers or competitors
of the market manipulators. Blue Shield of Va. v.
McCready, 457 U.S. 465, 472, 484-485 (1982) (citation
omitted). Although this Court “refused to engraft artificial limitations on the § 4 remedy,” id. at 472, it has
also recognized that “Congress did not intend to allow
every person tangentially affected by an antitrust violation to maintain an action to recover threefold damages for the injury to his business or property,” id. at
477. Thus, despite the broad scope of the statutory
language, the Court has limited the types of injured
parties who may sue to enforce the antitrust laws,
ibid., by requiring a showing of what lower courts call
“antitrust standing.”

13
In Associated General Contractors of California,
Inc. v. California State Council of Carpenters, the
Court enumerated a set of factors to consider when determining whether a particular antitrust plaintiff may
maintain its suit. 459 U.S. 519, 535-545 (1983) (AGC).
Taken together, the relevant factors require a court to
determine whether a plaintiff ’s asserted injury is the
type of injury Congress sought to redress through antitrust laws (i.e., whether a plaintiff has established a
so-called “antitrust injury”) and whether the plaintiff ’s injury is sufficiently direct and ascertainable to
render the plaintiff a so-called “efficient enforcer” of
the antitrust laws. Pet. App. 4a-5a; see AGC, 459 U.S.
at 535-545; McCready, 457 U.S. at 472-478. As relevant to this case, in determining whether a plaintiff is
an efficient enforcer of the antitrust laws, courts examine how direct the connection is between the alleged antitrust violation and the plaintiff ’s asserted
injuries. Pet. App. 5a-6a. Although injured consumers and competitors in the restrained market are generally accepted as appropriate antitrust plaintiffs, see,
e.g., AGC, 459 U.S. at 539, courts of appeals are deeply
divided about whether an injured participant in a related market also has antitrust standing. This Court’s
intervention is sorely needed to settle that recurring
question.
2. In the decision below, the Second Circuit held
that petitioner lacks antitrust standing because it is
not a direct participant in the market that respondents conspired to manipulate, i.e., the market for
LIBOR-denominated financial instruments. Pet. App.
6a. Petitioner alleged in its complaint and proposed
second amended complaint both that bond prices and
benchmark interest rates such as LIBOR move in

14
opposite directions and that respondents’ price-fixing
scheme directly contributed to the drop in value of
Solow’s bond portfolio. C.A. J.A. 41, 89-91, 489, 553555. But because the bonds were not LIBOR-denominated (although the interest rates on the loans were),
the court of appeals held that the connection between
respondents’ anticompetitive behavior and petitioner’s
injuries was by definition not sufficiently direct. Pet.
App. 6a. The Second Circuit’s approach to the efficient-enforcer prong of antitrust standing comports
with that of the First, Fifth, and Eighth Circuits.
Those courts have held that a consumer or competitor
in the manipulated market can establish antitrust
standing—but that participants in a separate but related market cannot.
In Norris v. Hearst Trust, for example, the plaintiffs were distributors of the Houston Chronicle who
alleged that the defendant used its monopoly power in
the Houston newspaper market to demand that its distributors provide false certifications involving advertising rates—and then fired any distributor that refused to provide the false certifications. 500 F.3d 454,
457-459 (5th Cir. 2007). The Fifth Circuit held that
the plaintiffs lacked antitrust standing because such
standing is limited to “consumers []or competitors in
the market attempted to be restrained.” Id. at 467.
The First Circuit applied a similar rule in Serpa Corp.
v. McWane, Inc., holding that a plumbing-supplies distributor lacked antitrust standing to challenge anticompetitive actions of the manufacturer because it
was not a competitor or consumer of manufacturer—
and “[c]ompetitors and consumers in the market
where trade is allegedly restrained are presumptively
the proper plaintiffs to allege antitrust injury.”

15
199 F.3d 6, 10 (1st Cir. 1999); see id. at 9, 13. The
Eighth Circuit has also held that antitrust “standing
is generally limited to actual market participants, that
is, competitors or consumers.” S.D. Collectibles, Inc. v.
Plough, Inc., 952 F.2d 211, 213 (8th Cir. 1991) (citing
AGC, 459 U.S. at 539).
3. In contrast, the Fourth, Seventh, and Ninth
Circuits have recognized a plaintiff ’s antitrust standing based on injuries flowing from participation in a
market that was not directly manipulated by antitrust
defendants but was affected by defendants’ manipulation of a related market.
In Sanner v. Board of Trade of Chicago, for example, the Seventh Circuit considered the claims of, inter
alia, soybean farmers who claimed injury from their
participation in the soybean cash market as a result of
defendants’ manipulation of prices in the soybean futures market. 62 F.3d 918, 921-922 (7th Cir. 1995).
The district court had dismissed the plaintiff farmers’
claims for lack of antitrust standing because “the cash
market for soybeans was distinct from the futures
market for the same commodity”—and the defendants’
alleged market manipulation “was directed toward the
futures market” in which “the plaintiffs did not themselves participate.” Id. at 926. The Seventh Circuit
reversed, holding that, although the cash and futures
markets for soybeans are distinct markets, the plaintiffs had established antitrust standing at the pleading stage because they had plausibly alleged that the
defendants’ manipulation of the futures market “predictably would have impacted the cash market as
well”—and, indeed, the plaintiffs had alleged that the
effect on the cash market was part of the conspirators’
anticompetitive aim. Id. at 929. The fact that partic-

16
ipants in the directly manipulated futures market
were also affected by the defendants’ alleged market
manipulation, the court explained, did not make the
injuries of cash-market participants any less direct or
any less deserving of protection under the antitrust
laws. Id. at 930. And the court rejected the marketmanipulators’ argument that the farmers’ damages
from participation in the related cash market were
speculative, explaining that a “damages calculation
for a market manipulation scheme . . . is hardly beyond the ken of the federal courts.” Ibid.
The Seventh Circuit similarly recognized the antitrust standing of some participants in the physical
copper market in their suit against defendants that
manipulated the copper futures market in Loeb Industries, Inc. v. Sumitomo Corp., explaining that, because
“different injuries in distinct markets may be inflicted
by a single antitrust conspiracy,” “differently situated
plaintiffs might be able to raise claims.” 306 F.3d 469,
481 (7th Cir. 2002); see id. at 475-478, 481-483. The
court also rejected the defendants’ argument that the
plaintiffs’ damages were too speculative, characterizing “[t]he defendants’ entire case theory” as “troubling”: “because their scheme was so evil, went undetected for so long, and caused so much economic loss
throughout the cash market, that we should simply
give them a pass from the antitrust laws.” Id. at 493.
As the court explained, “[t]his is not now and never has
been the law.” Ibid.
The Ninth Circuit used a similar approach to determining whether a plaintiff had antitrust standing
based on injuries from participation in a market that
was related to—but distinct from—a manipulated
market in Knevelbaard Dairies v. Kraft Foods, Inc.,

17
232 F.3d 979 (9th Cir. 2000). The plaintiffs in Knevelbaard were milk producers who alleged that defendant
cheese makers colluded to rig the price of bulk cheese
on the cash auction market on the Wisconsin-based
National Cheese Exchange—and that, as an intended
result, the price of milk on the California-based fluid
milk market was depressed. Id. at 984-985. The
Ninth Circuit rejected the defendants’ argument that
“the chain of causation” between their alleged fixing of
the cheese market in Wisconsin and plaintiffs’ injuries
from effects of the price-fixing felt in the milk market
in California was “too tenuous to support recovery.”
Id. at 989. The court held that the milk sellers had
established antitrust standing because the defendants’ manipulation of the cheese market had the direct
and intended consequence of affecting prices in the
milk market. Id. at 990-991. The court explained
that, “where a plaintiff is injured by one facet of a
multi-faceted conspiracy, he is entitled to damages regardless of whether the other facets of the defendants’
collusion had any economic impact on him.” Id. at 991.
Finally, the Fourth Circuit applied a similar approach in Novell, Inc. v. Microsoft Corp., when it expressly declined “to adopt a bright-line rule that only
consumers or competitors in the relevant market have
antitrust standing.” 505 F.3d 302, 311 (4th Cir. 2007).
The plaintiff in that case was a software developer
that participated in the market for office-productivity
software and claimed injuries from defendant Microsoft’s anticompetitive activities in the market for
PC operating systems. Id. at 306-308. The court held
that the plaintiff was an efficient enforcer of the antitrust laws with respect to Microsoft’s manipulation of
the operating-system market even though the plaintiff

18
was harmed by anticompetitive effects felt in the distinct market for office-productivity software. Id. at
317-319.
4. This Court’s intervention is needed now to resolve the circuit courts’ conflicting approach to determining whether a plaintiff has antitrust standing to
seek compensation for a defendant’s anticompetitive
manipulation of one market when the plaintiff ’s injuries stem from its participation in a distinct but directly affected market. The Second Circuit held that
petitioner lacked antitrust standing because it did not
participate in the market that was directly manipulated by respondents—i.e., the market for LIBORdenominated financial instruments. Pet. App. 6a. In
the First, Fifth, and Eighth Circuits, the result would
likely have been the same. But in the Fourth, Seventh, and Ninth Circuits, petitioner would likely have
survived respondents’ motions to dismiss—because
petitioner plausibly alleged that respondents’ manipulation of the market for LIBOR-denominated financial instruments had a direct and foreseeable effect on
the market for its bonds. The circuit conflict stands in
particularly stark relief in this case, moreover, because as a result of respondents’ price-fixing scheme,
money from petitioner’s pocket went directly into the
pocket of one or more price-fixers. When a price-fixer
intentionally leverages a known effect of its market
manipulation to line its own pockets, the victim of that
scheme should have antitrust standing. But in the
Second Circuit (and in three other circuits), it does not
have standing when the foreseeable effect leveraged
by the price-fixer occurs in a market that is distinct
from the directly manipulated market.

19
II. The Second Circuit’s Erroneous Holding
On The Question Presented Merits This
Court’s Review.
As illustrated by the widespread circuit conflict,
the question presented is important and recurring. At
least four circuits have cut off antitrust standing to an
entire class of market-manipulation victims, in contravention of this Court’s precedents.
This Court has already rejected the Second Circuit’s view that antitrust standing does not extend to
individuals who do not directly participate in the manipulated market. In McCready, the Court considered
the claims of an individual who subscribed to Blue
Shield’s healthcare plan through her employer and
who alleged that Blue Shield reimbursed subscribers
for psychotherapy provided by psychiatrists, but not
for the same services provided by psychologists. 457
U.S. at 468-470. After being denied reimbursement
for treatment provided by a psychologist, McCready
alleged that Blue Shield and a professional organization of psychiatrists had illegally conspired to manipulate the market for transactions between healthcare
plans on one side and psychiatrists and psychologists
on the other. Ibid. Although McCready, as a healthcare-plan subscriber, was harmed by the conspiracy,
she was not a direct participant in that market.
In recognizing McCready’s antitrust standing, this
Court rejected a bright line rule that only the specific
target of the conspiracy—there, psychologists—have
standing to sue, focusing instead on whether McCready
had “sustained injuries too remote” to supply antitrust
standing. 457 U.S. at 476 (emphasis and citation omitted). The Court explained that McCready’s injuries
were not too remote because the harm she suffered

20
“was clearly foreseeable” and was “precisely the type
of loss that the claimed violations would be likely to
cause” because her injury was “so integral to an aspect
of the conspiracy.” Id. at 479 (internal quotation
marks and alterations omitted). Even more to the
point, the Court expressly rejected the defendants’
proposed rule that antitrust standing should be limited to “economic actor[s] in the market that had been
restrained.” Ibid.
The rules this Court rejected in McCready are precisely the rules the Second Circuit applied below. Like
McCready’s injuries, petitioner’s injuries were clearly
foreseeable and were “within that area of the economy” that was “endangered by [the] breakdown of competitive conditions” that resulted (by design) from the
respondents’ manipulation of LIBOR. 457 U.S. at 480
(citation omitted). Indeed, as alleged in the operative
complaint (and in the proposed second amended complaint), C.A. J.A. 40, 56-72, 96, 488-489—and as the
Second Circuit held in Gelboim v. Bank of America
Corp., 823 F.3d 759, 782 (2d Cir. 2016)—one purpose
of respondents’ price-fixing conspiracy was to increase
their profits in individual financial transactions. It
must be taken as true at this stage of the litigation
that when respondent Citibank, while on the brink of
illiquidity and collapse, took advantage of a foreseeable consequence of its market manipulation by treating the drop in value of petitioner’s bond portfolio as
an excuse to foreclose on petitioner’s otherwise current
loans, it increased its own profits at petitioner’s expense. Petitioner’s losses were therefore “integral to
an aspect of [respondents’] conspiracy” and were made
possible by respondents’ leveraging a foreseeable effect of its conspiracy to fix prices in the market for

21
LIBOR-denominated financial instruments.
Like
McCready, petitioner participated in a related market
that was affected by respondents’ market manipulation—and like McCready, petitioner should have had
antitrust standing.
This Court recently reaffirmed that the “broad
text” of Section 4 of the Clayton Act “broadly affords
injured parties a right to sue under the antitrust laws”
and “readily covers” a variety of consumers. Apple Inc.
v. Pepper, 139 S. Ct. 1514, 1520, 1522 (2019). Although the two-sided market at issue in Pepper was
different from the horizontal LIBOR-fixing conspiracy
at issue here, the Court’s discussion generally
supports finding antitrust standing at the pleading
stage, even when a market manipulator’s scheme
affects large swaths of people. The Second Circuit
refused to recognize petitioner’s standing in part out
of fear of subjecting the price-fixing respondent banks
to too much liability. Pet. App. 6a. But this Court’s
decision in Pepper makes clear that that type of
concern has no place in determining whether a
purported plaintiff is a proper antitrust plaintiff when
(as here) the plaintiff ’s injuries were proximately
caused by the anticompetitive scheme. See Pepper,
139 S. Ct. at 1525 (“Basic antitrust law tells us that
the ‘mere fact that an antitrust violation produces two
different classes of victims hardly entails that their
injuries are duplicative of one another.’ ”) (quoting 2A
P. Areeda & H. Hovenkamp et al., Antitrust Law
¶ 339d, at 136 (4th ed. 2014)); see also Herbert
Hovenkamp, Fixing Antitrust’s Indirect Purchaser

22
Rule, Reg. Rev. (July 17, 2019) 5 (arguing that the
“nineteenth century tort law concept” that “only a
single entity could be said to have an injury that was
proximately caused by the defendant’s conduct” makes
little “sense in antitrust cases” and “should be laid to
rest”).
III. This Case Is An Excellent Vehicle To Decide
The Question Presented.
There is a well-developed circuit conflict on
whether an antitrust violator is subject to suit for
damages inflicted as a result of its market manipulation when those damages occur in a market that is related to, but distinct from, the directly manipulated
market. This case is an ideal vehicle for resolving the
conflict on that important question.
This case cleanly poses the question presented because petitioner has plainly alleged that respondents’
price-fixing scheme, which was directed at the market
for LIBOR-denominated financial instruments, had a
direct and foreseeable effect on the sector of the bond
market in which petitioner participated. Petitioner
also plainly alleged that, as a result of respondents’
anticompetitive conspiracy and its direct effect on the
value of petitioner’s bonds, petitioner was injured and
respondents directly profited from petitioner’s injuries. In other words, the allegations in the complaint—which must be taken as true at this point—
cleanly tee up the question whether a plaintiff lacks
antitrust standing merely because its injuries stem
from participation in a market that is related to, but

5

https://www.theregreview.org/2019/07/17/hovenkampfixing-antitrust-indirect-purchaser-rule/.

23
distinct from, the market that was directly manipulated by the antitrust defendants. The Second Circuit
held that petitioner lacks standing on that basis; this
Court should intervene to correct that mistake.
This case is an ideal vehicle to consider the question presented because it does not implicate thornier
issues of antitrust standing that can muddy the analysis. Thus, for example, this case does not require the
Court to determine whether an umbrella purchaser6
would have antitrust standing. See Gelboim, 823 F.3d
at 778. It also does not involve a plaintiff with no direct privity relationship to an antitrust conspirator:
petitioner had a direct relationship with respondent
Citibank and, as a result of respondents’ anticompetitive behavior, Citibank and other respondents took
money directly from petitioner.
Importantly, the non-precedential status of the
decision below presents no obstacle to granting this petition. The decision below makes clear that it involves
a straightforward application of the principles of antitrust standing that govern antitrust cases arising in
the Second Circuit. In particular, the decision below
purports to apply Gelboim—a published decision—
without alteration or elaboration. Pet. App. 4a-8a (citing or quoting Gelboim eleven times in four pages of

6

An “umbrella purchaser” is a customer who buys a pricefixed good from a non-conspirator and claims that the price was
inflated because the non-conspirator could charge higher prices
as a result of inflation caused by the price-fixing conspiracy. Gelboim, 823 F.3d at 778.

24
the opinion). In the absence of this Court’s intervention, the entrenched circuit conflict will linger on.7
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Daniel J. Mogin
MOGINRUBIN LLP
600 WEST Broadway
Suite 3300
San Diego, CA 92101
(619) 687-6611

Sarah E. Harrington
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

July 29, 2019

7

The court of appeals’ conclusion that the connection between
petitioner’s injuries and respondent’s market manipulation was
not sufficiently direct employed principles of proximate causation. Pet. App. 6a. The court separately affirmed the dismissal
of petitioner’s RICO claim on the ground that petitioner’s injuries
were not proximately caused by respondents’ scheme. Id. at 9a10a. That conclusion on proximate cause is no obstacle to this
Court’s review because it was premised entirely on the court of
appeals’ holding (in affirming dismissal of petitioner’s antitrust
claims) that the link between petitioner’s injuries and respondents’ anticompetitive behavior was not direct enough. Ibid. If this
Court were to grant this petition and reverse that holding, the
court of appeals would have to reconsider its proximate-cause
conclusion as well.

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
No. 18-1102-cv
7 WEST 57TH STREET REALTY COMPANY, LLC,
A Delaware Limited Liability Company,
Plaintiff-Appellant,
v.
CITIGROUP, INC., CITIBANK, N.A., BANK OF
AMERICA CORPORATION, BANK OF AMERICA
N.A., BARCLAYS BANKS PLC, UBS AG,
JPMORGAN CHASE & CO., CREDIT SUISSE
GROUP AG, BANK OF TOKYO-MITSUBISHI UFJ,
LTD., COOPERATIEVE CENTRALE RAIFFEISEN BOERENLEENBANK B.A., HSBC HOLDINGS PLC,
HSBC BANK PLC, HBOS PLC, LLOYDS BANKING
GROUP PLC, ROYAL BANK OF CANADA, THE
NORINCHUKIN BANK, THE ROYAL BANK OF
SCOTLAND GROUP PLC, WESTLB AG,
WESTDEUTSCHE IMMOBILIENBANK AG,
DEUTSCHE BANK AG, JPMORGAN CHASE
BANK, N.A.,
Defendants-Appellees.
________________________________
SUMMARY ORDER
________________________________
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A

2a
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York on the 30th day of April, two
thousand nineteen.
Present: ROSEMARY S. POOLER,
DENNY CHIN,
Circuit Judges.
ERIC N. VITALIANO,1
District Judge.
Appeal from the United States District Court for the
Southern District of New York (Gardephe, J.).
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED that the judgment of said District Court be
and it hereby is AFFIRMED.
Appellant 7 West 57th Street Realty Company,
LLC appeals from the March 20, 2018, judgment of the
United States District Court for the Southern District
1

Judge Eric N. Vitaliano, United States District Court for the
Eastern District of New York, sitting by designation.

3a
of New York (Gardephe, J.), dismissing its claims under the Sherman Act, 15 U.S.C. § 1 et seq., the Clayton
Act, 15 U.S.C. § 15, the Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18 U.S.C. § 1961 et
seq., and New York’s Donnelly Act, N.Y. Gen. Bus.
Law §§ 340-347, against Citigroup, Inc., Citibank,
N.A., Bank of America Corporation, Bank of America
N.A., Barclays Banks PLC, UBS AG, JPMorgan Chase
& Co., Credit Suisse Group AG, Bank of TokyoMitsubishi UFJ, Ltd., Cooperatieve Centrale Raiffeisen - Boerenleenbank B.A., HSBC Holdings PLC,
HSBC Bank PLC, HBOS plc, Lloyds Banking Group
plc, Royal Bank of Canada, The Norinchukin Bank,
The Royal Bank of Scotland Group PLC, WestLB AG,
WestDeutsche ImmobilienBank AG, Deutsche Bank
AG, JPMorgan Chase Bank, N.A. (collectively, “Defendants”), arising from Defendants’ alleged manipulation of the London Inter-bank Offered Rate
(“LIBOR”). On March 31, 2015, the district court dismissed Appellant’s federal claims and declined to exercise supplemental jurisdiction over its state law
claims. See generally 7 W. 57th St. Realty Co. v.
Citigroup, Inc. (Citigroup I), No. 13 Civ. 981 (PGG),
2015 WL 1514539 (S.D.N.Y. Mar. 31, 2015). On March
20, 2018, the district court denied Appellant’s motion
for leave to amend its complaint, holding that, because
Appellant’s proposed second amended complaint was
still deficient, amendment would be futile. See generally 7 W. 57th St. Realty Co. v. Citigroup, Inc.
(Citigroup II), 314 F. Supp. 3d 497 (S.D.N.Y. 2018).
We assume the parties’ familiarity with the underlying facts, procedural history, and specification of issues for review.

4a
I.

Legal Standards

We review de novo a district court’s grant of a motion to dismiss pursuant to Rule 12(b)(6) of the Federal
Rules of Civil Procedure. Biro v. Conde Nast, 807 F.3d
541, 544 (2d Cir. 2015). “The denial of leave to amend
is similarly reviewed de novo because the denial was
based on an interpretation of law, such as futility.”
Gelboim v. Bank of America Corp., 823 F.3d 759, 769
(2d Cir. 2016) (internal quotation marks omitted).
We accept “as true the factual allegations in the
complaint and draw[] all inferences in the plaintiff’s
favor.” Biro, 807 F.3d at 544. To survive a motion to
dismiss, a complaint must allege “enough facts to state
a claim to relief that is plausible on its face.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007). A complaint must contain “enough factual matter (taken as
true)” that is suggestive of, “not merely consistent
with,” the alleged wrongdoing. Id. at 556-57. “A claim
has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). Where, as here, a RICO claim rests on alleged
violations of the mail fraud, wire fraud, and bank
fraud statutes, a complaint must satisfy the heightened pleading standards of Federal Rule of Civil Procedure 9(b). See Lundy v. Catholic Health Sys. of Long
Island Inc., 711 F.3d 106, 119 (2d Cir. 2013).
II. Antitrust Claims
Appellant argues that the district court erred by
concluding that it lacked antitrust standing. To establish antitrust standing, a plaintiff must have suffered
an antitrust injury and be an efficient enforcer of the

5a
antitrust laws. See Gelboim, 823 F.3d at 772. The efficient enforcer inquiry turns on weighing four factors:
“(1) the directness or indirectness of the asserted injury, which requires evaluation of the chain of causation linking [Appellant’s] asserted injury and the
Banks’ alleged price-fixing; (2) the existence of more
direct victims of the alleged conspiracy; (3) the extent
to which [Appellant’s] damages claim is highly speculative; and (4) the importance of avoiding either the
risk of duplicate recoveries on the one hand, or the
danger of complex apportionment of damages on the
other.” Id. at 778 (internal quotation marks omitted);
see also id. at 772. “[T]he weight to be given the various factors will necessarily vary with the circumstances of particular cases.” Daniel v. Am. Bd. of
Emergency Med., 428 F.3d 408, 443 (2d Cir. 2005).
A. Directness of Appellant’s Injuries
“Directness in the antitrust context means close
in the chain of causation.” Gatt Commc’ns, Inc. v. PMC
Assocs., L.L.C., 711 F.3d 68, 78 (2d Cir. 2013) (internal
quotation marks omitted). That is because “[a]n antitrust violation may be expected to cause ripples of
harm to flow through the Nation’s economy; but despite the broad wording of § 4 [of the Clayton Act]
there is a point beyond which the wrongdoer should
not be held liable.” Associated Gen. Contractors of Calif., Inc. v. Calif. State Council of Carpenters, 459 U.S.
519, 534 (1983) (internal quotation marks omitted);
see also Blue Shield of Va. v. McCready, 457 U.S. 465,
477 (1982) (“It is reasonable to assume that Congress
did not intend to allow every person tangentially affected by an antitrust violation to maintain an action
to recover threefold damages for the injury to his business or property.”). Our directness inquiry employs

6a
“familiar principles of proximate causation.” Lotes Co.
v. Hon Hai Precision Indus. Co., 753 F.3d 395, 412 (2d
Cir. 2014).
Here, Appellant’s complaint alleges that LIBOR
affects the value of bonds, like those that belonged to
Sheldon Solow—Appellant’s predecessor in interest—
that are not pegged to LIBOR. However, because
Solow’s municipal bonds were not actually LIBOR denominated, any diminution in value was necessarily
directly caused by the independent judgments of participants in the secondary municipal bond market.
Moreover, we recognized in Gelboim the danger of
opening up antitrust liability to LIBOR contributor
panel banks for injuries “to every plaintiff who ended
up on the wrong side of an independent LIBOR-denominated derivative swap:” doing so would “not only
bankrupt 16 of the world’s most important financial
institutions, but also vastly extend the potential scope
of antitrust liability in myriad markets where derivative instruments have proliferated.” 823 F.3d at 779.
That concern is exponentially more present in this
case, where the bonds were not actually tied to LIBOR.
B. More Direct Victims
“[N]ot every victim of an antitrust violation needs
to be compensated under the antitrust laws in order
for the antitrust laws to be efficiently enforced.” Id.
“The existence of an identifiable class of persons whose
self-interest would normally motivate them to vindicate the public interest in antitrust enforcement diminishes the justification for allowing a more remote
party. . . to perform the office of a private attorney general.” Associated Gen. Contractors, 459 U.S. at 542.

7a
Here, there are indisputably more direct victims.
As Appellant alleges in its complaint, “[h]undreds of
trillions of dollars of bank loans are subject to LIBOR.”
App’x at 41 ¶ 7. A person or entity that was on one
side or the other of those transactions would have a
more direct injury flowing from Defendants’ alleged
LIBOR manipulation than someone, like Appellant,
whose injury flowed from the ripple effect LIBOR has
on financial instruments that are not actually tied to
LIBOR.
C. Speculative Damages
“The most elementary conceptions of justice and
public policy require that the wrongdoer shall bear the
risk of the uncertainty which his own wrong has created.” Bigelow v. RKO Radio Pictures, Inc., 327 U.S.
251, 265 (1946); see also Gelboim, 823 F.3d at 779. Indeed, “[i]mpediments to reaching a reliable damages
estimate often flow from the nature and complexity of
the alleged antitrust violation.” Gelboim, 823 F.3d at
780. “Still, highly speculative damages is a sign that
a given plaintiff is an inefficient engine of enforcement.” Id. at 779.
Here, the damages flowing from Appellant’s alleged injuries would be highly speculative. In Gelboim, we recognized that “[a]ny damages estimate
would require evidence to support a just and reasonable estimate of damages,” and estimating the damages
for LIBOR-pegged instruments would present “some
unusual challenges,” in part because the “market for
money is worldwide” and there are several ways to set
interest rates. Id. at 779-80 (internal quotation marks
omitted). We therefore found it “difficult to see how
appellants would arrive at such an estimate, even with

8a
the aid of expert testimony.” Id. at 779. This case presents an even more unusual challenge because Solow’s
bonds were not LIBOR-denominated. To quantify Appellant’s injury, a jury would need to know what
LIBOR hypothetically would have been had Defendants not manipulated it, and how this would have affected the value of Solow’s bonds. Much of this calculation would require speculation about how each of the
16 LIBOR panel banks would have answered the
LIBOR question over the five days when Solow’s bond
portfolio declined in value. Moreover, without knowing what buyers would pay or sellers would accept for
bonds during that period, a jury would have to speculate how the hypothetical LIBOR would have affected
the “illiquid and opaque” market in which Solow’s
bonds traded. See App’x at 551 ¶ 160.
D. Duplicative Recovery and
Damage Apportionment

Complex

Defendants do not offer any serious argument
why allowing Appellant to assert antitrust standing
would require any sort of complex apportionment of
damages or would run the risk of duplicative recovery—aside from pointing to the existence of “government and regulatory investigations and suits,” with no
further explanation how possible recoveries by the entities, agencies, and plaintiffs in those matters would
be duplicative of Appellant’s possible recovery in the
present matter. Appellees’ Br. at 42 (quoting Gelboim,
823 F.3d at 780). Indeed, as was the case in Gelboim,
“[i]t is wholly unclear on this record how issues of duplicate recovery and damage apportionment can be assessed.” 823 F.3d at 780.

9a
In sum, balancing the above considerations, we
agree with the district court that Appellant is not an
efficient enforcer of the antitrust laws.
III. RICO Claim
Below, the district court held that Appellant’s
RICO claim was barred by res judicata. Citigroup II,
314 F. Supp. 3d at 518-19. It reasoned that, because
public revelations about potential “LIBOR manipulation occurred on March 15, 2011”—before the state
court issued the March 24, 2011, judgment against
Solow in Citibank’s favor—Solow could have brought
the RICO claim in the prior state court proceeding. Id.
We decline to address that issue because, even if res
judicata did not bar Appellant’s RICO claim, it would
fail on the merits.
“[T]o state a claim under civil RICO, the plaintiff
is required to show that a RICO predicate offense not
only was a ‘but for’ cause of his injury, but was the
proximate cause as well.” Hemi Grp., LLC v. City of
New York, 559 U.S. 1, 9 (2010) (internal quotation
marks omitted). “Proximate cause for RICO purposes
. . . should be evaluated in light of its common-law
foundations; proximate cause thus requires some direct relation between the injury asserted and the injurious conduct alleged. A link that is too remote, purely
contingent, or indirec[t] is insufficient.” Id. (second alteration in original) (citation and internal quotation
marks omitted).
Here, the alleged RICO-predicate fraud only indirectly caused Solow’s bond portfolio to decline in value,
to the extent there was any causation at all. As explained above, the injury was directly caused by
buy/sell decisions that independent market actors

10a
made, which LIBOR may have influenced. Although
the existence of independent buyers and sellers in a
capital market does not act as a per se bar to a finding
of proximate causation, it does act as a bar here, because the opacity and illiquidity of the market for
Solow’s bonds would prevent a court from using the
economic tools ordinarily used for inferring reliance
and causation—for example, the fraud on the market
theory, event studies, or the efficient capital markets
hypothesis—in evaluating Appellant’s claim. Because
Defendants’ alleged RICO-predicate fraud did not
proximately cause Solow’s injury, the district court
was correct to dismiss Appellant’s RICO claim.
We have considered the remainder of Appellant’s
arguments and find them to be without merit.
Accordingly, the judgment of the district court hereby
is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

11a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________________
No. 13 Civ. 981 (PGG)
7 WEST 57TH STREET REALTY COMPANY, LLC,
Plaintiff,
v.
CITIGROUP, INC.; CITIBANK, N.A.; BANK OF
AMERICA CORP.; BANK OF AMERICA N.A.;
BARCLAYS BANK PLC; UBS AG; JPMORGAN
CHASE & CO.; JPMORGAN CHASE BANK,
NATIONAL ASSOCIATION; CREDIT SUISSE
GROUP AG; BANK OF TOKYO-MITSUBISHI UFJ
LTD.; COOPERATIEVE CENTRALE RAIFFEISENBOERENLEENBANK B.A.; HSBC HOLDINGS PLC;
HSBC BANK PLC; HBOS PLC; LLOYDS BANKING
GROUP PLC; ROYAL BANK OF CANADA; THE
NORINCHUKIN BANK; ROYAL BANK OF
SCOTLAND GROUP, PLC; WESTLB AG;
WESTDEUTSCHE IMMOBILIENBANK AG;
DEUTSCHE BANK AG,
Defendants.
________________________________
MEMORANDUM OPINION & ORDER
________________________________
PAUL G. GARDEPHE, U.S.D.J.:
On February 13, 2013, Plaintiff 7 West 57th
Street Realty Company, LLC—the assignee of Sheldon

12a
H. Solow—filed this action against Defendants
Citigroup, Inc.; Citibank, N.A.; Bank of America Corp.;
Bank of America N.A.; Barclays Bank Plc; UBS AG;
JPMorgan Chase & Co.; JPMorgan Chase Bank, National Association.; Credit Suisse Group AG; Bank of
Tokyo-Mitsubishi UFJ Ltd.; Cooperatieve Centrale
Raiffeisen-Boerenleenbank B.A.; HSBC Holdings Plc;
HSBC Bank Plc; HBOS Plc; Lloyds Banking Group
Plc; Royal Bank of Canada; The Norinchukin Bank;
Royal Bank of Scotland Group, Plc; WestLB AG;
Westdeutsche Immobilienbank AG; and Deutsche
Bank AG, alleging that Defendants colluded to manipulate the London InterBank Offered Rate for the U.S.
dollar (“USD-LIBOR”) in 2008. (Am. Cmplt. (Dkt. No.
95)) Plaintiff claims that Defendants—who are members of the British Bankers Association, and who were
responsible for submitting interest rates that the BBA
used to calculate USD-LIBOR in 2008—violated Section 1 of the Sherman Act, 15 U.S.C. § 1; the Clayton
Act, 15 U.S.C. § 12 et seq.: the Racketeer Influenced
and Corrupt Organizations Act (“RICO”), 18 U.S.C.
§ 1961 et seq.: and New York’s Donnelly Act, N.Y. Gen.
Bus. Law § 340. (SAC (Dkt. No. 174-1) ¶ 1)
On March 31, 2015, this Court granted Defendants’ Rule 12(b)(2) and Rule 12(b)(6) motions to dismiss the Amended Complaint. (See Order (Dkt. No.
172))1 This Court’s dismissal order granted Plaintiff
leave to move to amend (see id. at 54), and on June 1,
2015, Plaintiff filed a motion for leave to file a Second
Amended Complaint (“SAC”). (Mot. (Dkt. No. 174))
Defendants contend that Plaintiffs motion to
amend should be denied on grounds of futility.
1

Familiarity with the March 31, 2015 order is presumed.

13a
Defendants contend that the proposed SAC does not
(1) demonstrate that this Court has personal jurisdiction over the Foreign Bank Defendants; (2) cure the
deficiencies in Plaintiffs antitrust claims; and (3) cure
the flaws in Plaintiffs RICO claim. (See Defs. Br. (Dkt.
No. 181))
For the reasons stated below, Plaintiffs motion for
leave to file a Second Amended Complaint will be denied.
BACKGROUND2
I.

FACTUAL BACKGROUND
A. THE ALLEGED LIBOR-FIXING SCHEME

The London InterBank Offered Rate (“LIBOR”) is
set daily by the British Bankers’ Association (“BBA”),

2
The following facts are drawn from the proposed SAC and
are presumed true for purposes of resolving whether Plaintiffs
motion to amend would be futile. See Gary Friedrich Enterprises,
LLC v. Marvel Enterprises, Inc., No. 08 Civ. 1533 (BSJ) (JCF),
2011 WL 1142916, at *4 (S.D.N.Y. Mar. 22,2011); see also Kassner
v. 2nd Ave. Delicatessen. Inc., 496 F.3d 229, 237 (2d Cir. 2007).
“Because determinations of futility on a motion for leave to
amend are subject to the same standards as motions under Rule
12(b)(6), ‘[f]utility is generally adjudicated without resort to any
. . . evidence [outside the face of the complaint].’” Gary Friedrich
Enterprises, LLC, 2011 WL 1142916, at *4 (quoting Wingate v.
Gives, No. 05 Civ. 1872 (LAK) (DP), 2009 WL 424359, at *5
(S.D.N.Y. Feb. 13, 2009)). The Court may properly consider documents attached to the complaint as exhibits, incorporated by reference, or integral to the Complaint, however. See, e.g., Max Impact, LLC v. Sherwood Grp., Inc., No. 09 CIV. 902 (LMM) (HBP),
2012 WL 3831535, at *4 (S.D.N.Y. Aug. 16, 2012) (“[I]n making
futility determinations, the court must limit itself to the allegations in the complaint, as well as to any documents attached to
the complaint as exhibits or incorporated by reference.” (citations

14a
a non-regulatory body governed by a board composed
of members of various banks. (SAC (Dkt. No. 174-1)
¶¶ 6, 43, 45) LIBOR functions as a pricing mechanism
and benchmark for determining, inter alia, interest
rates for trillions of dollars in financial instruments
worldwide. (Id. ¶¶ 5, 55-60)
The BBA calculates and publishes LIBOR for ten
currencies, including the U.S. dollar. (Id. ¶ 46) Each of
these currencies is overseen by a separate BBA “Contributor Panel.” (Id.) A Contributor Panel consists of
various banks that—as described below—provide submissions to the BBA that are used to calculate the
daily LIBOR for that panel’s particular currency. (See
id. ¶¶ 46, 49-50)

omitted)); see also Bldg. Indus. Elec. Contractors Ass’n v. City of
N.Y., 678 F.3d 184, 187 (2d Cir. 2012). Accordingly, in resolving
Plaintiffs motion, the Court has also considered documents that
are incorporated into the proposed SAC by reference, including
non-prosecution and deferred prosecution agreements that certain Defendants entered into with the United States Department
of Justice, as well as certain press releases and news articles concerning the manipulation of LIBOR. (See SAC (Dkt. No. 174-1)).
The Court has also taken judicial notice of public filings in New
York state court proceedings brought by Defendant Citibank,
N.A. against Solow. See Global Network Commc’ns. Inc. v. City of
N.Y., 458 F.3d 150, 157 (2d Cir. 2006) (‘“[In deciding a motion to
dismiss,] [a] court may take judicial notice of a document filed in
another court not for the truth of the matters asserted in the
other litigation, but rather to establish the fact of such litigation
and related filings.”’ (quoting Int’l Star Class Yacht Racing Ass’n
v. Tommy Hilfiger U.S.A., Inc., 146 F.3d 66, 70 (2d Cir. 1998));
Jermaine Dunham v. City of New York, et al., No. 11 Civ. 1223
(ALC) (HBP), 2018 WL 1305460, at *5 (S.D.N.Y. Mar. 13, 2018)
(noting that, as with a motion to dismiss, a court can “consider
matters of which judicial notice may be taken” in ruling on
whether a proposed amendment would be futile).

15a
Defendants are, or were, members of the Contributor Panel for the U.S. dollar. (Id. ¶ 43) Defendants are
also horizontal competitors across a range of financing
activities, including transactions that expressly incorporate LIBOR as a benchmark. (Id. ¶¶ 36, 43)
USD-LIBOR is set daily through a process orchestrated by the BBA. (See id. ¶ 48) Each day, the BBA
asks the sixteen banks on the Contributor Panel for
USD-LIBOR (the “contributing banks”) “[a]t what rate
[of interest] [they] could . . . borrow funds, were [they]
to do so by asking for and then accepting inter-bank
offers in a reasonable market size just prior to 11 a.m.”
(Id.) Under BBA rules, each bank’s submission is
meant to reflect the interest rate at which members of
the bank’s staff—who are primarily responsible for
management of the bank’s cash—believe that the bank
could borrow unsecured interbank funds in the London market. (Id. ¶ 49) Under BBA rules, each contributing bank’s submission must be based on its own independent good faith judgment, taking into account
market conditions and the bank’s posture as a borrower in the market for interbank loan funds. (Id.
¶ 50) The contributing banks’ daily submissions to the
BBA reflect their costs of borrowing funds at three maturity dates—one-month, three-months, and sixmonths. (Id. ¶ 48)
Thomson Reuters—an independent entity—collects the contributing banks’ submissions on the BBA’s
behalf. (Id. ¶¶ 52, 54) Using the contributing banks’
submissions, Thomson Reuters calculates USDLIBOR through an “inter-quartile” methodology, in
which it discards the four highest and the four lowest
submissions, and then averages the remaining eight

16a
submissions to arrive at the USD-LIBOR for a given
day. (Id. ¶¶ 48, 54)
The BBA requires each contributing bank to arrive at its own daily submission without referring to
the submissions of other banks on the Contributor
Panel. (Id. ¶¶ 49, 51) In order to prevent collusion and
ensure that each submission is independent, each
bank is further required to keep its submission confidential until after Thomson Reuters publishes the
daily LIBOR rates. (Id. ¶¶ 51, 54) When LIBOR is
published, the rates submitted by each individual contributor bank are published as well, so that it is clear
how the LIBOR rates were calculated. (Id. ¶ 52)
The BBA also prohibits banks from submitting
contributions that are based on the pricing of any derivative financial instruments tied to LIBOR. (Id.
¶ 49) This prohibition is intended to prevent contributing banks from making submissions based on a motive to maximize profits or minimize losses in connection with such derivative transactions. (Id.)
According to the proposed SAC, however, by 2008
Defendants were not complying with the BBA’s rules
governing their submissions. (See id. ¶¶ 5-6) Instead,
“Defendants conspired to . . . manipulate USD-LIBOR
by falsely reporting to the BBA the . . . interest rates
at which the Defendant banks expected they could borrow funds . . . on a daily basis.” (Id. ¶¶ 6, 73, 80)
Traders at the contributing banks asked colleagues who were responsible for submitting rates to
the BBA (the “LIBOR submitters”) to submit rates
that would benefit the bank’s own trading positions,
as opposed to rates that reflected the bank’s good faith
judgment of its true cost of borrowing that day. (See

17a
id.) Traders also requested that their counterparts at
other contributing banks do the same. (See id.) The
traders made these requests through electronic messages, telephone calls, and in-person conversations.
(See id. ¶ 61). The LIBOR submitters frequently
agreed to accommodate these requests. (Id.)
Through their traders’ requests—and the LIBOR
submitters’ acquiescence—Defendants caused rates to
be submitted to the BBA that served Defendants’ own
financial interests, rather than complying with BBA
standards. (See id. ¶¶ 5, 6, 61) As a result, USDLIBOR calculated on the basis of these rates was “artificial” and did not reflect the contributing banks’ true
costs of borrowing under actual market conditions. (See
id. ¶¶ 5-6) Because LIBOR is used as the “pricing mechanism and the primary benchmark for interest rates,”
Defendants’ collusion and manipulation of LIBOR “affected the pricing of trillions of dollars’ worth of financial transactions in the United States, including bank
loans and municipal bonds.” (Id. ¶¶ 6-7, 56)
B. SOLOW’S LOANS AND 2008 DEFAULT
Solow—who assigned his claims related to this action to Plaintiff—pledged a portfolio of more than $450
million in high-grade municipal bonds as collateral for
LIBOR-denominated loans in or about 2003. (See id.
¶¶ 1, 9-10) Several of these loans were issued by Defendant Citibank, N.A. (Id. ¶ 9) The interest rate for
these loans was determined by reference to USDLIBOR. (See id.) Between 2003 and 2008, the interest
rate on Solow’s loans was LIBOR + 0.75%. (See id.
¶ 166) In March 2008, however, Citibank increased the
interest rate on Solow’s loans to LIBOR + 1.25%. (Id.)

18a
According to the proposed SAC, statistical analysis
indicates that—at certain times between August 31,
2007 and October 22, 2008—there was a negative correlation coefficient relationship between one-month
USD-LIBOR rates and Standard & Poor’s (“S&P”) New
York AMT-Free Municipal Bond Index (the “S&P bond
index”), which is an index that measures the performance of bonds similar to those in Solow’s portfolio. (Id.
¶ 176) This analysis suggests that an increase in onemonth USD-LIBOR during those periods was, on average, associated with a decline in the value of the bonds
listed in the S&P bond index. (Id.) In other words, a
manipulation of LIBOR that caused interest rates to increase would cause the value of the bonds in the Solow
portfolio to decline. (Id. ¶ 168)
Although Defendants’ alleged manipulation of
LIBOR “tended toward overall suppression of LIBOR
for much of the conspiracy period,” Defendants “increased, decreased, or maintained the submitted
LIBOR rates in order to support their trading positions or other needs of the moment.” (Id. ¶¶ 9, 177) In
the months leading up to the liquidation of Solow’s
bond portfolio in November 2008, LIBOR was “artificially inflated as a result of Defendants’ conduct.” (Id.
¶¶ 176-180) For example, between September 12,
2008 and October 10, 2008, Defendants’ submissions
to the BBA for the calculation of USD-LIBOR were
higher than their true costs of borrowing, which resulted in the artificial inflation of USD-LIBOR during
that period. (Id. ¶¶ 169, 171-72, 177-78)
On September 24, 2008, Citibank notified Solow
that on five consecutive days between September 17
and September 23, 2008, the value of his bond portfolio
had dropped below the value required as collateral for

19a
his loans. (Id. ¶¶ 167, 170) Solow was then current on
his loans, but Citibank nonetheless declared a technical default and seized Solow’s bond portfolio. (Id.
¶¶ 9, 167, 178)
On November 3, 2008, Solow’s portfolio—which
had been worth $450 million when pledged as collateral—sold for approximately $415 million, net of commissions. (Id. ¶ 179) Defendants Citibank, JPMorgan,
Bank of America, Barclays, and Deutsche Bank were
“direct and indirect” participants in the liquidation of
the portfolio, with Citibank purchasing a substantial
portion of the portfolio in the first instance. (Id. ¶ 178)
Because the sale of Solow’s bond portfolio did not fully
satisfy his debt, Citibank seized the bond portfolio’s
earned interest of more than $15,000. (Id. ¶ 179)
Between October 6 and November 13, 2008, Citibank also seized more than $4.2 million in cash from
Solow’s accounts. (Id.) Citibank claimed that at least
$2.1 million of the cash seized was for interest that
Solow owed on the loans after default. (Id.) In calculating interest, Citibank applied a “default” interest
rate, which was LIBOR-denominated and higher than
the interest rate that had applied prior to Citibank’s
declaration of default. (See id.)
After these transactions, Citibank still claimed a
$67 million deficiency, and demanded immediate payment of the deficiency and an additional $18.5 million
in cash collateral. (Id. ¶¶ 179-80) On December 16,
2008, Citibank filed suit against Solow in New York
Supreme Court seeking the $67 million deficiency, interest at the default interest rate, $18.5 million in cash
collateral and fees, management fees, expenses, costs,
and attorneys’ fees. (Id. ¶ 181)

20a
On March 24, 2011, Citibank obtained a judgment
against Solow in New York Supreme Court for more
than $100 million. (Id. ¶ 183; Ruffino Decl., Ex. G
(May 24, 2011 Judgment) (Dkt. No. 118-4) at 11) On
February 23, 2012, the lower court’s judgment was affirmed by the First Department. See Citibank, N.A. v.
Solow, 92 A.D.3d 569, 570 (1st Dept.), leave to appeal
denied, 19 N.Y.3d 807 (2012). Solow paid the judgment
in full on May 23, 2012. (SAC (Dkt. No. 174-1) ¶ 182)
II. PROCEDURAL HISTORY
After satisfying the state court judgment, Solow
assigned his claims arising out of the events described
above to Plaintiff 7 West 57th Street Realty Company.
(See id. ¶¶ 1, 10) Plaintiff commenced this action on
February 13, 2013. (Cmplt. (Dkt. No. 1)) The Amended
Complaint was filed on June 11, 2013. (Am. Cmplt.
(Dkt. No. 95))
On December 13, 2013, all Defendants moved to
dismiss the Amended Complaint, arguing that
(1) Plaintiff’s claims are barred by the applicable statutes of limitations; (2) Plaintiff failed to state an antitrust claim; (3) Plaintiff failed to state a RICO claim;
(4) Plaintiff’s claims are barred by res judicata in light
of the state court proceedings; and (5) Plaintiff lacks
standing to assert Solow’s claims. (See Dkt. Nos. 114,
115, 117)
On December 10, 2014, the Bank of TokyoMitsubishi UFJ, Ltd., Barclays Bank PLC, Credit
Suisse Group AG, Deutsche Bank AG, HSBC Holdings
pic, HSBC Bank plc, Lloyds Banking Group plc,
Coöperatieve Centrale Raiffeisen-Boerenleenbank
B.A., HBOS plc, the Norinchukin Bank, the Royal
Bank of Canada, the Royal Bank of Scotland plc,

21a
Portigon AG, and Westdeutsche ImmobilienBank AG
(collectively, the “Foreign Bank Defendants”) moved to
dismiss for lack of personal jurisdiction. (Mot. (Dkt.
No. 139))
A. The March 31, 2015 Order Dismissing
the Amended Complaint
On March 31, 2015, this Court granted Defendants’ motion to dismiss the Amended Complaint, holding that (1) the Court lacked personal jurisdiction over
the Foreign Bank Defendants; (2) Plaintiff had not
plausibly alleged an antitrust injury, and, accordingly,
was not entitled to bring suit under the Sherman Act;
and (3) Plaintiff’s RICO claims “are barred by the statute of limitations and by res judicata.” (See Order
(Dkt. No. 172) at 25-26, 36-37, 52) Having dismissed
all of Plaintiff’s federal claims, this Court declined to
exercise supplemental jurisdiction over Plaintiff’s remaining state law claim under N.Y. Gen. Bus. § 340.
(See id. at 53)
1.

Personal Jurisdiction Over the
Foreign Bank Defendants

As to personal jurisdiction, this Court first noted
that Plaintiff did “not contend that there is any basis
for the exercise of general jurisdiction.” (Id. at 14) This
Court then addressed Plaintiff’s arguments concerning specific jurisdiction, consent to personal jurisdiction, personal jurisdiction premised on co-conspirators’ acts, and personal jurisdiction under Fed. R. Civ.
P. 4(k)(2). (See id. at 14-25)
With respect to specific jurisdiction, this Court
noted that in order “‘to exercise jurisdiction consistent
with due process, the defendant’s suit-related conduct
must create a substantial connection with the forum

22a
state.’” (Id. at 16-17 (quoting Keeton v. Hustler Magazine, Inc., 465 U.S. 770, 775 (1984)). This Court found
“precious little in the Amended Complaint demonstrating a connection between the Foreign Banks’ alleged suit-related conduct and New York, and . . . no
allegations demonstrating that any such relationship
arose out of contacts that the Foreign Banks created
with New York.” (Id. at 19 (citing Walden v. Fiore, 134
S.Ct. 1115, 1122-23 (2014)).
While the Amended Complaint cited Barclays’
discharge of two Barclays employees, “Plaintiff ha[d]
not pled facts suggesting that the conduct of the two
Barclays employees has any connection with the injury suffered by Solow, or that the misconduct alluded
to . . . took place within the relevant time period—September 12, 2008 to October 10, 2008.” (Id. at 19-20)
The Amended Complaint also did not satisfy the
Calder “effects test.” (Id. at 20-21) Assuming arguendo
that Plaintiff’s allegations regarding the effect of Defendants’ manipulation of LIBOR rates on Solow’s
bond portfolio were sufficient to demonstrate an effect
in New York, “Plaintiff ha[d] not alleged facts demonstrating that the Foreign Banks ‘expressly aimed’
their conduct at New York or its municipal bond markets.” (Id. at 21 (quoting Tarsavage v. Citic Trust Co.,
Ltd., 3 F. Supp. 3d 137, 145 (S.D.N.Y. 2014)) The
Court concluded that it did not have specific personal
jurisdiction over the Foreign Bank Defendants. (Id.)
As to consent, this Court rejected Plaintiff’s argument that the Foreign Bank Defendants consented to
general personal jurisdiction in New York by virtue of
their registration with the New York Department of
Financial Services. (Id. at 21) In reaching this conclusion, this Court noted that New York Banking Law

23a
§ 200(3) limited “any consent to personal jurisdiction
by registered banks to specific personal jurisdiction.”
(Id. at 22 (emphasis in original) (citations omitted))
Accordingly, registration under this provision did not
constitute consent to personal jurisdiction. (Id.)
As to Plaintiff’s claim that personal jurisdiction
could be premised on co-conspirators’ acts, this Court
found that the Amended Complaint did not plead sufficient facts to plausibly allege a conspiracy. (Id. at 2223) Plaintiff’s “attempts to support its conclusory allegations by citing guilty pleas, settlements, and accompanying admissions, along with “econometric evidence” of Defendants’ LIBOR manipulation,” were insufficient because Plaintiff had not shown “how the
banks’ guilty pleas, settlements, or admissions demonstrate a conspiracy to cause injury to Solow.” (Id. at
23) Moreover, Plaintiff’s “econometric evidence” was
insufficient because “[a]nalysis that ‘flags the possibility’ of a conspiracy is not sufficient to meet the plausibility test under Iqbal.” (Id. at 23-24 (citations omitted)) This Court also noted that Plaintiff had not explained how its allegations were sufficient “to satisfy
the necessary elements for co-conspirator personal jurisdiction.” (Id. (citations omitted))
As to personal jurisdiction under Fed. R. Civ. P.
4(k)(2), this Court found that the second required element was not met, because “‘Plaintiff’s ha[d] not certified that Defendants are not subject to jurisdiction in
any other state.’” (Id. (quoting Tamam v. Fransabank
Sal, 677 F. Supp. 2d 720, 731 (S.D.N.Y. 2010)) Accordingly, this Court declined to apply Fed. R. Civ. P.
4(k)(2). (See id. at 24-25)
Because this Court found that there was no basis
to exercise personal jurisdiction over the Foreign Bank

24a
Defendants, this Court dismissed Plaintiff’s claims
against them. (Id. at 25)
2. Antitrust Claim
In dismissing Plaintiff’s antitrust claim under the
Sherman Act, this Court held that Plaintiff had “not
plausibly alleged an antitrust injury,” and therefore
lacked standing. (Id. at 36) Relying on Judge Buchwald’s analysis in In re LIBOR-Based Fin. Instruments Antitrust Litig. (“LIBOR I”), 935 F. Supp. 2d
666, 686 (S.D.N.Y. 2013), this Court found that “Plaintiff’s allegations that the LIBOR-setting process is
‘competitive’ are not plausible on their face,” because
the “LIBOR-setting process is a cooperative and not a
competitive exercise.” (See Order (Dkt. No. 172) at 2831, 33-34)
In particular, this Court found that Plaintiff’s allegations that “‘a Contributor Panel bank’s LIBOR
submissions [were] not [to] be influenced by its motive
to maximize profit or minimize losses in derivatives
transactions tied to LIBOR’” supported the notion
that, in setting LIBOR, the banks were not competing
with one another, but instead were participating in a
collective exercise aimed at generating an objective,
“good faith” benchmark.” (Id. at 34 (citing Am. Cmplt.
(Dkt. No. 95) ¶ 44)). And “[t]he fact that the benchmark set as a result of the LIBOR-setting process
would be a basis for competition does not mean that
the cooperative process of collecting submissions used
to set LIBOR was a competitive exercise.” (Id.)
This Court also found that many of the Amended
Complaint’s allegations were inconsistent with the notion that the LIBOR-setting process is a competitive
exercise. In this regard, this Court cited the following

25a
allegations: that “(1) Thomson Reuters—an agency independent of the BBA—collects, calculates, and publishes the daily LIBOR; (2) any bank that trades in the
London market can apply to be on a Contributor Panel;
and (3) the interquartile averaging method prevents
individual or small groups of banks from influencing
LIBOR with false submissions.” (Id.) The Court emphasized that “[n]one of these allegations have anything to do with the issue of whether the submission
process is competitive.” (Id. at 34)
This Court likewise held that the Amended Complaint’s allegations that (1) Defendants are “horizontal
competitors across a wide range of financing activities”
([Am. Cmplt. (Dkt. No. 95)] ¶ 36); (2) “LIBOR-denominated interest rates [are used] as a threshold or beginning point for competition among [Defendants] in the
market for loans to their customers and others” (id.
¶ 52); (3) “LIBOR is also instrumental in establishing
market prices for many types of interest-bearing debt
securities, including financial instruments that are
not specifically LIBOR-denominated” (id. ¶ 53);” and
(4) the LIBOR-setting process is competitive because
it is “designed to ensure that LIBOR would be based
on competition in the interbank funding markets” (id.
¶ 48), were insufficient to demonstrate that manipulation of LIBOR had any effect on competition. (Order
(Dkt. No. 172) at 35-36)
Accordingly, this Court found that Plaintiff had
not plausibly alleged antitrust injury, and granted Defendants’ motion to dismiss Plaintiff’s antitrust claim.
(Id. at 36)

26a
3.

RICO Claims

This Court dismissed Plaintiff’s RICO claims on
the grounds that they were (1) time-barred; and
(2) barred by res judicata. (Id. at 53)
With respect to the statute of limitations issue,
this Court noted that “a May 29, 2008 Wall Street
Journal article ‘detailed’ the ‘divergence between
[credit-default spreads (‘CDS’)] and LIBOR.’” (Id. at
38) Accordingly, “Plaintiff was on inquiry notice of the
fact that LIBOR rates may have been manipulated” by
at least May 29, 2008. (Id. at 39) This Court rejected
Plaintiff’s argument that the statute of limitations
should be tolled because “(1) the LIBOR manipulation
scheme had been made public, and (2) Defendants’ ‘reassurances’ that no manipulation had occurred would
have been entirely self-serving[,]” such that Plaintiff
could not have reasonably relied on them. (Id.)
Because Solow was on inquiry notice as of May
29, 2008, and no inquiry was pursued, Plaintiff’s RICO
claims became time-barred after May 29, 2012. (Id.)
Plaintiff’s RICO claims were not filed until February
13, 2013, however. (Id. (citing Cmplt. (Dkt. No. 1)) Accordingly, this Court concluded that Plaintiff’s RICO
claims are time-barred.
With respect to res judicata, this Court found that
“[e]ven if Plaintiff’s RICO claims were not barred by
the statute of limitations, they would be barred by res
judicata, given the judgment” obtained by Citibank
against Solow in New York Supreme Court on March
24, 2011. (Id. at 41-43) This Court concluded that
(1) “there has been a final judgment on the merits”;
(2) that the “prior proceeding also arose out of the
same transactions and occurrences alleged here”;

27a
(3) Defendant Citibank, N.A., was a party to the state
court action, and the other Defendants not named in
the prior state court action “may properly be considered in privity with Citibank for res judicata purposes”; and (4) Plaintiff’s RICO claims could have been
asserted in the prior action. (Id. at 41-46)
In concluding that Plaintiff’s RICO claims could
have been asserted in the prior state court action, this
Court rejected Plaintiff’s arguments that Solow could
not have raised his RICO claims because he had no
knowledge of them. (Id. at 50) This Court explained
that the May 29, 2008 Wall Street Journal article reported the fraud several years before the state trial
court entered judgment against Solow. (Id. at 50) This
Court also noted that the Amended Complaint alleges
that a “‘public revelation regarding government investigations into possible LIBOR manipulation occurred
on March 15, 2011,’” and that on March 16, 2011,
March 17, 2011 and March 23, 2011, The Financial
Times and Bloomberg reported that U.S. authorities
were investigating whether several banks had manipulated the setting of LIBOR. (Id. at 51 (citing Am.
Cmplt (Dkt. No. 95-1) ¶¶ 81-84)) “Even accepting
Plaintiff’s allegation that Solow did not know that the
media reports concerning Defendants’ LIBOR manipulation were true,” this Court found that “these [multiple] news reports put Solow on inquiry notice.” (Id.
at 52) “Because Solow ‘had sufficient information to
create a duty of further investigation,’ Plaintiff may
not avoid the effects of res judicata.” (Id. (citations
omitted))

28a
4. Leave to Amend
In dismissing the Amended Complaint, this Court
granted Plaintiff leave to amend its antitrust claim.
(See id. at 54) Because Plaintiff’s RICO claims are
barred by the statute of limitations and res judicata,
however, this Court found that any amendment would
be futile, and denied leave to amend “as to those
claims.” (Id.)
B. Plaintiff’s Motion for Leave to File a
Second Amended Complaint
Plaintiff argues that (1) the “newly-added allegations in the [proposed] SAC demonstrate that each [of
the Foreign Bank Defendants] has sufficient contacts
with the United States and this forum” to establish
personal jurisdiction; (2) it has standing to assert its
antitrust claim in light of the Second Circuit’s decision
in Gelboim v. Bank of Am. Corp., 823 F.3d 759, 772 (2d
Cir. 2016) vacating Judge Buchwald’s decision, upon
which this Court relied in dismissing Plaintiff’s antitrust claim; and (3) it should be granted leave to “replead its RICO claim” in light of the Second Circuit’s
summary order in BPP Ill., LLC v. Royal Bank of Scotland Grp. PLC, 603 F. App’x 57 (2d Cir. 2015). (See
Pltf. Br. (Dkt. No. 174-1) at 2, 7; Pltf. Ltr. (Dkt. No.
203) at 1-3)
Defendants oppose Plaintiff’s motion on the
grounds that the “proposed amendment would be futile.” (Def. Br. (Dkt. No. 181) at 6)
DISCUSSION
I.

LEAVE TO AMEND

District courts “ha[ve] broad discretion in determining whether to grant leave to amend,” Gurary v.

29a
Winehouse, 235 F.3d 792, 801 (2d Cir. 2000), and
“leave to amend should be freely granted when ‘justice
so requires[.]’” Pangburn v. Culbertson, 200 F.3d 65,
70 (2d Cir. 1999) (quoting Fed. R. Civ. P. 15(a)); Rachman Bag Co. v. Liberty Mut. Ins. Co., 46 F.3d 230, 234
(2d Cir. 1995) (“The Supreme Court has emphasized
that amendment should normally be permitted, and
has stated that refusal to grant leave without justification is ‘inconsistent with the spirit of the Federal
Rules.’” (quoting Foman v. Davis, 371 U.S. 178, 182,
(1962))).
A court may properly deny leave to amend, however, in cases of “‘undue delay, bad faith or dilatory
motive on the part of the movant, repeated failure to
cure deficiencies by amendments previously allowed,
undue prejudice to the opposing party by virtue of the
allowance of the amendment, futility of amendment,
etc.’” Ruotolo v. City of New York, 514 F.3d 184, 191
(2d Cir. 2008) (quoting Foman v. Davis, 371 U.S. 178,
182 (1962)); see also Murdaugh v. City of New York,
No. 10 Civ. 7218 (HB), 2011 WL 1991450, at *2
(S.D.N.Y. May 19, 2011) (“Although under Rule 15(a)
of the Federal Rules of Civil Procedure leave to amend
complaints should be ‘freely given,’ leave to amend
need not be granted where the proposed amendment
is futile.”). “An amendment to a pleading is futile if the
proposed claim could not withstand a motion to dismiss pursuant to Fed. R. Civ. P. 12(b)(6).” Lucente v.
IBM Corp., 310 F.3d 243, 258 (2d Cir. 2002) (citation
omitted).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting

30a
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
“In considering a motion to dismiss . . . the court is to
accept as true all facts alleged in the complaint,” Kassner v. 2nd Ave. Delicatessen, Inc., 496 F.3d 229, 237
(2d Cir. 2007) (citing Dougherty v. Town of N. Hempstead Bd. of Zoning Appeals, 282 F.3d 83, 87 (2d Cir.
2002)), and must “draw all reasonable inferences in favor of the plaintiff.” Id. (citing Fernandez v. Chertoff,
471 F.3d 45, 51 (2d Cir. 2006)).
Allegations that “are no more than conclusions,
are not entitled to the assumption of truth,” however.
Iqbal, 556 U.S. at 679. A pleading is conclusory “if it
tenders ‘naked assertion[s]’ devoid of ‘further factual
enhancement,’” id. at 678, offers “‘a formulaic recitation of the elements of a cause of action,’” id., or does
not provide factual allegations sufficient “to give the
defendant fair notice of what the claim is and the
grounds upon which it rests.” Port Dock & Stone Corp.
v. Oldcastle Northeast, Inc., 507 F.3d 117, 121 (2d Cir.
2007). In considering a motion to dismiss under Rule
12(b)(6), a district court “may consider the facts alleged in the complaint, documents attached to the
complaint as exhibits, and documents incorporated by
reference in the complaint.” DiFolco, 622 F.3d at 111
(citing Chambers v. Time Warner, Inc., 282 F.3d 147,
153 (2d Cir. 2002)).
“[Parties] opposing a motion to amend . . . bear[]
the burden of establishing that an amendment would
be futile.” Bonsey v. Kates, No. 13 Civ. 2708 (RWS),
2013 WL 4494678, at *8 (S.D.N.Y. Aug. 21, 2013) (citing Blaskiewicz v. Cty. of Suffolk, 29 F. Supp. 2d 134,
137-38 (E.D.N.Y. 1998)).

31a
II. ANTITRUST CLAIM
Plaintiff requests leave to amend its antitrust
claim on the basis of the Second Circuit’s decision in
Gelboim v. Bank of Am. Corp., 823 F.3d 759 (2d Cir.
2016). (See Pltf. Ltr. (Dkt. No. 203) at 1) Plaintiff
points out that—in dismissing Plaintiff’s antitrust
claim—this Court relied, in large part, on the district
court’s “reasoning that the LIBOR-setting process is
cooperative rather than competitive and therefore cannot constitute antitrust injury.” (Id.) Because Gelboim
rejects that analysis, Plaintiff contends that leave to
amend should be granted. (Id. at 1-3)
Defendants counter that even if Plaintiff’s allegations now suffice to demonstrate antitrust injury, any
amendment would still be futile because Plaintiff cannot demonstrate that it is an “efficient enforcer” of the
antitrust laws. (See Def. Ltrs. (Dkt. Nos. 204, 220))
A. Antitrust Standing
Section 1 of the Sherman Act provides that
“[e]very contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or commerce among the several States, or with foreign nations, is declared to be illegal.” 15 U.S.C. § 1. The private right of action to enforce this provision is set forth
in Section 4 of the Clayton Act. See 15 U.S.C. § 15.
In order to bring a cause of action under the Sherman Act, a plaintiff must demonstrate antitrust
standing, i.e., that “‘the plaintiff is a proper party to
bring a private antitrust action.’” Gelboim, 823 F.3d at
770 (quoting Associated Gen. Contractors of Calif.,
Inc., v. Calif. State Council of Carpenters, 459 U.S.
519, 535 n.31 (1983)). “Like constitutional standing,
antitrust standing is a threshold inquiry resolved at

32a
the pleading stage.” Id. (citing Gatt Commc’ns v. PMC
Assocs., L.L.C., 711 F.3d 68, 75 (2d Cir. 2013)). To
demonstrate antitrust standing, a plaintiff must
demonstrate both (1) antitrust injury; and (2) that it is
an efficient enforcer of the antitrust laws. Id. at 772.
1.

Antitrust Injury

In order for “[a] private plaintiff . . . [to] recover
damages under § 4 of the Clayton Act, . . . [the] plaintiff must prove the existence of ‘antitrust injury, which
is to say injury of the type the antitrust laws were intended to prevent and that flows from that which
makes defendants’ acts unlawful.’” Atl. Richfield Co. v.
USA Petroleum Co., 495 U.S. 328, 334 (1990) (emphasis in original) (quoting Brunswick Corp. v. Pueblo
Bowl-O-Mat, Inc., 429 U.S. 477, 489 (1977)). “An antitrust injury ‘should reflect the anticompetitive effect
either of the violation or of anticompetitive acts made
possible by the violation.’” Gelboim, 823 F.3d at 772
(quoting Brunswick, 429 U.S. at 489).
“When consumers, because of a conspiracy, must
pay prices that no longer reflect ordinary market conditions, they suffer ‘injury of the type the antitrust
laws were intended to prevent and that flows from
that which makes defendants’ acts unlawful.’” Id.
(quoting Brunswick, 429 U.S. at 489). “Even though
the members of [a] price-fixing group [a]re in no position to control the market, to the extent that they
raised, lowered, or stabilized prices they would be directly interfering with the free play of market forces.”
Id. at 773. The “anticompetitive effect of the . . . alleged conspiracy would be that consumers got less for
their money.” Id. at 774. Moreover, because “horizontal price-fixing conspiracies among competitors are

33a
unlawful per se,” allegations “pleading harm to competition are not required to withstand a motion to dismiss.” Id. at 771, 775-76 (“Appellants have alleged an
anticompetitive tendency: the warping of market factors affecting the prices for LIBOR-based financial instruments. No further showing of actual adverse effect
in the marketplace is necessary.”).
Here, Plaintiff alleges that the Defendants violated Section 1 of the Sherman Act by engaging in a
horizontal price-fixing scheme to “fix[], maintain[] or
ma[ke] artificial prices for LIBOR-based financial instruments, including [Solow’s] loans and bond portfolio.” Defendants’ manipulation of USD-LIBOR allegedly contributed to the devaluation of Solow’s bonds,
resulting in Citibank’s seizure and sale of Solow’s bond
portfolio at “artificially low prices.” (SAC (Dkt. No.
174-1) ¶¶ 36, 163, 169, 199) Because Plaintiff has
“identified an ‘illegal anticompetitive practice’ (horizontal price-fixing), ha[s] claimed an actual injury
placing [Solow] in a ‘ ‘worse position’ as a consequence’
of the Banks’ conduct, and ha[s] demonstrated that
[Solow’s] injury is one the antitrust laws were designed to prevent,” Plaintiff has plausibly alleged antitrust injury. See Gelboim, 823 F.3d at 775.
2.

Efficient Enforcer

“The second question that bears on antitrust
standing is whether plaintiff satisfy[ies] the efficient
enforcer factors.” Id. at 777. The efficient enforcer inquiry turns on four factors: “(1) the ‘directness or indirectness of the asserted injury,’ which requires evaluation of the ‘chain of causation’ linking [plaintiff’s] asserted injury and [defendants’] alleged price-fixing;
(2) the ‘existence of more direct victims of the alleged

34a
conspiracy’; (3) the extent to which appellants’ damages claim is ‘highly speculative’; and (4) the importance of avoiding ‘either the risk of duplicate recoveries on the one hand, or the danger of complex apportionment of damages on the other.’” Id. at 778 (quoting
Associated Gen. Contractors, 459 U.S. at 540-45).
Given the unusual nature of the cases arising out of
the alleged LIBOR price-fixing conspiracy, the Second
Circuit has urged lower courts to pay “close attention”
to the efficient enforcer factors, and to carefully consider “whether the aims of the antitrust laws are most
efficiently advanced by [plaintiffs] through these
suits.” See id.
As discussed below, Plaintiff’s chain of causation
is attenuated and its damages claim is likely to be
“highly speculative.” Accordingly, the Court concludes
that Plaintiff lacks antitrust standing.
a.

Causation

Under the first efficient enforcer factor, courts
evaluate the “chain of causation linking [plaintiff’s] asserted injury and [defendants’] alleged price-fixing” by
asking “whether the violation was a direct or remote
cause of the injury.” Id. at 772, 777. “The concern associated with remote causation—particularly in the
present case—is that defendants will face ‘damages
disproportionate to [their] wrongdoing. . . .’” In re
LIBOR-Based Fin. Instruments Antitrust Litig., No. 11
MDL 2262 (NRB), 2016 WL 7378980, at *15 (S.D.N.Y.
Dec. 20, 2016) (quoting Gelboim, 823 F.3d at 779). Accordingly, “[w]here the chain of causation between the
asserted injury and the alleged restraint in the market
‘contains several somewhat vaguely defined links,’” or
“the causal relationship between the Defendants’

35a
actions and the Plaintiff’s injury is too attenuated, the
claim is too indirect” to support antitrust standing.
Laydon v. Mizuho Bank, Ltd., No. 12 Civ. 3419 (GBD),
2014 WL 1280464, at *9 (S.D.N.Y. Mar. 28, 2014)
(quoting Associated Gen. Contractors, 459 U.S. at 540).
In the context of cases alleging a LIBOR price-fixing conspiracy, the “antitrust standing of those plaintiffs who did not deal directly with the Banks”—commonly referred to as “umbrella purchasers”—presents
a complex issue. See Gelboim, 823 F.3d at 778; In re
LIBOR-Based Fin. Instruments Antitrust Litig., 2016
WL 7378980, at *15. “Umbrella standing concerns are
most often evident when a cartel controls only part of
a market, but a consumer who dealt with a non-cartel
member alleges that he sustained injury by virtue of
the cartel’s raising of prices in the market as a whole.”
Gelboim, 823 F.3d at 778. “In such circumstances, ‘the
defendants secured no illegal benefit at [plaintiff’s] expense,’ and permitting recovery in such a transaction
‘could subject antitrust violators to potentially ruinous
liabilities, well in excess of their illegally-earned profits.’” In re LIBOR-Based Fin. Instruments Antitrust
Litig., 2016 WL 7378980, at *15 (quoting Mid-West Paper Prods. Co. v. Cont’l Grp., Inc., 596 F.2d 573, 583,
586 (3d Cir. 1979)). Indeed, “[r]equiring the Banks to
pay treble damages to every plaintiff who ended up on
the wrong side of an independent LIBOR-denominated
derivative swap would . . . not only bankrupt . . . the
world’s most important financial institutions, but also
vastly extend the potential scope of antitrust liability
in myriad markets where derivative instruments have
proliferated.” Gelboim, 823 F.3d at 779.
Ultimately, the standing inquiry in each antitrust
case is a highly fact-specific determination. In re

36a
LIBOR-Based Fin. Instruments Antitrust Litig., No. 11
MDL 2262 (NRB), 2016 WL 7378980, at *16 (S.D.N.Y.
Dec. 20, 2016). After carefully considering the reasoning in Gelboim, this Court concludes that there is good
reason “to draw a line between plaintiffs who transacted directly with defendants . . . and those who did
not.” See id. As Judge Buchwald explained,
[a] plaintiff and a third party could, and did,
easily incorporate LIBOR into a financial
transaction without any action by defendants
whatsoever . . . . [P]laintiffs who did not purchase directly from defendants . . . made their
own decisions to incorporate LIBOR into their
transactions, over which defendants had no
control, in which defendants had no input,
and from which defendants did not profit. To
hold defendants trebly responsible for these
decisions would result in “damages disproportionate to wrongdoing . . . .”
In re LIBOR-Based Fin. Instruments Antitrust Litig.,
2016 WL 7378980, at *16 (quoting Gelboim, 823 F.3d
at 779).
Here, Plaintiff’s claim is even more attenuated
than those of the bondholders in In re LIBOR-Based
Fin. Instruments Antitrust Litig., 2016 WL 7378980,
at *16. Plaintiff alleges that Solow pledged his bond
portfolio as collateral for a loan, and that he suffered
injury when Defendants’ manipulation of LIBOR
caused interest rates to increase, which in turn caused
the value of Solow’s bond portfolio to decline below the
amount required as collateral for his loans. (SAC (Dkt.
No. 174-1) ¶¶ 9, 167-68, 170) According to Plaintiff,
Citibank then seized Solow’s bond portfolio and sold it

37a
at a reduced value, resulting in a deficiency and further injury to Solow. (See id.)
Although Plaintiff contends that Solow transacted
directly with Defendant Citibank—because Citibank
issued him several loans—the root cause of Solow’s injury is the devaluation and subsequent liquidation of
his bond portfolio. (See id.; Pltf. Ltr. (Dkt. No. 221) at
2) Solow did not purchase his bonds directly from any
Defendant, however. (See Am. Cmplt. (Dkt. No. 174-1)
¶ 9; Pltf. Ltr. (Dkt. No. 221) at 2) Moreover, Solow’s
municipal bonds were “not specifically LIBOR-indexed,” and they “trade[d] in a decentralized dealer
market that is illiquid and opaque and dominated by
intermediaries that account for the majority of . . . customer transactions.” (SAC (Dkt. No. 174-1) ¶ 8, 160162)
Accordingly, the chain of causation between Plaintiff’s alleged injury and Defendants’ manipulation of
LIBOR involves at least several “vaguely defined
links,” see Associated Gen. Contractors, 459 U.S. at
540, which require a complicated series of market interactions and assumptions, including that: (1) the Defendants conspired to inflate their USD-LIBOR submissions during the period leading up to the liquidation of Solow’s bond portfolio—namely, September 12,
2008 to October 10, 2008; (2) Thomson Reuters compiled those submissions, and—after applying the interquartile averaging method—calculated LIBOR
benchmark rates that were artificial; (3) increased
LIBOR rates caused interest rates to rise, notwithstanding the Second Circuit’s point that “the worldwide market for financial instruments . . . is vast, and
influenced by multiple benchmarks,” see Gelboim, 823
F.3d at 782; (4) the general increase in interest rates

38a
caused Solow’s municipal bonds to decline in value—
even though they were not LIBOR-indexed and traded
in a decentralized dealer market—because interest
rates and bond prices generally move in opposite directions; and (5) the reduced valuation of Solow’s collateral caused Citibank to declare a default and sell
Solow’s bond portfolio at a loss, causing injury to
Solow. (See SAC (Dkt. No. 174-1) ¶¶ 48-54, 160, 16771, 179) This attenuated chain of causation “between
the alleged conspiracy and the asserted injury is too
indirect to support antitrust standing.” See Laydon,
2014 WL 1280464, at *9 (citations omitted); In re
LIBOR, 2016 WL 7378980, at *16.
b.

Speculative Damages

Although “public policy require[s] that the wrongdoer shall bear the risk of the uncertainty which his
own wrong has created, . . . highly speculative damages [are] a sign that a given plaintiff is an inefficient
engine of enforcement.” Gelboim, 823 F.3d at 779.
Where, as here, “the ‘theory of antitrust injury depends upon a complicated series of market interactions,’ the damages are speculative . . . because ‘countless other market variables’ could affect pricing decisions.” Laydon, 2014 WL 1280464, at *10 (quoting
Reading Indus., Inc., v. Kennecott Copper Corp., et al.,
631 F.2d 10, 12-13 (2d Cir. 1980)); In re LIBOR-Based
Fin. Instruments Antitrust Litig., 2016 WL 7378980,
at *17 (Damages may be unduly speculative where
“the injury is so far down the chain of causation from
defendants’ actions that it would be impossible to untangle the impact of the fixed price from the impact of
intervening market decisions.”). Indeed, the Second
Circuit expressed skepticism that antitrust claims

39a
premised on an alleged LIBOR-based price fixing conspiracy could satisfy this factor, noting that “[a]ny
damages estimate would require evidence to ‘support
a just and reasonable estimate’ of damages,’ and it is
difficult to see how [plaintiffs] would arrive at such an
estimate, even with the aid of expert testimony.” Gelboim, 823 F.3d at 779. In this context, “‘the vagaries of
the marketplace usually deny us sure knowledge of
what plaintiff’s situation would have been in the absence of the defendant’s antitrust violation.’” Id. (quoting J. Truett Payne Co., Inc., v. Chrysler Motors Corp.,
451 U.S. 557, 566 (1981)).
Here, the factors motivating the Second Circuit’s
concerns are particularly pronounced. Analysis of
Plaintiff’s injury would require a complex multi-step
analysis to quantify the indirect effect of Defendants’
alleged manipulation of USD-LIBOR on the value of
Solow’s bonds. First, Plaintiff would have to reconstruct the “hypothetical ‘but-for’ . . . [USD] LIBOR
benchmark rates” during the period leading up to and
following the liquidation of Solow’s bond portfolio, and
show how Defendants’ manipulation of LIBOR rates
affected the overall USD-LIBOR rate each day. See
Laydon, 2014 WL 1280464, at *10. Then, Plaintiff
would have to show how manipulation of USD-LIBOR
rates affected general interest rates. Next, Plaintiff
would have to demonstrate the extent to which general
interest rates were inversely related to the value of his
specific municipal bonds. Plaintiff would also have to
quantify the extent to which the value of his bonds was
affected by USD-LIBOR manipulation, as opposed to
other market causes—such as, most critically, the

40a
2008 financial crisis.3 Given Plaintiff’s concession that
Solow’s municipal bonds were not LIBOR-indexed,
and that they “trade[d] in a decentralized dealer market that is illiquid and opaque and dominated by intermediaries that account for the majority of . . . customer transactions,” there are many independent market factors that could have affected the value of his
bonds. (See SAC (Dkt. No. 174-1) ¶¶ 160-62) Accordingly, this Court concludes that Plaintiff’s damages
would be highly speculative.
Because Plaintiff has not satisfied at least two of
the efficient enforcer factors, Plaintiff lacks antitrust
standing. See Laydon, 2014 WL 1280464, at *10. Accordingly, any proposed amendment would be futile,
and Plaintiff’s request for leave to amend its antitrust
claim will be denied.4

3

The period in which Plaintiff alleges that interest rates rapidly increased as a result of Defendants’ LIBOR manipulation—
September 12, 2008 to October 10, 2008—coincides with the
height of the 2008 financial crisis. Indeed, the period cited by
Plaintiff ends less than a week before nine banks announced their
decision to participate in the Troubled Asset Relief Program
(“TARP”). See Mark Landler & Eric Dash, Drama Behind a $250
Billion Banking Deal, N.Y. Times (Oct. 14, 2008), http://www.nytimes.com/2008/10/15/business/economy/15bailout.html. This Court
may take judicial “notice of the events constituting the financial
crisis that occurred in fall 2008, . . . because the Court ‘may take
judicial notice of indisputable historical events.’” See Starr Int’l
Co. v. Fed. Reserve Bank of New York, 906 F. Supp. 2d 202, 205
(S.D.N.Y. 2012), aff’d, 742 F.3d 37 (2d Cir. 2014) (citations omitted).
4

Having concluded that Plaintiff lacks antitrust standing because its chain of causation is attenuated and its damages claim
is highly speculative, the Court does not reach the remaining efficient enforcer factors.

41a
III. RICO CLAIMS
In its March 31, 2015 order, this Court found that
Plaintiff’s RICO claims are time-barred and barred by
res judicata. Accordingly, the Court denied Plaintiff
leave to amend its RICO claims on the grounds that
any amendment would be futile. (See Order (Dkt. No.
172) at 54) Plaintiff nonetheless contends that it
should be allowed to re-plead its RICO claims in light
of the Second Circuit’s summary order in BPP Illinois,
LLC v. Royal Bank of Scotland Grp. PLC, 603 F. App’x
57 (2d Cir. 2015). (Pltf. Br. (Dkt. No. 174-1) at 2, 10)
Defendants counter that BPP Illinois is not on
point, because the Second Circuit’s summary order addresses the Pennsylvania’s statute of limitations, rather than the federal inquiry notice standard that applies to Plaintiff’s RICO claims. (Def. Br. (Dkt. No.
181) at 20). Defendants further argue that—even if
Plaintiff’s RICO claims were not time-barred—amendment would still be futile, because Plaintiff’s RICO
claims are barred by res judicata. (Id. at 21)
As an initial matter, it must be acknowledged that
Plaintiff’s argument regarding leave to amend its
RICO claims is barred by the law of the case doctrine.
In its March 31, 2015 decision, this Court held that
granting leave to amend would be futile, because
Plaintiff’s RICO claims are both time-barred and
barred by res judicata. That decision is law of the case
and bars Plaintiff’s present argument. See DiLaura v.
Power Auth. of State of New York., 982 F.2d 73, 76 (2d
Cir. 1992) (“The law of the case doctrine ‘posits that
when a court decides upon a rule of law, that decision
should continue to govern the same issues in subsequent stages in the same case.’” (citations omitted));
Semple v. Eyeblaster, Inc., No. 08 Civ. 9004 (HB), 2009

42a
WL 1748062, at *2 (S.D.N.Y. June 19, 2009) (“Plaintiff’s motion appears to be, in substance, a request to
overturn the Court’s order that her complaint could
not be further amended, which is the law of the case
. . . . Under the law-of-the-case doctrine, once a court
has ruled on an issue, that decision generally should
be adhered to in subsequent stages of the same action,
unless cogent or compelling reasons militate otherwise.” (citations omitted)).
Moreover, in urging this Court to grant leave to
amend, Plaintiff relies on a Second Circuit summary
order. Summary orders have no precedential effect.
See 2d Cir. Local R. 32.1.1(a) (“Rulings by summary
order do not have precedential effect.”); Weiss v.
Macy’s Retail Holdings Inc., 265 F. Supp. 3d 358, 365
(S.D.N.Y. 2017) (Because a summary order “has no
precedential effect,” a “district court has no obligation
to follow a summary order where the reasoning was
cursory or unsound.”); Intesa Sanpaolo, S.p.A. v.
Credit Agricole Corp. & Inv. Bank, 924 F. Supp. 2d
528, 537 (S.D.N.Y. 2013) (rejecting argument that Section 10(b) claims were not time-barred where case
cited by plaintiff was a “summary order” that “does not
constitute binding precedent”).
In any event, as explained below, even if (1) this
Court exercised its discretion to reconsider its prior ruling, and (2) BPP Illinois had precedential effect, Plaintiff’s motion for leave to amend its RICO claims would
be properly denied. See DiLaura, 982 F.2d at 76 (The
law of the case “‘doctrine is admittedly discretionary
and does not limit a court’s power to reconsider its own
decisions prior to final judgment.’” (citations omitted)).

43a
A. The Second Circuit’s Decision in BPP
Illinois
In BPP Illinois, LLC v. Royal Bank of Scotland
Grp., PLC, No. 13 Civ. 0638 (JMF), 2013 WL 6003701,
at *4, 8 (S.D.N.Y. Nov. 13, 2013), aff’d in part, vacated
in part, 603 F. App’x 57 (2d Cir. 2015), the district
court dismissed plaintiffs’ state law fraud claims as
untimely on the ground that—under Pennsylvania
law—plaintiffs were on inquiry notice of their potential claims by May 29, 2008, when several news articles were published stating that reported LIBOR rates
were artificial. In so ruling, the district court rejected
plaintiffs’ contention that the inquiry notice issue had
to be resolved by a jury. See id. at *6-7.
The Second Circuit “vacate[d] the district court’s
dismissal of the BPP Plaintiff’s’ claims as barred by
Pennsylvania’s two-year statute of limitations.” BPP
Illinois, 603 F. App’x at 58. The court reasoned that,
“[p]ursuant to application of the [Pennsylvania] discovery rule, the point at which the
complaining party should reasonably be
aware that he has suffered an injury is a factual issue best determined by the collective
judgment, wisdom, and experience of jurors.”
Crouse v. Cyclops Indus., 560 Pa. 394, 404,
745 A.2d 606 (2000) . . . . “Only where the
facts are so clear that reasonable minds could
not differ may a court determine as a matter
of law at the summary judgment stage, the
point at which a party should have been reasonably aware of his or her injury and its
cause and thereby fix the commencement
date of the limitations period.” Gleason v.

44a
Borough of Moosic, 609 Pa. 353, 363, 15 A.3d
479 (2011) (emphasis added).
BPP Illinois, 603 F. App’x at 58-59. The court further
explained that under Pennsylvania law “the statute of
limitations is an affirmative defense, and ‘a plaintiff is
not required to plead, in a complaint, facts sufficient
to overcome an affirmative defense.’” Id. at 59 (quoting
Schmidt v. Skolas, 770 F.3d 241, 251 (3d Cir. 2014)).
Accordingly, the BPP Illinois court found that “in concluding at the Rule 12(b)(6) stage that the BPP Plaintiff’s failed to exhibit reasonable diligence in not discovering their injury by May 29, 2008, the district
court acted too hastily.” Id. Although “further proceedings might show that the BPP Plaintiff’s’ claims are
. . . untimely under the [Pennsylvania] discovery rule,
the present record is insufficient to decide this question as a matter of law.” Id.
B. Whether Plaintiff’s RICO Claim is
Time-Barred
Plaintiff argues that BPP Illinois instructs that
RICO claims cannot “be deemed time-barred at the
pleading stage.” (Pltf. Br. (Dkt. No. 174-1) at 10) BPP
Illinois does not address the inquiry notice standard
for federal claims such as RICO, however. Instead,
BPP Illinois addresses whether and when—under
Pennsylvania law—an issue of inquiry notice can be
resolved on a motion to dismiss. See BPP Illinois, 603
F. App’x at 59. Accordingly, BPP Illinois does not undermine well-established Second Circuit law holding
that statute of limitations questions concerning federal claims may properly be resolved on a motion to
dismiss. See, e.g., Koch v. Christie’s Int’l PLC, 699 F.3d
141, 153 (2d Cir. 2012) (affirming Rule 12(b)(6)

45a
dismissal of plaintiff’s RICO claims on inquiry notice
grounds); LC Capital Partners, LP v. Frontier Ins.
Grp., Inc., 318 F.3d 148, 157 (2d Cir. 2003) (affirming
Rule 12(b)(6) dismissal of plaintiff’s federal securities
claim where it was clear from the “face of the complaint and related documents” that plaintiff was on inquiry notice).
In the alternative, Plaintiff argues that BPP Illinois establishes that the May 29, 2008 Wall Street
Journal article—which this Court relied on in finding
Plaintiff’s RICO claims time-barred—was insufficient
to put Plaintiff on inquiry notice. (Pltf. Reply (Dkt. No.
184) at 6) In responding, Defendants repeat that BPP
Illinois is inapposite because it involves the “dismissal
of state law claims as time-barred under the applicable Pennsylvania law.” (Def. Br. (Dkt. No. 181) at 20)
The Second Circuit’s decision last month in
Charles Schwab Corp. v. Bank of Am. Corp., 883 F.3d
68 (2d Cir. 2018) also addresses the significance of the
May 29, 2008 Wall Street Journal article, however. In
that case, the Second Circuit—applying California
law—reversed a district court’s determination that the
plaintiff was on inquiry notice based on news articles
published by May 29, 2008. See Charles Schwab Corp.,
883 F.3d at 96-97. The Second Circuit’s decision
rested, in part, on California law, and under California
law press reports are not sufficient to put a plaintiff on
inquiry notice unless there is “evidence that the plaintiff was actually aware of the reporting in question.”
Id. at 97.
The Second Circuit went on to state that
even if Schwab were aware of news articles
that raised the possibility that “LIBOR had

46a
been at artificial levels since August 2007,”
. . . it is not certain that any of Schwab’s
claims would be time-barred. The BBA responded to the negative press reporting by assuring investors and journalists that its own
investigation had confirmed the accuracy of
LIBOR. It is plausible that Schwab reasonably relied on those assurances, thus delaying
the start of the limitations period. See BPP
Ill., LLC v. Royal Bank of Scot. Grp., PLC, 603
Fed. Appx. 57, 59 (2d Cir. 2015) (considering
the same press reports at issue here, and reversing district court for “act[ing] too hastily”
in dismissing LIBOR-manipulation claims as
time-barred).
Id. at *19. The Second Circuit’s analysis strongly suggests that, even if the news articles published on or
about May 29, 2008 are sufficient to place a plaintiff
on inquiry notice, the statute of limitations would be
tolled under the doctrine of fraudulent concealment
where a plaintiff plausibly alleges that it relied on the
BBA’s assurances that LIBOR was accurate.
Here, Plaintiff alleges that, “throughout 2008, the
BBA engaged in affirmative acts that lulled any speculation that LIBOR had been or was being manipulated.” (SAC (Dkt. No. 184-1) ¶ 188) Plaintiff further
alleges that between April 2008 and May 29, 2008, the
BBA and many of the Defendant banks made repeated
public statements reassuring investors that “LIBOR
had not been manipulated,” and denying any wrongdoing. (See id. ¶¶ 189-194)
Given the Second Circuit’s recent endorsement of
the fraudulent concealment theory, this Court con-

47a
cludes that Plaintiff’s RICO claims are not subject to
dismissal as time-barred.
C. Whether Plaintiff’s RICO Claims Are
Barred by Res Judicata
Plaintiff contends that “the logic of the Second
Circuit’s holding” in BPP Illinois requires reconsideration of this Court’s res judicata decision, “because,
like the statute of limitations,” res judicata “is an affirmative defense subject to a stringent standard of review unmet by Defendants and inappropriate in the
absence of discovery.” (Pltf. (Dkt. No. 174-1) at 11)
This Court is not persuaded.
As discussed above, BPP Illinois addresses the
proper application of a Pennsylvania statute of limitations under Pennsylvania law. BPP Illinois does not
involve any application of res judicata, and nothing in
that decision suggests that a court is precluded from
evaluating res judicata arguments on a motion to dismiss. Indeed, controlling Second Circuit precedent establishes that “[a] court may consider a res judicata
defense on a Rule 12(b)(6) motion to dismiss when the
court’s inquiry is limited to the plaintiff’s complaint,
documents attached or incorporated therein, and materials appropriate for judicial notice.” TechnoMarine
SA v. Giftports, Inc., 758 F.3d 493, 498 (2d Cir. 2014).
Plaintiff also contends, however, that BPP Illinois
requires reconsideration of this Court’s holding that
Solow could have asserted his RICO claims in the prior
state court action. (See Pltf. Reply (Dkt. No. 184) at 910; Order (Dkt. No. 172) at 49-52) Plaintiff argues that
BPP Illinois establishes that the news articles published by May 29, 2008 were insufficient to place
Plaintiff on inquiry notice, and that therefore Plaintiff

48a
could not have brought his RICO claims in the prior
state action. (Pltf. Reply (Dkt. No. 184) at 9-10)
Plaintiff’s argument is unavailing, however, because this Court’s determination that Solow could
have asserted his federal RICO claims in the prior
state action did not depend on whether the May 29,
2008 news reports put him on inquiry notice. While
this Court acknowledged the publication of multiple
relevant news articles by May 29, 2008, this Court’s
analysis turned on Plaintiff’s concessions in the
Amended Complaint that (1) a “‘public revelation regarding government investigations into possible
LIBOR manipulation occurred on March 15, 2011,’”
disclosing that there were “‘improper attempts by
UBS, either acting on its own or together with others,
to manipulate LIBOR rates at certain times’”; and (2)
numerous news articles—published in March 2011—
reporting that U.S. authorities had subpoenaed many
of the Defendant banks, and initiated investigations
into whether these banks had manipulated LIBOR.
(See Order (Dkt. No. 174) at 50-52 (quoting Am. Cmplt.
(Dkt. No. 95-1) ¶¶ 81-84)) Given that all of these revelations occurred “prior to the state trial court’s entry
of judgment against Solow” on March 24, 2011 (see
Ruffino Decl., Ex. G (May 24, 2011 Judgment) (Dkt.
No. 118-4) at 11), this Court found that Solow was “on
notice of the LIBOR-manipulation scheme” and that
he could have asserted his RICO claims in the state
court action. (See Order (Dkt. No. 174) at 52)
In sum, BPP Illinois does not undermine this
Court’s prior determination that Plaintiff’s RICO
claims are barred by res judicata. Because Plaintiff’s

49a
RICO claims are barred by res judicata, leave to
amend these claims will be denied.5
CONCLUSION
For the reasons stated above, Plaintiff’s motion for
leave to file a Second Amended Complaint is denied.
The Clerk of the Court is directed to terminate the motion (Dkt. No. 174), and to close this case.
Dated: New York, New York
March 19, 2018
SO ORDERED.
s/
Paul G. Gardephe
United States District Judge

5

Having concluded that Plaintiff’s proposed SAC does not
remedy the defects in its federal claims, leave to amend is denied
on that basis, and this Court does not reach Defendants’ personal
jurisdiction arguments.

50a
APPENDIX C
________________________________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________________
No. 13 Civ. 981 (PGG)
7 WEST 57TH STREET REALTY COMPANY, LLC,
Plaintiff,
v.
CITIGROUP, INC.; CITIBANK, N.A.; BANK OF
AMERICA CORP.; BANK OF AMERICA N.A.;
BARCLAYS BANK PLC; UBS AG; JPMORGAN
CHASE & CO.; JPMORGAN CHASE BANK,
NATIONAL ASSOCIATION; CREDIT SUISSE
GROUP AG; BANK OF TOKYO-MITSUBISHI UFJ
LTD.; COOPERATIEVE CENTRALE RAIFFEISENBOERENLEENBANK B.A.; HSBC HOLDINGS PLC;
HSBC BANK PLC; HBOS PLC; LLOYDS BANKING
GROUP PLC; ROYAL BANK OF CANADA; THE
NORINCHUKIN BANK; ROYAL BANK OF
SCOTLAND GROUP, PLC; WESTLB AG;
WESTDEUTSCHE IMMOBILIENBANK AG;
DEUTSCHE BANK AG,
Defendants.
________________________________
MEMORANDUM OPINION & ORDER
________________________________
PAUL G. GARDEPHE, U.S.D.J.:
On February 13, 2013, Plaintiff 7 West 57th Street
Realty Company, LLC—the assignee of Sheldon H.

51a
Solow—filed this action against Defendants Citigroup,
Inc.; Citibank, N.A.; Bank of America Corp.; Bank of
America N.A.; Barclays Bank Plc; UBS AG; JPMorgan
Chase & Co.; JPMorgan Chase Bank, National Association; Credit Suisse Group AG; Bank of TokyoMitsubishi UFJ Ltd.; Coöperatieve Centrale RaiffeisenBoerenleenbank B.A.; HSBC Holdings Plc; HSBC Bank
Plc; HBOS Plc; Lloyds Banking Group Plc; Royal Bank
of Canada; The Norinchukin Bank; Royal Bank of Scotland Group, Plc; WestLB AG; Westdeutsche Immobilienbank AG; and Deutsche Bank AG, alleging that
Defendants colluded to manipulate the London InterBank Offered Rate for the U.S. dollar (“USD-LIBOR”)
in 2008. (Am. Cmplt. (Dkt. No. 95)) Plaintiff claims that
Defendants-who are members of the British Bankers
Association (the “BBA”), and who were responsible for
submitting interest rates that the BBA used to calculate USD-LIBOR in 2008—violated Section 1 of the
Sherman Act, 15 U.S.C. § 1; the Clayton Act, 15 U.S.C.
§ 12 et seq.; the Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18 U.S.C. § 1961 et seq.; and
New York’s Donnelly Act, N.Y. Gen. Bus. Law § 340.
(Am. Cmplt. (Dkt. No. 95) ¶ 1)
Defendants have moved to dismiss the Amended
Complaint. (Dkt. Nos. 114, 139) For the reasons stated
below, Defendants’ motions to dismiss will be granted.

52a
BACKGROUND1
I.

FACTUAL BACKGROUND
A. THE LIBOR-FIXING SCHEME

The London InterBank Offered Rate (“LIBOR”) is
set daily by the BBA, a non-regulatory body governed
by a board composed of members of various banks.
(Am. Cmplt. (Dkt. No. 95) ¶¶ 39, 40) LIBOR functions
as a pricing mechanism and benchmark for deter-

1

The following facts are drawn from the Amended Complaint
and are presumed true for purposes of resolving Defendants’ motions to dismiss. See Kassner v. 2nd Ave. Delicatessen, Inc., 496
F.3d 229, 237 (2d Cir. 2007). In resolving Defendants’ motions,
the Court has also considered documents that are incorporated
into the Amended Complaint by reference, including non-prosecution and deferred prosecution agreements that certain Defendants entered into with the United States Department of Justice,
as well as certain press releases and news articles concerning the
manipulation of LIBOR. See Am. Cmplt. (Dkt. No. 95) ¶¶ 59-126.
“In assessing the legal sufficiency of [a plaintiff’s] claim[s] [on a
motion to dismiss,]” the court may “consider . . . the complaint
and any documents attached thereto or incorporated by reference
and ‘documents upon which the complaint “relies heavily.”’”
Bldg. Indus. Elec. Contractors Ass’n v. City of N.Y., 678 F.3d 184,
187 (2d Cir. 2012) (quoting In re Citigroup ERISA Litig., 662 F.3d
128, 135 (2d Cir. 2011) (quoting DiFolco v. MSNBC Cable L.L.C.,
622 F.3d 104, 111 (2d Cir. 2010))). The Court has also taken judicial notice of public filings in New York state court proceedings
brought by Defendant Citibank, N.A. against Solow. See Global
Network Commc’ns, Inc. v. City of N.Y., 458 F.3d 150, 157 (2d Cir.
2006) (“‘[In deciding a motion to dismiss,] [a] court may take judicial notice of a document filed in another court not for the truth
of the matters asserted in the other litigation, but rather to establish the fact of such litigation and related filings.’” (quoting
Int’l Star Class Yacht Racing Ass’n v. Tommy Hilfiger U.S.A.,
Inc., 146 F.3d 66, 70 (2d Cir. 1998)).

53a
mining, inter alia, interest rates for trillions of dollars
in financial instruments worldwide. (Id. ¶¶ 5, 50-55)
Each day, the BBA calculates and publishes
LIBOR for ten currencies, including the U.S. dollar.
(Id. ¶ 41) Each of these currencies is overseen by a separate BBA “Contributor Panel.” (Id.) A Contributor
Panel consists of various banks that—as described below—provide submissions to the BBA that are used to
calculate the daily LIBOR for that panel’s particular
currency. See id.
Defendants are or were members of the Contributor Panel for the U .S. dollar. (Id. ¶ 39) Defendants are
also horizontal competitors across a range of financing
activities, including transactions that expressly incorporate LIBOR as a benchmark. (Id. ¶ 36)
USD-LIBOR is set daily through a process orchestrated by the BBA. (Id. ¶ 43) Each day, the BBA asks
the sixteen banks on the Contributor Panel for USDLIBOR (the “contributing banks”) “[a]t what rate [of
interest] [they] could . . . borrow funds, were [they] to
do so by asking for and then accepting inter-bank offers in a reasonable market size just prior to 11 am[.]”
(Id.) Under BBA rules, each bank’s answer—referred
to as its “contribution” or “submission”—is meant to
reflect the interest rate at which members of the
bank’s staff who are primarily responsible for management of the bank’s cash believe that the bank could
borrow unsecured interbank funds in the London
money market. (Id. ¶ 44) Under BBA rules, each contributing bank’s submission must be based on its own
independent good faith judgment, taking into account
market conditions and the bank’s posture as a borrower in the market for interbank loan funds. (Id.
¶ 45) The contributing banks’ daily submissions to the

54a
BBA reflect their costs of borrowing funds at three maturity dates—one-month, three-months, and sixmonths. (Id. ¶ 43)
Thomson Reuters—an independent entity—collects the contributing banks’ submissions on the BBA’s
behalf. (Id. ¶¶ 47, 49) Using the contributing banks’
submissions, Thomson Reuters calculates USDLIBOR through an “inter-quartile” methodology, in
which it discards the four highest and the four lowest
submissions, and then averages the remaining eight
submissions to arrive at the USD-LIBOR for a given
day. (Id. ¶ 43)
The BBA requires each contributing bank to arrive at its own daily submission without referring to
the submissions of other banks on the Contributor
Panel. (Id. ¶¶ 44, 46) Each bank is further required to
keep its submission confidential until after Thomson
Reuters publishes the daily USD-LIBOR. (Id. ¶¶ 46,
49) When USD-LIBOR is published, the rates submitted by each individual contributor bank are published
as well, so that it is clear how USD-LIBOR was calculated. (Id. ¶¶ 46, 47)
The BBA also prohibits banks from submitting
contributions based on the pricing of any derivative financial instruments tied to LIBOR. (Id. ¶ 44) This prohibition is intended to prevent contributing banks
from making submissions based on a motive to maximize profits or minimize losses in connection with
such derivative transactions. (Id.)
By 2008, however, Defendants were not complying
with the BBA’s rules governing their submissions. See
id. ¶ 5. Instead, “Defendants . . . manipulate[d] USDLIBOR by falsely reporting to the BBA the . . . interest

55a
rates at which the Defendant banks expected they
could borrow funds . . . on a daily basis.” (Id. ¶¶ 6, 68,
73) Traders at the contributing banks asked their colleagues who were responsible for submitting rates to
the BBA (the “LIBOR submitters”) to submit rates
that would benefit the bank’s own trading positions,
as opposed to rates that reflected the bank’s good faith
judgment of its true cost of borrowing that day. See,
e.g., id. Traders also requested that their counterparts
at other contributing banks do the same. See, e.g., id.
The traders made these requests through electronic
messages, telephone calls, and in-person conversations. See, e.g., id. ¶ 61. The LIBOR submitters frequently agreed to accommodate these requests. See id.
Through their traders’ requests—and the LIBOR submitters’ acquiescence—Defendants caused rates to be
submitted to the BBA that served Defendants’ own financial interests, rather than complying with BBA
standards. (Id. ¶¶ 5, 6) As a result, USD-LIBOR calculated on the basis of these rates was “artificial” and
did not reflect the contributing banks’ true costs of borrowing under actual market conditions. (Id.)
B. SOLOW’S LOANS AND 2008 DEFAULT
Solow—who assigned his claims related to this action to Plaintiff—pledged a portfolio of more than $450
million in high-grade municipal bonds as collateral for
LIBOR-denominated loans in or about 2003. See id.
¶¶ 9, 148. Several of these loans were issued by Defendant Citibank, N.A. (Id. ¶¶ 9, 15) The interest rate for
these loans was determined by reference to USDLIBOR. See id. ¶ 9. For approximately five years, the
interest rate on Solow’s loans was LIBOR + 0.75%. (Id.
¶ 148) In March 2008, however, Citibank increased the
interest rate on the loans to LIBOR + 1.25%. (Id. ¶ 148)

56a
Statistical analysis indicates that—at certain
times between August 31, 2007 and October 22,
2008—there was a negative correlation coefficient relationship between one-month USD-LIBOR rates and
Standard & Poor’s (“S&P”) New York AMT-Free Municipal Bond Index (the “S&P bond index”), which is
an index that measures the performance of bonds similar to those in Solow’s portfolio. (Id. ¶ 156) This analysis suggests that an increase in one-month USDLIBOR during those periods was, on average, associated with a decline in the value of the bonds listed in
the S&P bond index. (Id.)
Between September 12, 2008 and October 10,
2008, Defendants’ submissions to the BBA for the calculation of USD-LIBOR were higher than their true
costs of borrowing, which resulted in the artificial inflation of USD-LIBOR throughout that period. (Id.
¶¶ 151, 153-54, 157)
On September 24, 2008, Citibank notified Solow
that on five consecutive days between September 17
and September 23, 2008, the value of his bond portfolio
had dropped below the value required as collateral for
his loans. (Id. ¶ 152) Solow was then current on his
loans, but Citibank nonetheless declared a technical
default and seized Solow’s bond portfolio. (Id. ¶¶ 9,
149, 152, 158)
On November 3, 2008, Solow’s portfolio—which
had been worth $450 million when pledged as collateral—sold for approximately $415 million, net of commissions. (Id. ¶ 159) Defendants Citibank, JPMorgan,
Bank of America, Barclays, and Deutsche Bank were
“direct and indirect” participants in the liquidation of
the portfolio, with Citibank purchasing a substantial
portion of the portfolio in the first instance. (Id. ¶ 158)

57a
Because there was still a deficiency in the amount
Solow owed following this sale, Citibank seized the
portfolio’s earned interest of more than $15,000 as
well. (Id. ¶ 159)
Between October 6 and November 13, 2008, Citibank seized more than $4.2 million in cash from accounts held by Solow. (Id.) Citibank claimed that at
least $2.1 million of the cash seized was for interest
that Solow owed on the loans after default. (Id.) In calculating interest, Citibank applied a “default” interest
rate, which was LIBOR-denominated and higher than
the interest rate that had applied prior to Citibank’s
declaration of default. (Id.)
After these transactions, Citibank still claimed a
$67 million deficiency, and demanded immediate payment of the deficiency and an additional $18.5 million
in cash collateral. (Id. ¶¶ 159, 160) On December 16,
2008, Citibank filed suit against Solow in New York
Supreme Court seeking the $67 million deficiency, interest at the default interest rate, $18.5 million in cash
collateral and fees, unspecified management fees, expenses, costs, and attorneys’ fees. (Id. ¶ 161)
On March 24, 2011, Citibank obtained a judgment
against Solow in New York Supreme Court for more
than $100 million. (Id. ¶ 162; Ruffino Decl. (Dkt. No.
118) Ex. D) On February 23, 2012, the lower court’s
judgment was affirmed by the First Department. See
Citibank, N.A. v. Solow, 92 A.D.3d 569, 570 (1st Dep’t),
leave to appeal denied, 19 N.Y.3d 807 (N.Y. 2012).
Solow paid the judgment in full on May 23, 2012. (Am.
Cmplt. (Dkt. No. 95) ¶ 162)

58a
II. PROCEDURAL HISTORY
After satisfying the state court judgment, Solow
assigned claims arising out of the events described
above to Plaintiff 7 West 57th Street Realty Company.
See id. ¶ 1. Plaintiff commenced this action on February 13, 2013. (Cmplt. (Dkt. No. 1)) The Amended Complaint was filed on June 11, 2013. (Am. Cmplt. (Dkt.
No. 95)) Plaintiff claims that—but for Defendants’ conduct—USD-LIBOR would not have been artificially inflated in September 2008, the value of Solow’s bond
portfolio would not have dropped beneath the value
necessary to collateralize Solow’s loans with Citibank,
and no default on the loans would have been declared.
See id. Plaintiff further claims that the seizure of
Solow’s portfolio and cash, the low prices realized from
the sale of the portfolio, the high default interest rates
Solow was forced to pay, and the judgment in the state
court action all resulted from Defendants’ manipulation of USD-LIBOR. See id. ¶ 163.
On December 13, 2013, all Defendants moved to
dismiss the Amended Complaint. (Dkt. No. 114) Defendants argue that (1) Plaintiff’s claims are barred by
the applicable statutes of limitations; (2) Plaintiff has
failed to state an antitrust claim; (3) Plaintiff has
failed to state a RICO claim; (4) Plaintiff’s claims are
barred by res judicata in light of the state court proceedings; and (5) Plaintiff lacks standing to assert
Solow’s claims. See Dkt. Nos. 115, 117.
On October 23, 2014, the foreign bank Defendants
requested leave to file a second motion to dismiss—for
lack of personal jurisdiction—based on developments
in the law of personal jurisdiction since the original
motion to dismiss was filed. (Dkt. No. 133) This Court
granted Defendants’ application, and on December 10,

59a
2014, the foreign bank Defendants filed a motion to
dismiss for lack of personal jurisdiction. (Dkt. No. 139)
DISCUSSION
I.

LEGAL STANDARD FOR MOTION TO
DISMISS

“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
“In considering a motion to dismiss . . . the court is to
accept as true all facts alleged in the complaint,” Kassner, 496 F.3d at 237 (citing Dougherty v. Town of N.
Hempstead Bd. of Zoning Appeals, 282 F.3d 83, 87 (2d
Cir. 2002)), and must “draw all reasonable inferences
in favor of the plaintiff.” Id. (citing Fernandez v.
Chertoff, 471 F.3d 45, 51 (2d Cir. 2006)).
A complaint is inadequately pled “if it tenders ‘naked assertion[s]’ devoid of ‘further factual enhancement,’” Iqbal, 556 U.S. at 678 (quoting Twombly, 550
U.S. at 557), and does not provide factual allegations
sufficient “to give the defendant fair notice of what the
claim is and the grounds upon which it rests.” Port
Dock & Stone Corp. v. Oldcastle Ne., Inc., 507 F.3d
117, 121 (2d Cir. 2007) (citing Twombly, 550 U.S. at
555). “In considering a motion to dismiss for failure to
state a claim pursuant to Rule 12(b)(6), a district court
may consider the facts alleged in the complaint, documents attached to the complaint as exhibits, and documents incorporated by reference in the complaint.”
DiFolco, 622 F.3d at 111 (citing Chambers v. Time
Warner, Inc., 282 F.3d 147, 153 (2d Cir. 2002); Hayden
v. Cnty. of Nassau, 180 F.3d 42, 54 (2d Cir. 1999)).

60a
II. PERSONAL JURISDICTION
The Bank of Tokyo-Mitsubishi UFJ, Ltd., Barclays Pank PLC, Credit Suisse Group AG, Deutsche
Bank AG, HSBC Holdings plc, HSBC Bank plc, Lloyds
Banking Group plc, Coöperatieve Centrale RaiffeisenBoerenleenbank B.A., HBOS plc, the Norinchukin
Bank, the Royal Bank of Canada, the Royal Bank of
Scotland plc, Portigon AG (f/k/a WestLB AG), and
Westdeutsche ImmobilienBank AG (together, the
“Foreign Banks”) claim that this Court lacks personal
jurisdiction over them. (Def. Br. on Motion to Dismiss
for Lack of Personal Jurisdiction (Dkt. No. 140) at 1)
“Jurisdiction to resolve cases on the merits requires
. . . authority . . . over the parties (personal jurisdiction), so that the court’s decision will bind them.”
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 577
(1999). Accordingly, this Court will address the Foreign Banks’ objection to this Court’s exercise of personal jurisdiction over them before addressing the arguments brought by all Defendants that Plaintiff has
failed to state a claim.
A. The Foreign Banks Have Not Waived
Their Personal Jurisdiction Objection
Plaintiff argues that the Foreign Banks have
waived their objections as to personal jurisdiction by
not raising them in their original motion to dismiss
under Rule 12(b). (Pltf. Opp. to Motion to Dismiss for
Lack of Personal Jurisdiction (Dkt. No. 157) at 17)
Generally, a party waives any objection to personal jurisdiction by not raising it on a motion to dismiss under Rule 12(b). See Fed. R. Civ. P. 12(h)(1)(A) (“A party
waives any defense listed in Rule 12(b)(2)-(5) by . . .
omitting it from a motion described in Rule 12(g)(2)

61a
[providing that a party who makes a motion under
Rule 12(b) must not make another motion under Rule
12(b) raising a new defense or objection that was available but omitted from its earlier motion]”). However,
Rule 12(g)(2) provides that only where “a defense or
objection . . . was available to the party” does its omission from an earlier Rule 12(b) motion constitute
waiver. Fed. R. Civ. P. 12(g)(2); see Hawknet, Ltd. v.
Overseas Shipping Agencies, 590 F.3d 87, 92 (2d Cir.
2009) (“‘[A] party cannot be deemed to have waived objections or defenses which were not known to be available at the time they could first have been made.’”
(quoting Holzsager v. Valley Hosp., 646 F.2d 792, 796
(2d Cir. 1981))).
Plaintiff argues that an objection as to personal
jurisdiction was available to the Foreign Banks when
they filed their original motion to dismiss in December
2013. (Pltf. Opp. to Motion to Dismiss for Lack of Personal Jurisdiction (Dkt. No. 157) at 18-19) In Gucci
America, Inc. v. Weixling Li, 768 F.3d 122 (2d Cir.
2014), however, the Second Circuit ruled that a foreign
bank similarly situated to the Foreign Banks in this
case had not waived its objection to personal jurisdiction, even though the bank had not raised a personal
jurisdiction objection in the district court:
In Daimler[AG v. Bauman, 134 S.Ct. 746
(2014)], the Supreme Court for the first time
addressed the question whether, consistent
with due process, “a foreign corporation may
be subjected to a court’s general jurisdiction
based on the contacts of its in-state subsidiary.” 134 S.Ct. at 759. Assuming without deciding that such contacts may in some circumstances be imputed to the foreign parent, the

62a
Court held that a corporation may nonetheless be subject to general jurisdiction in a
state only where its contacts are so “continuous and systematic,” judged against the corporation’s national and global activities, that
it is “essentially at home” in that state. Id. at
761-62. Aside from “an exceptional case,” the
Court explained, a corporation is at home
(and thus subject to general jurisdiction, consistent with due process) only in a state that
is the company’s formal place of incorporation
or its principal place of business. Id. at 761 &
n.19. In so holding, the Court expressly cast
doubt on previous Supreme Court and New
York Court of Appeals cases that permitted
general jurisdiction on the basis that a foreign
corporation was doing business through a local branch office in the forum. See id. at 735
n.18 (citing Barrow S.S. Co. v. Kane, 170 U.S.
100 (1898)[;] Tauza v. Susquehanna Coal Co.,
220 N.Y. 259 (1917)) . . . .
We conclude that applying the Court’s recent
decision in Daimler, the district court may not
properly exercise general personal jurisdiction over the Bank. Just like the defendant in
Daimler, the nonparty Bank here has branch
offices in the forum, but is incorporated and
headquartered elsewhere. Further, this is
clearly not “an exceptional case” where the
Bank’s contacts are “so continuous and systematic as to render [it] essentially at home
in the forum.” Daimler, 134 S.Ct. at 761 &
n.19 (alteration in original) (quoting

63a
Goodyear [Dunlop Tires Operations, S.A. v.
Brown], 131 S.Ct. [2846,] 2851 [(2011)]). . . .
Although the Bank appeared in the district
court and did not argue there that the court
lacked personal jurisdiction, we also conclude
that its objection to the exercise of general jurisdiction has not been waived. While arguments not made in the district court are generally waived, see Datskow v. Teledyne, Inc.,
Cont’l Prods. Div., 899 F.2d 1298, 1303 (2d
Cir. 1990), “a party cannot be deemed to have
waived objections or defenses which were not
known to be available at the time they could
first have been made,” Hawknet, 590 F.3d [at]
92 (citation omitted). Accordingly, we have
held that a defendant does not waive a personal jurisdiction argument—even if he does
not make it in the district court—if the “argument that the court lacked jurisdiction over
[the] defendant would have been directly contrary to controlling precedent in this Circuit.”
Id. Prior to Daimler, controlling precedent in
this Circuit made it clear that a foreign bank
with a branch in New York was properly subject to general personal jurisdiction here . . . .
Under prior controlling precedent of this Circuit, the Bank was subject to general jurisdiction because through the activity of its New
York branch, it engaged in a “continuous and
systematic course of doing business in New
York.” Hoffritz [for Cutlery, Inc. v. Amajac,
Ltd.], 763 F.2d [55,] 58 [(2d Cir. 1985)]. Therefore, we conclude that the Bank did not waive
its personal jurisdiction objection.

64a
Gucci Am., 768 F.3d at 134-36.
Plaintiff argues that the test applied in Daimler
was, in fact, established three years earlier in Goodyear, 131 S.Ct. at 2851 (2011). See Daimler, 134 S.Ct.
at 751 (“In Goodyear . . . we addressed the distinction
between general or all-purpose jurisdiction, and specific or conduct-linked jurisdiction. As to the former,
we held that a court may assert jurisdiction over a foreign corporation ‘to hear any and all claims against
[it]’ only when the corporation’s affiliations with the
State in which suit is brought are so constant and pervasive ‘as to render [it] essentially at home in the forum State.’ . . . Instructed by Goodyear, we conclude
that Daimler is not ‘at home’ in California[.]” (quoting
Goodyear, 131 S.Ct. at 2851)). Moreover, that same
test was applied by the Second Circuit itself prior to
Daimler. See In re Terrorist Attacks on Sept. 11, 2001,
714 F.3d 659, 674 (2d Cir. 2013) ( “The Supreme Court
recently noted that ‘[f]or an individual, the paradigm
forum for the exercise of general jurisdiction is the individual’s domicile; for a corporation, it is an equivalent place, one in which the corporation is fairly regarded as at home.’” (alteration in original) (quoting
Goodyear, 131 S.Ct. at 2853-54)).
Gucci America unequivocally holds, however, that
Daimler effected a change in the law, providing defendants such as the Foreign Banks with a personal
jurisdiction defense that was previously unavailable to
them. Gucci Am., 768 F.3d at 135-36. This Court is, of
course, bound by Gucci America. Accordingly, the Foreign Banks have not waived their personal jurisdiction
objection.

65a
B. Specific Personal Jurisdiction
“In litigation arising under federal statutes that do
not contain their own jurisdictional provisions, . . . federal courts are to apply the personal jurisdiction rules
of the forum state, provided that those rules are consistent with the requirements of Due Process.”2 Penguin Grp., 609 F.3d at 35 (internal citation omitted).
2

Before analyzing the forum state’s rules regarding the exercise of personal jurisdiction, it is necessary to address the applicability of the nationwide personal jurisdiction provisions in the
RICO statute and the Clayton Act. These federal laws provide the
bases for two of Plaintiff’s causes of action.
The Second Circuit has noted that the RICO statute “does not
provide for nationwide personal jurisdiction over every defendant
in every civil RICO case, no matter where the defendant is
found. . . . [A] civil RICO action can only be brought in a district
court where personal jurisdiction based on minimum contacts is
established as to at least one defendant.” PT United Can Co. Ltd.
v. Crown Cork & Seal Co., 138 F.3d 65, 71 (2d Cir. 1998). Additional defendants may be subject to nationwide personal jurisdiction, but “[t]his jurisdiction is not automatic[;] [it] requires a showing that the ‘ends of justice’ so require.” Id. The “ends of justice”
requirement is satisfied where “there is no district with personal
jurisdiction over all defendants.” Id. at 71 n.5; see also Daly v. Castro Llanes, 30 F. Supp. 2d 407, 413 (S.D.N.Y. 1998) (“The phrase
‘ends of justice require’ has been interpreted to mean that § 1965(b)
authorizes an assertion of personal jurisdiction if, otherwise, the
entire RICO claim could not be tried in one civil action.”).
Only “if the allegations in the Complaint state[] a viable RICO
claim, . . . would [it] be proper to exercise ‘ends of justice’ RICO
jurisdiction,” however. Elsevier Inc. v. W.H.P.R., Inc., 692
F. Supp. 2d 297, 315 (S.D.N.Y. 2010); see BWP Media USA Inc. v.
Hollywood Fan Sites, LLC, No. 14 Civ. 121(JPO), 2014 WL
6077247, at *4 (S.D.N.Y. Nov. 14, 2014) (“Plaintiffs ‘cannot rely
upon [the nationwide personal jurisdiction provisions of the RICO
statute] to establish jurisdiction over each of the defendants’ if

66a
“[C]ontacts with [a] forum may confer two types of
jurisdiction-specific and general.” In re Parmalat Sec.
Litig., 376 F. Supp. 2d 449, 453 (S.D.N.Y. 2005) (footnote omitted). Plaintiff does not contend that there is
any basis for the exercise of general jurisdiction here.
See Pltf. Opp. to Motion to Dismiss for Lack of Personal Jurisdiction (Dkt. No. 157) at 10-14 (arguing
only that “[e]xercising [s]pecific [j]urisdiction [o]ver
Defendants is [p]roper”); Oct. 24, 2014 Pltf. Ltr. (Dkt.
No. 134) at 1 (“General personal jurisdiction is irrelevant here . . . .”). “Specific jurisdiction exists when a
forum ‘exercises personal jurisdiction over a defendant
in a suit arising out of or related to the defendant’s
contacts with the forum.’” Id. (quoting Metro. Life Ins.
Co., 84 F.3d at 567-68 (internal quotation marks and
citation omitted)).

the RICO claim is dismissed.” (quoting Cont’l Petroleum Corp. v.
Corp. Funding Partners, LLC, No. 11 Civ. 7801(PAE), 2012 WL
1231775, at *8 (S.D.N.Y. Apr. 12, 2012))). Here—as discussed below—Plaintiff’s RICO claim is barred by the statute of limitations
and by res judicata. Accordingly, this Court cannot apply the
RICO statute’s nationwide personal jurisdiction provisions.
Application of the nationwide personal jurisdiction provisions
of the Clayton Act would be improper for the same reason: as discussed below, Plaintiff has failed to state an antitrust claim.
Where there is no valid antitrust claim, it necessarily follows that
Plaintiff cannot rely on an antitrust statute’s personal jurisdiction provisions. Cf. id.; Elsevier Inc, 692 F. Supp. 2d at 315.
Because the provisions in the Clayton Act and the RICO statute
authorizing nationwide personal jurisdiction are not applicable
here, this Court will “apply the personal jurisdiction rules of the
forum state, provided that those rules are consistent with the requirements of Due Process.” Penguin Grp. (USA) Inc. v. Am. Buddha, 609 F.3d 30, 35 (2d Cir. 2010) (internal citations omitted).

67a
1.

Specific Personal Jurisdiction Under
New York Law

New York’s long-arm statute provides, in relevant
part, that a court may exercise specific personal jurisdiction over a non-domiciliary who “transacts any
business within the state or contracts anywhere to
supply goods or services in the state,” where plaintiff’s
claim arises out of that transaction of business or contract. N.Y. C.P.L.R. § 302(a)(1). To establish personal
jurisdiction under this section, plaintiff must show
that “(1) defendant purposefully availed himself of the
privilege of doing business in the forum state such that
the defendant could foresee being brought into court
there; and (2) plaintiff’s claim arises out of or is related
to the defendant’s contacts with the forum state.”
Aqua Prods., Inc. v. Smartpool, Inc., No. 04 Civ. 5492
(GBD), 2005 WL 1994013, at *5 (S.D.N.Y. Aug. 18,
2005) (citing Helicopteros Nacionales de Colombia,
S.A. v. Hall, 466 U.S. 508, 414 (1984); World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 297 (1980);
Chew v. Dietrich, 143 F.3d 24, 28 (2d Cir. 1998)).
“A court will have personal jurisdiction over a defendant, pursuant to § 302(a)(2), if the defendant ‘commits a tortious act within the state.’” Virgin Enters.
Ltd. v. Virgin Eyes LAC, No. 08 Civ. 8564 (LAP), 2009
WL 3241529, at *4 (S.D.N.Y. Sept. 30, 2009) (quoting
N.Y. C.P.L.R. § 302(a)(2)). “[T]he New York Court of
Appeals has interpreted [this] subsection to reach only
tortious acts performed by a defendant who was physically present in New York when he committed the
act.” Id. (citing Longines-Wittnauer Watch Co. v.
Barnes & Reinecke, Inc., 15 N.Y.2d 443, 460 (1965)
(“Any possible doubt on this score is dispelled by the
fact that the draftsmen of section 302 pointedly

68a
announced that their purpose was to confer on the
court ‘personal jurisdiction’ over a non-domiciliary
whose act in the state gives rise to a cause of action or,
stated somewhat differently, ‘to subject non-residents
to personal jurisdiction when they commit acts within
the state.’”) (citations omitted)). “[I]n Bensusan Restaurant Corp. v. King, the [Second Circuit] declined to
deviate from the New York Court of Appeals’ decision
in Longines-Wittnauer . . . .” Id. (citing Bensusan Rest.
Corp. v. King, 126 F.3d 25, 29 (2d Cir. 1997)).
Section 302(a)(3) allows for “a nondomiciliary who
‘commits a tortious act without the state causing injury . . . within the state’ [to] be brought before a New
York court to answer for his conduct if he has had sufficient economic contact with the State or an active interest in interstate or international commerce coupled
with a reasonable expectation that the tortious conduct in question could have consequences within the
State.” McGowan v. Smith, 52 N.Y.2d 268, 273 (1981)
(quoting N.Y. CPLR § 302(a)(3)). Under Section
302(a)(3), any non-domiciliary who in person or
through an agent “‘commits a tortious act without the
state causing injury to person or property within the
state’” may be subject to personal jurisdiction if he
“(i) regularly does or solicits business, or engages in any other persistent course of conduct, or derives substantial revenue from
goods used or consumed or services rendered,
in the state, or (ii) expects or should reasonably expect the act to have consequences in the
state and derives substantial revenue from
interstate or international commerce . . . .”

69a
Bank Brussels Lambert v. Fiddler Gonzalez & Rodriguez, 171 F.3d 779, 790-91 (2d Cir. 1999) (quoting N.Y.
CPLR § 302(a)(3)).
2.

Due Process Limits on the Exercise
of Specific Personal Jurisdiction

To satisfy the Due Process Clause, “the nonresident generally must have ‘certain minimum contacts
. . . such that the maintenance of the suit does not offend “traditional notions of fair play and substantial
justice.”’” Walden v. Fiore, 134 S.Ct. 1115, 1121 (2014)
(quoting Int’l Shoe Co. v. State of Wash., Office of Unemployment Comp. and Placement, 326 U.S. 310, 316
(1945) (quoting Milliken v. Meyer, 311 U.S. 457, 463
(1940))). “The inquiry [with respect to specific, personal jurisdiction] . . . ‘focuses on “the relationship
among the defendant, the forum, and the litigation.”’”
Id. (quoting Keeton v. Hustler Magazine, Inc., 465 U.S.
770, 775 (1984) (quoting Shaffer v. Heitner, 433 U.S.
186, 204 (1977))). Accordingly, for this Court “to exercise jurisdiction consistent with due process, the defendant’s suit-related conduct must create a substantial connection with the forum state.” Id.
Moreover, “the relationship [between the defendant’s suit-related conduct and the forum] must arise
out of contacts that the ‘defendant himself’ creates
with the forum . . . .“ Id. at 1122 (quoting Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 475 (1985)) (emphasis in original). And the “ ‘minimum contacts’ analysis
looks to the defendant’s contacts with the forum . . .
itself, not the defendant’s contacts with persons who
reside there.” Id. While “a defendant’s contacts with
the forum . . . may be intertwined with his transactions or interactions with the plaintiff or other

70a
parties,” these relationships, “standing alone, [are] an
insufficient basis for jurisdiction.” Id. at 1123. “Due
process requires that a defendant be haled into court
in a forum . . . based on his own affiliation with the
[forum], not based on the ‘random, fortuitous, or attenuated’ contacts he makes by interacting with other
persons affiliated with the [forum].” Id. (quoting
Burger King, 471 U.S. at 475). In this regard, “[t]he
proper question is not where the plaintiff experienced
a particular injury or effect but whether the defendant’s conduct connects him to the forum in a meaningful way.” Id. at 1125.
A defendant need not have committed a physical
act within the forum state, however, for his contacts
with the forum to be sufficient; the test may also be
satisfied where “an act performed elsewhere[] causes
an effect in the [forum].” Eskofot A/S v. E.I. Du Pont
De Nemours & Co., 872 F. Supp. 81, 87 (S.D.N.Y. 1995)
(citing SEC v. Unifund SAL, 910 F.2d 1028, 1033 (2d
Cir. 1990)) (applying minimum contacts analysis in
context of Fed. R. Civ. P. Rule 4(k)(2)). Indeed, in Walden, the Supreme Court discussed at length how the
effects of a defendant’s conduct can tie the defendant
sufficiently to a forum to permit the exercise of personal jurisdiction. Justice Thomas explained that
[t]he crux of Calder [—a case finding specific
personal jurisdiction in California where a
Florida-based paper published a defamatory
article about a California actress—] was that
the reputation-based “effects” of the alleged
libel connected the defendants to California,
not just to the plaintiff. The strength of that
connection was largely a function of the nature of the libel tort. However scandalous a

71a
newspaper article might be, it can lead to a
loss of reputation only if communicated to
(and read and understood by) third persons
. . . . Accordingly, the reputational injury
caused by the defendants’ story would not
have occurred but for the fact that the defendants wrote an article for publication in California that was read by a large number of California citizens. Indeed, because publication
to third persons is a necessary element of libel, . . . the defendants’ intentional tort actually occurred in California. . . . In this way,
the “effects” caused by the defendants’ article—i.e., the injury to the plaintiff’s reputation in the estimation of the California public—connected the defendants’ conduct to California, not just to a plaintiff who lived there.
That connection, combined with the various
facts that gave the article a California focus,
sufficed to authorize the California court’s exercise of jurisdiction.
Walden, 134 S.Ct. at 1123-24 (emphasis in original)
(footnote omitted).
In this Circuit, “where ‘the conduct that forms the
basis for the controversy occurs entirely out-of-forum,
and the only relevant jurisdictional contacts with the
forum are therefore in-forum effects harmful to the
plaintiff,’” a court is to employ “an ‘effects test,’ by
which ‘the exercise of personal jurisdiction may be constitutionally permissible if the defendant expressly
aimed its conduct at the forum.’” Tarsavage v. Citic
Trust Co., Ltd., 3 F. Supp. 3d 137, 145 (S.D.N.Y. 2014)
(quoting Licci ex rel. Licci v. Lebanese Canadian Bank,
SAL, 732 F.3d 161, 173 (2d Cir. 2013) (citing Calder,

72a
465 U.S. at 789)). It is not sufficient that conduct incidentally had an effect in the forum, or even that effects
in the forum were foreseeable. See id. (citing In re Terrorist Attacks, 714 F.3d at 674) Instead, the defendant
must have intentionally caused—i.e., expressly aimed
to cause—an effect in the forum through his conduct
elsewhere. See id. (citing In re Terrorist Attacks on
Sept. 11, 2001, 538 F.3d 71, 95 (2d Cir. 2008), abrogated on other grounds by Samantar v. Yousuf, 560
U.S. 305 (2010)).
3.

Analysis

Plaintiff alleges that “[t]his Court has personal jurisdiction over each of the Defendants by virtue of
their business activities in this District.” (Am. Cmplt.
(Dkt. No. 95) ¶ 12) Plaintiff must demonstrate that the
Foreign Banks’ suit-related conduct creates minimum
contacts with New York, however, not simply that the
Foreign Banks have a presence here or conduct business activities here in general. Walden, 134 S.Ct. at
1121. General contacts with New York are not sufficient to establish specific personal jurisdiction. There
is precious little in the Amended Complaint demonstrating a connection between the Foreign Banks’ alleged suit-related conduct and New York, and there
are no allegations demonstrating that any such relationship arose out of contacts that the Foreign Banks
created with New York. See id. at 1122-23.
Only two paragraphs in the 72-page Amended
Complaint (see Am. Cmplt. (Dkt. No. 95) ¶¶ 64-65)
even hint at a connection between New York and the
Foreign Banks’ suit-related conduct. In those paragraphs, Plaintiff quotes from a June 6, 2013 Wall
Street Journal article reporting that “‘several former

73a
Barclays derivatives traders and other employees who
worked in the bank’s New York office’” are under investigation by the U.S. Department of Justice, and
that “‘Barclays has fired several employees . . . for
their alleged roles in attempted Libor manipulation.’”
(Id. ¶ 64) The Journal article goes on to state that the
two Barclays employees who were fired “‘engaged in
communications involving inappropriate requests relating to Libor.’” See id. ¶ 65. As to the Foreign Banks
other than Barclays, nothing of this sort is pled. As to
Barclays, these allegations are not sufficient to
demonstrate the necessary connection between its alleged suit-related conduct and New York, much less
that any relationship between this conduct and New
York arose out of contacts that Barclays created with
New York. See Walden, 134 S.Ct. at 1121-23. Indeed,
Plaintiff has not pled facts suggesting that the conduct
of the two Barclays employees has any connection with
the injury suffered by Solow, or that the misconduct
alluded to in the article took place within the relevant
time period—September 12, 2008 to October 10, 2008,
according to Paragraphs 151, 153-54, 157 of the
Amended Complaint.
Accepting the Amended Complaint’s allegations
that Solow resided in New York and was injured here,
due process requires more for the exercise of personal
jurisdiction. The Foreign Banks’ suit-related conduct
must tie them to New York itself, not just to a plaintiff
who happens to reside in New York. Walden, 134 S.Ct.
at 1121-22.
The Amended Complaint likewise does not satisfy
the “effects test,” which requires factual allegations
demonstrating that the Foreign Banks’ suit-related
conduct was “‘expressly aimed’” at New York, in

74a
addition to having an effect here. Tarsavage,
3 F. Supp. 3d at 145 (quoting Licci, 732 F.3d at 173).
Plaintiff alleges that “[t]he municipal bonds in the
Solow portfolio were issued by New York governmental entities,” and conducts a statistical analysis of
LIBOR’s relationship to a New York bond index that
is “an index of bonds similar to those in the Solow portfolio.” (Am. Cmplt. (Dkt. No. 95) ¶ 156) Plaintiff further alleges that the Foreign Banks’ LIBOR manipulations caused the value of Solow’s bond portfoliowhich contained New York municipal bonds—to fall
below the minimum required threshold for his loans’
collateral. (Id. ¶ 163 (“The purported impairment of
Plaintiff’s bond portfolio, seizure of the portfolio and
cash, the low prices realized in the collateral sale and
inflated LIBOR-denominated contract and ‘default’ interest rates and imposition of fees and expenses were
the result of Defendants’ collective manipulations of
LIBOR.” ) (emphasis added))
Assuming arguendo that these allegations are sufficient to demonstrate an effect in New York, Plaintiff
has not alleged facts demonstrating that the Foreign
Banks “‘expressly aimed’” their conduct at New York
or its municipal bond markets. See Tarsavage,
3 F. Supp. 3d at 145 (quoting Licci, 732 F.3d at 173).
Accepting that (1) the artificial inflation of LIBOR
caused interest rates to increase; (2) the increase in
interest rates caused the value of Solow’s bond portfolio to fall below the required threshold; and (3) the negative effect on Solow’s portfolio was a foreseeable result of the Foreign Banks’ alleged LIBOR manipulation, “the fact that harm in the forum is foreseeable . . .
is insufficient for the purpose of establishing specific
personal jurisdiction over a defendant.” In re Terrorist

75a
Attacks, 714 F.3d at 674. Because the Amended Complaint does not plead facts demonstrating that the
LIBOR manipulation was done with the express aim
of causing an effect in New York, the “effects test” is
not satisfied. See Tarsavage, 3 F. Supp. 3d at 145.
This Court does not have specific personal jurisdiction over the Foreign Banks.
C. Consent to Personal Jurisdiction
Plaintiff argues that some of the Foreign Banks
have consented to general personal jurisdiction in New
York by virtue of their registration with the New York
Department of Financial Services and designation of
an agent for service of process in New York. (Pltf. Opp.
to Motion to Dismiss for Lack of Personal Jurisdiction
(Dkt. No. 157) at 4-10) Plaintiff cites a number of cases
for the proposition that such registration and designation amounts to consent to general personal jurisdiction in New York. See id. None of these cases are on
point, however, because they address registration under provisions of New York law different from those
under which the Foreign Banks are registered.
The Foreign Banks are registered under New
York Banking Law § 200, which provides that foreign
banks operating in New York must “appoint[] the superintendent and his or her successors as its true and
lawful attorney, upon whom all process in any action
or proceeding against it on a cause of action arising out
of a transaction with its New York agency or agencies
or branch or branches, may be served . . . .” N.Y. Banking Law § 200(3) (emphasis added). The plain language of this provision limits any consent to personal
jurisdiction by registered banks to specific personal jurisdiction. See Gliklad v. Bank Hapoalim B.M.,

76a
No. 115/95/2014 2014 N.Y. Slip Op 32117(U), at *5
(Sup. Ct. N.Y. Cnty. Aug. 4, 2014) (Section 200
“provid[es] for the exercise of specific jurisdiction, not
general.”).
The cases cited by Plaintiff address different registration and licensing provisions, which do not contain the same language limiting consent to claims arising out of the activities of a New York branch or
agency. See, e.g., The Rockefeller Univ. v. Ligand
Pharms., 581 F. Supp. 2d 461, 464-66 (S.D.N.Y. 2008)
(registration under N.Y. Business Corporation Law
§ 1304(6) constitutes consent to general jurisdiction).
Under the plain language of New York Banking Law
§ 200 and the holding in Gliklad—the only case cited
that addresses Section 200—this Court concludes that
the Foreign Banks have not consented to general personal jurisdiction in New York.
D. Jurisdiction Premised on Co-Conspirators’ Acts
Plaintiff also argues that “[t]he Court may . . . exercise personal jurisdiction over the [Foreign Banks]
based on the acts committed by their co-conspirators.”
(Pltf. Opp. to Motion to Dismiss for Lack of Personal
Jurisdiction (Dkt. No. 157) at 16) To establish that personal jurisdiction based on the acts of a co-conspirator
is appropriate, a plaintiff must demonstrate that “‘(a)
the defendant had an awareness of the effects in New
York of its activity; (b) the activity of the co-conspirators in New York was to the benefit of the out-of-state
conspirators; and (c) the co-conspirators acting in New
York acted at the direction or under the control or at
the request of or on the behalf of the out-of-state defendant.’” Maersk, Inc. v. Neewra, Inc., 554 F. Supp. 2d

77a
424, 442-43 (S.D.N.Y. 2008) (quoting In re Terrorist Attacks on Sept. 11, 2001, 349 F. Supp. 2d 765, 805
(S.D.N.Y. 2005) (citations and internal quotation
marks omitted)).
The Amended Complaint does not plead sufficient
facts to satisfy these requirements. Although Plaintiff
repeatedly asserts that the Defendants conspired to
injure Solow (see, e.g., Am. Cmplt. (Dkt. No. 95) ¶¶ 3335, 175-177, 192, 202-204), these allegations are conclusory, and the Court cannot “credit ‘mere conclusory
statements’ or ‘[t]hreadbare recitals of the elements of
a cause of action.’” Tarsavage, 3 F. Supp. 3d at 144
(quoting Iqbal, 556 U.S. at 678).
Plaintiff attempts to support its conclusory allegations by citing guilty pleas, settlements, and accompanying admissions, along with “econometric evidence”
of Defendants’ LIBOR manipulation. See Pltf. Opp. to
Motion to Dismiss (Dkt. No. 119) at 35; Am. Cmplt.
(Dkt. No. 95) ¶¶ 56-157. Plaintiff has not shown, however, how the banks’ guilty pleas, settlements, or admissions demonstrate a conspiracy to cause injury to
Solow.
As to Plaintiff’s “econometric evidence,” Plaintiff’s
theory appears to be that the LIBOR rates reported
during the relevant time period were higher than they
would have been absent a conspiracy among the banks
to inflate their LIBOR submissions. However, Plaintiff
concedes that the studies on which it relies concluded
that (1) “‘[i]f banks were truthfully quoting their costs,
. . . we would expect [their] distributions to be similar’”
(id. ¶ 143 (quoting Connan Snider and Thomas Youle,
Does the LIBOR Reflect Banks’ Borrowing Costs?
(April 2, 2010)), and (2) the unexpected pattern of divergence between LIBOR quotes and certain other

78a
economic indicators “‘cannot establish the presence of
a conspiracy or a manipulation of the LIBOR rate, [although] certain patterns do “flag” such a possibility.’”
(Id. ¶ 144 (quoting Rosa M. Abrantes-Metz, Michael
Kraten, Albert D. Metz, and Gim S. Seow, LIBOR Manipulation?, 36 Journal of Banking & Finance 136, 149
(2012)) Analysis that “flags the possibility” of a conspiracy is not sufficient to meet the plausibility test
under Iqbal. See Iqbal, 556 U.S. at 678 (claim for relief
must be “plausible on its face”).
In any event, Plaintiff has not explained how its
allegations are sufficient to satisfy the necessary elements for co-conspirator personal jurisdiction set forth
above. See Pltf. Opp. to Motion to Dismiss for Lack of
Personal Jurisdiction (Dkt. No. 157) at 16. This Court
concludes that personal jurisdiction over the Foreign
Banks cannot be predicated on this theory.
E. Personal Jurisdiction Under Fed. R.
Civ. P. 4(k)(2)
Fed. R. Civ. P. 4(k)(2) provides a basis for “the exercise of personal jurisdiction by a federal district
court when three requirements are met: (1) the claim
must arise under federal law; (2) the defendant must
not be ‘subject to jurisdiction in any state’s courts of
general jurisdiction’; and (3) the exercise of jurisdiction must be ‘consistent with the United States Constitution and laws.’” Porina v. Marward Shipping Co.,
521 F.3d 122, 127 (2d. Cir. 2008) (quoting Fed. R. Civ.
P. 4(k)(2)). Rule 4(k)(2) “fill[s] a gap in the enforcement
of federal law for courts to exercise personal jurisdiction over defendants with sufficient contacts with the
United States generally, but insufficient contacts with
any one state in particular.” In re Terrorist Attacks,

79a
349 F. Supp. 2d at 807 (citations and internal quotation marks omitted).
Here, Plaintiff has alleged claims under three federal statutes: the Sherman Act, the Clayton Act, and
the RICO Act. (Am. Cmplt. (Dkt. No. 95) ¶ 1).
“As to the second element, although the Court has
already found that Defendants are not subject to personal jurisdiction in New York, Plaintiffs have not certified that Defendants are not subject to jurisdiction in
any other state.” Tamam v. Fransabank Sal, 677
F. Supp. 2d 720, 731 (S.D.N.Y. 2010). Accordingly, the
second prerequisite for application of Rule 4(k)(2) has
not been met. See id. A contrary holding would encourage similarly-situated plaintiffs—those suing foreign
corporations under federal law—to omit any allegations tying defendants to a specific state, in hopes of
engaging the broader minimum contacts analysis of
Rule 4(k)(2), which only requires contacts with the
United States as a whole. See Porina, 521 F.3d at 127.
Because Plaintiff has not alleged all of the elements
required for the exercise of personal jurisdiction under
Rule 4(k)(2), this Court declines to apply that provision here.
*

*

*

*

Because this Court does not have personal jurisdiction over the Foreign Banks, Plaintiffs’ claims
against them will be dismissed.3

3

On February 20, 2015, Plaintiff requested leave to submit a
supplemental declaration in opposition to the Foreign Banks’ motion to dismiss for lack of personal jurisdiction. (Dkt. No. 169)
Certain of the Foreign Banks object to Plaintiff’s proposed

80a
III. ANTITRUST CLAIM
Plaintiff alleges that the Defendants violated Section 1 of the Sherman Act by conspiring to “fix[], maintain[] or ma[ke] artificial prices for LIBOR-based financial instruments, including [Solow’s] loans and
bond portfolio.” (Am. Cmplt. (Dkt. No. 95) ¶ 176) All
Defendants have moved to dismiss this claim, arguing,
inter alia, that Plaintiff has failed to allege an antitrust injury. (Def. Br. (Dkt. No. 115) at 24-29)
A. Antitrust Injury
Section 1 of the Sherman Act provides that
“[e]very contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or commerce among the several States, or with foreign nations, is declared to be illegal.” 15 U.S.C. § 1. The private right of action to enforce this provision is set forth
in Section 4 of the Clayton Act. See 15 U.S.C. § 15.
In order for “[a] private plaintiff . . . [to] recover
damages under § 4 of the Clayton Act[,] . . . [the] plaintiff must prove the existence of ‘antitrust injury, which
is to say injury of the type the antitrust laws were intended to prevent and that flows from that which
makes defendants’ acts unlawful.’” Atl. Richfield Co. v.
USA Petroleum Co., 495 U.S. 328, 334 (1990) (quoting
Brunswick Corp. v. Pueblo Bowl-O-Mat, Inc., 429 U.S.
477, 489 (1977)) (emphasis in original). “[I]njury,

supplemental submission. (Dkt. No. 171) Leave is granted to file
the supplemental declaration, but it does not alter the Court’s
analysis. While the supplemental declaration provides more information concerning certain Foreign Banks’ general contacts
with New York, it does not assist Plaintiff in demonstrating that
the Foreign Banks’ suit-related conduct ties them to this forum.

81a
although causally related to an antitrust violation,
nevertheless will not qualify as ‘antitrust injury’ unless it is attributable to an anti-competitive aspect of
the practice under scrutiny . . . .” Id. “The antitrust injury requirement ensures that a plaintiff can recover
only if the loss stems from a competition-reducing aspect or effect of the defendant’s behavior.” Id. at 344
(emphasis omitted). Accordingly, a plaintiff must
demonstrate not only an injury resulting from the defendant’s conduct, but also that the injury “‘is the type
of injury contemplated by the [antitrust] statute.’”
Nichols v. Mahoney, 608 F. Supp. 2d 526, 544
(S.D.N.Y. 2009) (quoting Arista Records LLC v. Lime
Grp. LLC, 532 F. Supp. 2d 556, 568 (S.D.N.Y. 2007)).
“[P]roof of a per se violation [of the Sherman Act]
and of antitrust injury are distinct matters that must
be shown independently.” Atl. Richfield, 495 U.S. at
344 (quotation omitted). Accordingly, “even in cases
involving per se violations [of the Sherman Act], the
right of action under § 4 of the Clayton Act is available
only to those private plaintiffs who have suffered antitrust injury.” Id.
The Second Circuit “employ[s] a three-step process for determining whether a plaintiff has sufficiently alleged antitrust injury.” Gatt Commc’ns, Inc.
v. PMC Assocs., L.L.C., 711 F.3d 68, 76 (2d Cir. 2013).
First, the party asserting that it has been injured by an illegal anticompetitive practice
must “identify[] the practice complained of
and the reasons such a practice is or might be
anticompetitive.” [Port Dock & Stone Corp. v.
Oldcastle Ne., Inc., 507 F.3d 117, 122 (2d Cir.
2007).] Next, [courts] identify the “actual injury the plaintiff alleges.” Id. This requires

82a
[courts] to look to the ways in which the plaintiff claims it is in a “worse position” as a consequence of the defendant’s conduct. Brunswick Corp. v. Pueblo Bowl-O-Mat, Inc., 429
U.S. 477, 486 (1977). Finally, [courts] “compar[e]” the “anticompetitive effect of the specific practice at issue” to “the actual injury the
plaintiff alleges.” Port Dock, 507 F.3d at 122.
It is not enough for the actual injury to be
“causally linked” to the asserted violation.
Brunswick, 429 U.S. at 489. Rather, in order
to establish antitrust injury, the plaintiff
must demonstrate that its injury is “of the
type the antitrust laws were intended to prevent and that flows from that which makes [or
might make] defendants’ acts unlawful.”
[Daniel v. Am. Bd. of Emergency Med., 428
F.3d 408, 438 (2d Cir. 2005)] (internal quotation marks omitted).
Gatt Commc’ns, Inc., 711 F.3d at 76.
B. In re LIBOR-Based Financial Instruments
Antitrust Litigation
In In re LIBOR-Based Fin. Instruments Antitrust
Litig., 935 F. Supp. 2d 666, 686, reconsideration denied, 962 F. Supp. 2d 606 (S.D.N.Y. 2013), appeal dismissed, Nos. 13-3565 (L); 13-3636 (Con), 2013 WL
9557843 (2d Cir. Oct. 30, 2013), rev’d and remanded
sub nom. Gelboim v. Bank of Am. Corp., 135 S.Ct. 897
(2015) (the “MDL”), a court in this District addressed
the question of whether plaintiffs sufficiently pled an
“antitrust injury” resulting from Contributor Panel

83a
banks’ manipulation of USD-LIBOR.4 The MDL consists of “private lawsuits by persons who allegedly suffered harm as a result of the suppression of LIBOR.”
In re LIBOR-Based Fin. Instruments Antitrust Litig.,
935 F. Supp. 2d at 676. Plaintiffs in the MDL fall into
four categories: (1) plaintiffs who “purchased in the
United States, directly from a [d]efendant, a financial
instrument that paid interest indexed to LIBOR . . .
[and allegedly] received lower payments from defendants [due to the suppression of LIBOR]”; (2) “[plaintiffs] who owned . . . U.S. dollar-denominated debt securit[ies] . . . on which interest was payable . . . at a
rate expressly linked to the U.S. Dollar Libor rate . . .
[and allegedly] ‘receiv[ed] manipulated and artificially
4

As discussed at length below, the district court in In re
LIBOR-Based Fin. Instruments Antitrust Litig. dismissed plaintiffs’ antitrust claim on the ground that they had not pled an antitrust injury. On reconsideration, the district court denied plaintiffs leave to amend, finding that any amendment would be futile.
962 F. Supp. 2d 606. Plaintiffs appealed, but the Second Circuit
“determined sua sponte that it lack[ed] jurisdiction over [plaintiffs’] appeal because a final order ha[d] not been issued by the
district court . . . and the orders appealed from did not dispose of
all the claims in the consolidated action.” In re LIBOR-Based Fin.
Instruments Antitrust Litig., 2013 WL 9557843, at *1. The Supreme Court granted certiorari on the jurisdiction question and
reversed in Gelboim v. Bank of Am. Corp. See Gelboim, 135 S.Ct.
at 906. The Supreme Court held that the plaintiffs whose antitrust claims were dismissed without leave to amend are entitled
to an immediate appeal of the district court’s decision, despite the
continued pendency of certain other claims in the MDL. See id. at
905-06 (“The District Court’s order dismissing the . . . complaint
for lack of antitrust injury, without leave to amend, had the hallmarks of a final decision.”). Accordingly, the Court “reverse[d] the
judgment of the . . . Second Circuit deeming the District Court’s
dismissal of the . . . complaint unripe for appellate review, and
. . . remand[ed] the case for further proceedings[.]” Id. at 906.

84a
depressed amounts of interest’ [due to the suppression
of LIBOR]”; (3) plaintiffs who purchased Eurodollar
contracts at “supracompetitive prices” because “defendants’ suppression of LIBOR caused Eurodollar
contracts to trade and settle at artificially high prices”;
and (4) plaintiffs who held or purchased LIBOR-based
financial instruments that paid a rate of return “directly based on LIBOR,” or who purchased fixed-rate
based instruments that they “decided to purchase by
comparing the instruments’ fixed rate of return with
LIBOR. . . .” See id. at 681-84.
In the MDL, “plaintiffs . . . alleged that defendants violated the Sherman Act through a horizontal
price-fixing conspiracy . . . . which [was] . . . unlawful
. . . [in] its effect of restraining competition.” Id. at 686
n.7. In particular, plaintiffs claimed that “defendants
violated the antitrust laws by conspiring to set LIBOR
at an artificial level.” Id. at 688.
As to antitrust injury, plaintiffs alleged that
Defendants’ anticompetitive conduct had severe adverse consequences on competition in
that [plaintiffs] who traded in LIBOR-Based
[financial instruments] during the Class Period were trading at artificially determined
prices that were made artificial as a result of
Defendants’ unlawful conduct. As a consequence thereof, [plaintiffs] suffered financial
losses and were, therefore, injured in their
business or property.
Id. at 688 (alterations in original) (citation and quotation marks omitted).
After conducting an exhaustive analysis of the
facts concerning LIBOR-setting and the case law

85a
surrounding antitrust injury, Judge Buchwald concluded in a March 29, 2013 opinion that “plaintiffs’ allegations d[id] not make out a plausible argument that
they suffered an antitrust injury . . . .” Id. at 695.
“Plaintiffs, therefore, d[id] not have standing to bring
claims pursuant to the Clayton Act.” Id. “Accordingly,
plaintiffs’ antitrust claims [were] dismissed.” Id.
In reaching this conclusion, Judge Buchwald
found that
[a]lthough [plaintiffs’] allegations might suggest that defendants fixed prices and thereby
harmed plaintiffs, they do not suggest that
the harm plaintiffs suffered resulted from any
anticompetitive aspect of defendants’ conduct. As plaintiffs rightly acknowledged at
oral argument, the process of setting LIBOR
was never intended to be competitive. Rather,
it was a cooperative endeavor wherein otherwise-competing banks agreed to submit estimates of their borrowing costs to the BBA
each day to facilitate the BBA’s calculation of
an interest rate index. Thus, even if we were
to credit plaintiffs’ allegations that defendants subverted this cooperative process by
conspiring to submit artificial estimates instead of estimates made in good faith, it
would not follow that plaintiffs have suffered
antitrust injury. Plaintiffs’ injury would have
resulted from defendants’ misrepresentation,
not from harm to competition.
Id. at 688 (emphasis added) (internal citations omitted).

86a
In addition to finding that the LIBOR-setting process was a cooperative and not a competitive exercise,
Judge Buchwald concluded that the LIBOR manipulation that Defendants allegedly engaged in was not
anti-competitive in its effects:
[W]ith regard to the market for LIBOR-based
financial instruments, plaintiffs have not alleged that defendants’ alleged fixing of
LIBOR caused any harm to competition between sellers of those instruments or between
buyers of those instruments. Plaintiffs’ allegation that the prices of LIBOR-based financial instruments “were affected by Defendants’ unlawful behavior,” such that “Plaintiffs
paid more or received less than they would
have in a market free from Defendants’ collusion,” might support an allegation of price fixing but does not indicate that plaintiffs’ injury
resulted from an anticompetitive aspect of defendants’ conduct. In other words, it is not
sufficient that plaintiffs paid higher prices because of defendants’ collusion; that collusion
must have been anticompetitive, involving a
failure of defendants to compete where they
otherwise would have. Yet here, undoubtedly
as distinguished from most antitrust scenarios, the alleged collusion occurred in an arena
in which defendants never did and never were
intended to compete.
...
[T]here was similarly no harm to competition
in the interbank loan market. As discussed
above, LIBOR is an index intended to convey
information about the interest rates pre-

87a
vailing in the London interbank loan market,
but it does not necessarily correspond to the
interest rate charged for any actual interbank
loan. Plaintiffs have not alleged that defendants fixed prices or otherwise restrained competition in the interbank loan market, and
likewise have not alleged that any such restraint on competition caused them injury.
Plaintiff’s theory is that defendants competed
normally in the interbank loan market and
then agreed to lie about the interest rates
they were paying in that market when they
were called upon to truthfully report their expected borrowing costs to the BBA. This theory is one of misrepresentation, and possibly
of fraud, but not of failure to compete.
Id. at 688-89 (footnote and citation omitted).5
In the absence of a “loss stem[ming] from a competition-reducing aspect or effect of the defendant[s’] behavior,” Atl. Richfield, 495 U.S. at 344 (emphasis omitted), Judge Buchwald concluded that plaintiffs “d[id]
not make out a plausible argument that they suffered
an antitrust injury.” In re LIBOR-Based Fin. Instruments Antitrust Litig., 935 F. Supp. 2d at 695. Accordingly, she dismissed Plaintiffs’ antitrust claims. Id.
At least one other court in this District has likewise concluded in a LIBOR-fixing case that plaintiff
had failed to plausibly allege antitrust injury. In
5

Contrary to Plaintiff’s contention, Judge Buchwald did not
“rel[y] exclusively on Defendants’ conduct and not on the effects
thereof . . . .” (Pltf. Br. (Dkt. No. 119) at 33 n.19) Judge Buchwald
considered the effects of Defendants’ conduct on the relevant markets.

88a
Laydon v. Mizuho Bank, Ltd., No. 12 Civ. 3419 (GBD),
2014 WL 1280464, at *8 (S.D.N.Y. Mar. 28, 2014), the
plaintiff alleged “that he initiated short positions in
CME Euroyen TIBOR futures contracts during the
Class Period and suffered net losses on such contracts
due to the presence of artificial Euroyen TIBOR futures prices proximately caused by Defendants’ unlawful manipulation and restraint of trade.” Id. (internal citations and quotation marks omitted). Judge
Daniels ruled that “[p]laintiff fail[ed] to plead an antitrust injury,” because he “fail[ed] to plead facts sufficient to establish that this [conduct] ‘is or might be anticompetitive.’” Id. (quoting Gatt Commc’ns, Inc., 711
F.3d at 76). “At most, Plaintiff allege[d] that prices
were distorted.” Id. Judge Daniels found, however,
that “the setting of the USD LIBOR benchmark rate is
not competitive; rather it is a cooperative effort
wherein otherwise competing banks agreed to submit
estimates of their borrowing costs to facilitate calculation of an interest rate index.” Id. Accordingly, the
plaintiff’s antitrust claim was dismissed. Id. at *10.
C. Analysis
Although Plaintiff claims that “the decision in the
LIBOR MDL has no bearing on the instant case” (Pltf.
Br. (Dkt. No. 119) at 32), the theory of antitrust injury
in the MDL and in the instant case is essentially the
same. In both actions, plaintiffs claim that defendants
manipulated USD-LIBOR in such a way as to cause
plaintiffs to suffer financial losses. The allegations regarding the manner in which defendants allegedly manipulated LIBOR—through the submission of artificial rates from Contributor Panel banks to the BBA—
are the same in both actions. Compare In re LIBORBased Fin. Instruments Antitrust Litig., 935 F. Supp.

89a
2d at 678-81, with (Am. Cmplt. (Dkt. No. 95) ¶¶ 5-9,
39, 50-137).
Plaintiff attempts to dodge the effect of Judge
Buchwald’s reasoning and determinations by alleging
in the Amended Complaint that the LIBOR-setting
process is competitive. See, e.g., Am. Cmplt. (Dkt. No.
95) ¶¶ 39, 44, 38, 39. Plaintiff asserts that the “[MDL]
plaintiffs neglected to allege that the LIBOR setting
process was competitive, and in fact conceded that it
was not during oral argument.” (Pltf. Br. (Dkt. No.
119) at 24) Plaintiff argues that—by contrast—it has
“specifically allege[d] that LIBOR is a competitivelyset rate, [and] that Defendants participate in a daily
contest in the marketplace, and [Plaintiff] devotes entire sections of the [Amended Complaint] to explaining
the competitive nature of the industry.” (Id.)
In the Amended Complaint, Plaintiff alleges that
Defendants “set LIBOR in a process that produces
competitively determined daily USD-LIBOR rates and
establishes a daily contest between the Defendants to,
among other things, signal their relative strength in
terms of prestige, credit risk, access to funding, and
liquidity.” (Am. Cmplt. (Dkt. No. 95) ¶ 39) In support
of its claim, Plaintiff alleges that (1) contributor banks
are required under BBA rules to independently exercise their own good faith judgment in determining
their individual submissions, which reflect their daily
competitive postures; (2) banks are further required
under BBA rules to keep their submissions confidential before the BBA publishes the daily rate; and
(3) the BBA—through Thomson Reuters—publishes
the individual banks’ daily submissions in announcing
USD-LIBOR. (Id. ¶¶ 45-48) Plaintiff claims that
“[t]he[s]e three key [aspects of the LIBOR-setting

90a
process] were designed to ensure that LIBOR would be
based on day-to-day competition in the interbank
funding markets and elsewhere. . . . LIBOR could not
reflect and move day-to-day based on actual competitive conditions if it was not based upon independent,
good faith submissions of the individual panel banks.”
(Id. ¶ 48)
Judge Buchwald correctly rejected this theory of
antitrust injury and portrait of the LIBOR-setting process as entirely implausible, however, when plaintiffs
in the MDL action moved for leave to amend their antitrust claims after dismissal. See In re LIBOR-Based
Fin. Instruments Antitrust Litig., 962 F. Supp. 2d at
627. In denying leave to amend, Judge Buchwald
noted that “Plaintiffs’ allegations [in their proposed
second amended complaints] include new ways of
packaging previously known facts, such as arguing
that the LIBOR-setting rules themselves give rise to
competition, and new theories for how defendants
compete, such as that they compete over their creditworthiness, that they compete to offer customers the
best interest rate benchmark on financial instruments, or that they compete by ‘keeping other banks
honest’ and reporting any improper conduct by them.”
Id. Judge Buchwald concluded, however, that plaintiffs’ new allegations were not plausible and therefore
did not sufficiently allege antitrust injury:
[R]egardless of the creativity they display,
none of plaintiffs’ allegations make plausible
that there was an arena in which competition
occurred, that defendants’ conduct harmed
such competition, and that plaintiffs suffered
injury as a result. Even where plaintiffs have
identified a market in which defendants are,

91a
in fact, competitors, they have not plausibly
alleged that each defendant failed to act in its
independent individual self-interest. In other
words, even if we grant that plaintiffs have
alleged a vertical effect—that they suffered
harm as a result of defendants’ conduct—they
have not plausibly alleged a horizontal effect—that the process of competition was
harmed because defendants failed to compete
with each other or otherwise interacted in a
manner outside the bounds of legitimate competition.
Id. at 627-28.
Similarly here, Plaintiffs allegations that the
LIBOR-setting process is “competitive” are not plausible on their face. Indeed, it is obvious that the LIBORsetting process is a cooperative and not a competitive
exercise. See Laydon, 2014 WL 1280464, at *8 (“the
setting of the USD LIBOR benchmark rate is not competitive; rather it is a cooperative effort wherein otherwise competing banks agreed to submit estimates of
their borrowing costs to facilitate calculation of an interest rate index”). Under the BBA rules, each bank
was required to use its own “good faith judgment about
the interest rate that [the bank] would be required to
pay”—not to submit rates that were competitive with
those submitted by other banks. (Am. Cmplt. (Dkt. No.
95) ¶ 45) Moreover, as the Amended Complaint
acknowledges, “a Contributor Panel bank’s LIBOR
submissions [were] not [to] be influenced by its motive
to maximize profit or minimize losses in derivatives
transactions tied to LIBOR.” (Id. ¶ 44 (citation and
quotation marks omitted)) This allegation supports
the notion that, in setting LIBOR, the banks were not

92a
competing with one another, but instead were participating in a collective exercise aimed at generating an
objective, “good faith” benchmark, based on which
there would be competition. The fact that the benchmark set as a result of the LIBOR-setting process
would be a basis for competition does not mean that
the cooperative process of collecting submissions used
to set LIBOR was a competitive exercise. It was not.
Plaintiff argues, however, that “several other aspects of the LIBOR setting process . . . demonstrate
that LIBOR setting is a competitive process,” including that (1) Thomson Reuters—an agency independent
of the BBA—collects, calculates, and publishes the
daily LIBOR; (2) any bank that trades in the London
market can apply to be on a Contributor Panel; and (3)
the interquartile averaging method prevents individual or small groups of banks from influencing LIBOR
with false submissions. (Id. ¶ 49)
None of these allegations have anything to do with
the issue of whether the submission process is competitive. The fact that an outside agency performs the
ministerial tasks of collecting, calculating, and publishing the rates says nothing about whether the process is competitive. Likewise, the fact that other banks
can apply to join a Contributor Panel does not demonstrate that rates were being competitively submitted.
Similarly, the use of the interquartile averaging
method suggests a collaborative process, rather than a
competitive one. To the extent banks submitted particularly “competitive” rates, those rates would be
eliminated as outliers under the interquartile methodology. The process of averaging the eight rates that
were closest in value suggests an effort to arrive at an

93a
appropriate rate through collaboration and consensus,
and not through competition.
The Amended Complaint’s allegations that (1) Defendants are “horizontal competitors across a wide
range of financing activities” (id. ¶ 36); (2) “LIBORdenominated interest rates [are used] as a threshold
or beginning point for competition among themselves
in the market for loans to their customers and others”
(id. ¶ 52); and (3) “LIBOR is also instrumental in establishing market prices for many types of interestbearing debt securities, including financial instruments that are not specifically LIBOR-denominated”
(id. ¶ 53), add nothing to the analysis. The fact that
Defendants compete in the financial markets, and that
LIBOR may be the starting point for much of that competition, does not demonstrate that the process of setting LIBOR is a competitive exercise. See In re LIBORBased Fin. Instruments Antitrust Litig., 935 F. Supp.
2d at 688 (“It is of no avail to plaintiffs that defendants
were competitors outside the BBA.”). Moreover, nothing in the Amended Complaint suggests that—as a result of the manipulation of LIBOR—Defendants
ceased to compete with one another in the financial
markets.
To the extent that Plaintiff argues that the
LIBOR-setting process is competitive because it is “designed to ensure that LIBOR would be based on competition in the interbank funding markets” (Am.
Cmplt. (Dkt. No. 95) ¶ 48), that argument is also without merit. Plaintiff’s allegations do not demonstrate
that manipulation of LIBOR had any effect on competition in those markets. As Judge Buchwald stated,
“[i]f LIBOR no longer painted an accurate picture of
the interbank lending market, the injury plaintiffs

94a
suffered derived from misrepresentation, not from
harm to competition.” In re LIBOR-Based Fin. Instruments Antitrust Litig., 935 F. Supp. 2d at 692.6
Because Plaintiff has not plausibly alleged an antitrust injury, Defendants’ motion to dismiss Plaintiff’s antitrust claim will be granted.7

6

Plaintiff argues that this case “is similar to many others attacking index or benchmark price manipulation.” (Pltf. Br. (Dkt.
No. 119) at 29) Many of the cases that Plaintiff cites (see id. at 29
n.17) are addressed in Judge Buchwald’s decision. In a thorough
analysis, she distinguishes the harm in those cases from the type
of injury resulting from the manipulation of LIBOR. See In re
LIBOR-Based Fin. Instruments Antitrust Litig., 935 F. Supp. 2d
at 688, 694 & n.9, 694-95. The Court finds Judge Buchwald’s
analysis persuasive and adopts her conclusions here.
7
In a February 20, 2015 letter (Dkt. No. 168), Plaintiff directs
this Court’s attention to two recent cases: Gelboim, 135 S.Ct. 897,
and In re Foreign Exch. Benchmark Rates Antitrust Litig., Nos.
13 Civ. 7789 (LGS), 13 Civ. 7953 (LGS), 14 Civ. 1364 (LGS), 2015
WL 363894 (S.D.N.Y. Jan. 28, 2015) (“FOREX” ). As noted above,
in Gelboim the Supreme Court held that the plaintiffs whose antitrust claims were dismissed in the LIBOR MDL are entitled to
immediately appeal Judge Buchwald’s decision. See Gelboim, 135
S. Ct. at 905-06. Nothing in Gelboim casts doubt on Judge Buchwald’s reasoning and conclusions. In FOREX, which involves allegations of collusion in fixing a foreign exchange benchmark, the
court distinguished Judge Buchwald’s determination that the
LIBOR-setting process is cooperative and not competitive:

LIBOR [MDL]’s conclusion that the plaintiffs in that case
had not demonstrated antitrust injury was explicitly based
on that court’s understanding that the LIBOR-setting process was a “cooperative endeavor wherein otherwise-competing banks agreed to submit estimates of their borrowing
costs . . . to facilitate the . . . calculation of an interest rate
index.” The Fix[—the process of setting the foreign exchange
benchmark at issue in FOREX—] by contrast, is set by

95a
IV. RICO CLAIMS
Plaintiff also asserts RICO claims, under 18
U.S.C. §§ 1962(c) and (d). (Am. Cmplt. (Dkt. No. 95)
¶¶ 181-82) Plaintiff alleges that “Defendants’ collective association, including through their participation
together as members of the BBA’s USD-LIBOR panel,
constitutes a RICO enterprise-in-fact,” and that
“[e]very member of the enterprise participated in the
process of misrepresenting its costs of borrowing to the
BBA.” (Id. ¶ 192)
Defendants have moved to dismiss Plaintiff’s
RICO claims, arguing that (1) the claims are timebarred; (2) Plaintiff seek an improper extraterritorial
application of RICO; (3) Plaintiff has not alleged a sufficiently direct relationship between the claim and
Solow’s injury; (4) Plaintiff has not adequately plead
predicate acts of racketeering; (5) the Amended Complaint fails to state a RICO conspiracy claim; (6) Plaintiff’s claims are barred by res judicata; and (7) Plaintiff
lacks standing to assert claims on Solow’s behalf. See
Def. Br. (Dkt. No. 115) at 13-58; Def. Br. (Dkt. No.
117). As discussed below, this Court concludes that

actual transactions in a market where Defendants are supposed to be perpetually competing by offering independently
determined bid-ask spreads.
FOREX, 2015 WL 363894, at *11 (quoting In re LIBOR-Based
Fin. Instruments Antitrust Litig., 935 F. Supp. 2d at 688). The
FOREX court found that because the process for setting the foreign exchange “Fix” involved actual market transactions, it differed from the cooperative LIBOR-setting process in a crucial
way. This conclusion, if anything, supports Judge Buchwald’s
reasoning.

96a
Plaintiff’s RICO claims are barred by the statute of
limitations and by res judicata, and does not reach Defendants’ remaining arguments.
A. Plaintiff’s RICO Claims are Time-Barred8
“RICO claims are subject to a four-year statute of
limitations.” Koch v. Christie’s Int’l PLC, 699 F.3d 141,
148 (2d Cir. 2012) (citations omitted). “‘Federal courts
. . . generally apply a discovery accrual rule when a
statute is silent on the issue, as civil RICO is . . . .’” Id.
(quoting Rotella v. Wood, 528 U.S. 549, 555 (2000)).
Accordingly, “a RICO claim accrues upon the discovery
of the injury alone.” Id. at 150.
“Under Second Circuit precedent, courts apply an
‘inquiry notice’ analysis to determine when a plaintiff
has discovered his injury[.]” In re LIBOR-Based Fin.
Instruments Antitrust Litig., 935 F. Supp. 2d at 698.
“Inquiry notice—often called ‘storm warnings’
in the securities context—gives rise to a duty
of inquiry ‘when the circumstances would
suggest to an investor of ordinary intelligence
8

In deciding a motion to dismiss on statute of limitations
grounds, “[a] [d]istrict [c]ourt [may] t[ake] judicial notice of . . .
media reports, state court complaints, and regulatory filings” as
long as “[t]he court d[oes] ‘not take judicial notice of the documents for the truth of the matters asserted in them, but rather to
establish that the matters [had] been publicly asserted.’” Staehr
v. Hartford Fin. Servs. Grp., Inc., 547 F.3d 406, 424 (2d Cir. 2008)
(quoting Staehr v. Hartford Fin. Servs. Grp., Inc., 460 F. Supp. 2d
329, 335 (D. Conn. 2006) vacated and remanded, 547 F.3d 406 (2d
Cir. 2008)); see id. at 425 (“[I]t is proper to take judicial notice of
the fact that press coverage, prior lawsuits, or regulatory filings
contained certain information, without regard to the truth of
their contents, in deciding whether so-called ‘storm warnings’
were adequate to trigger inquiry notice . . . .”).

97a
the probability that she has been defrauded.’
In such circumstances, the imputation of
knowledge will be timed in one of two ways:
(i) ‘[i]f the investor makes no inquiry once the
duty arises, knowledge will be imputed as of
the date the duty arose’; and (ii) if some inquiry is made, ‘we will impute knowledge of
what an investor in the exercise of reasonable
diligence[] should have discovered concerning
the fraud, and in such cases the limitations
period begins to run from the date such inquiry should have revealed the fraud.’”
Id. (quoting Koch, 699 F.3d at 151 (quoting Lentell v.
Merrill Lynch & Co., 396 F.3d 161, 168 (2d Cir.
2005))).
Here, Plaintiff alleges that it was Defendants’ manipulations of LIBOR that caused Solow’s injury. (Am.
Cmplt. (Dkt. No. 95) ¶ 163 (“The purported impairment of [Solow’s] bond portfolio, seizure of the portfolio
and cash, the low prices realized in the collateral sale
and inflated LIBOR-denominated contract and ‘default’ interest rates and imposition of fees and expenses were the result of Defendants’ collective manipulations of LIBOR. . . .”) As Plaintiff recognizes,
however, a May 29, 2008 Wall Street Journal article
“detailed” the “divergence between [credit-default
spreads (‘CDS’)] and LIBOR.” (Id. ¶ 131; see id.
¶¶ 135-36; Shioleno Decl. (Dkt. No. 116) Ex. A) The article-Carrick Mollenkamp & Mark Whitehouse, Study
Casts Doubt on Key Rate—WSJ Analysis Suggests
Banks May Have Reported Flawed Interest Data for Libor, Wall. St. J., May 29, 2008, at A1—states that

98a
Major banks are contributing to the erratic
behavior of a crucial global lending benchmark, a Wall Street Journal analysis shows.
The Journal analysis indicates that Citigroup
Inc., WestLB, HBOS PLC, J.P. Morgan Chase
& Co. and UBS AG are among the banks that
have been reporting significantly lower borrowing costs for the London interbank offered
rate, or Libor, than what another market
measure suggests they should be. Those five
banks are members of a 16-bank panel that
reports rates used to calculate Libor in dollars.
That has led Libor, which is supposed to reflect the average rate at which banks lend to
each other, to act as if the banking system
was doing better than it was at critical junctures in the financial crisis. The reliability of
Libor is crucial to consumers and businesses
around the world, because the benchmark is
used by lenders to set interest rates on everything from home mortgages to corporate
loans.
(Shioleno Decl. (Dkt. No. 116), Ex. A)
Given this article, by at least May 29, 2008, Plaintiff was on inquiry notice of the fact that LIBOR rates
may have been manipulated. See In re LIBOR-Based
Fin. Instruments Antitrust Litig., 935 F. Supp. 2d at
708, 710 (“Here, not only were LIBOR and each bank’s
LIBOR submission publicly available on a daily basis,
but benchmarks of general interest rates and each
bank’s financial health were also publicly available
. . . . [T]he Wall Street Journal analysis [by

99a
Mollenkamp and Whitehouse] compared the LIBOR
fixes and quotes to these benchmarks to conclude that
LIBOR was likely artificial. In other words, by May 29,
2008, plaintiffs’ investigative work had already been
done for them and had been published in the pages of
the Wall Street Journal. . . . [P]laintiff’s were on inquiry notice of their injury by May 29, 2008 . . . .”); see
also BPP Ill, LLC v. Royal Bank of Scot. Grp., PLC,
No. 13 Civ. 0638 (JMF), 2013 WL 6003701, at *8
(S.D.N.Y. Nov. 13, 2013) (“By May 29, 2008, . . . there
were at least seven articles in major publications [including the May 29, 2008 Wall Street Journal article]
reporting that there was substantial evidence to support the conclusion that LIBOR was artificially low
and had been so for some time. Those articles were sufficient ‘storm warnings’ to ‘awaken inquiry’ into the
possibility that U.S. Dollar LIBOR was not, as Defendants allegedly represented to the BPP Plaintiffs to induce them into the swap agreement, ‘a legitimate and
reliable market-based interest rate.’”).
Plaintiff alleges no facts suggesting that Solow
undertook an inquiry into the cause of his injury—the
Defendants’ alleged LIBOR manipulation—over the
next four years. Accordingly, Solow “[is] deemed to
have knowledge of [his] injury at the point at which
the duty to inquire arose, and the period of limitations
starts to run on that date.” In re LIBOR-Based Fin.
Instruments Antitrust Litig., 935 F. Supp. 2d at 698.
Plaintiff argues, however, that the statute of limitations should be tolled, because Defendants subsequently provided reassurances that LIBOR was not
being manipulated, and because they fraudulently
concealed their manipulation of LIBOR. (Pltf. Br.
(Dkt. No. 119) at 20-28) Because (1) the LIBOR

100a
manipulation scheme had been made public, and (2)
Defendants’ “reassurances” that no manipulation had
occurred would have been entirely self-serving, Plaintiff’s tolling argument fails. See In re LIBOR-Based
Fin. Instruments Antitrust Litig., 935 F. Supp. 2d at
710-11 (“Here, plaintiffs have not adequately alleged
fraudulent concealment. For one, they did not ‘remain[] unaware of [defendants’] violation during the
limitations period,’ as they were on notice no later
than May 29, 2008, that they had likely been injured.
Moreover, because of this, they could not have reasonably relied on defendants’ and the BBA’s reassurances
that LIBOR was accurate. For the same reason, defendants’ alleged manipulation [of LIBOR] was not
self-concealing. . . . Here, . . . Thomson Reuters published daily both the final LIBOR fix and the quotes
from each of the panel banks. A person of ordinary intelligence could have reviewed the submitted quotes
along with numerous articles analyzing these quotes
and explaining why they were likely artificial. Under
these circumstances, plaintiffs have not adequately alleged fraudulent concealment.”); see also BPP Ill.,
LLC, 2013 WL 6003701, at *8-9 (“Plaintiffs’ arguments [regarding the statute of limitations] . . . are unpersuasive. First, Plaintiffs point to the fact that the
BBA itself defended the integrity of LIBOR in some of
the very articles highlighting LIBOR’s potential unreliability. Affirmative public denials of wrongdoing can,
in some circumstances, weigh against a finding of inquiry notice. But a plaintiff may rely on such reassuring representations only if it is reasonable to do so.
Here, given the BBA’s ‘strong incentive to maintain
market confidence in LIBOR’s integrity,’ and the fact
that its public denials flew in the face of the data marshaled by the newspaper articles discussed above, a

101a
reasonable person would have at least inquired further before accepting the BBA’s representations. . . .
Plaintiffs’ fraudulent concealment argument . . . fails
for the same reason that they cannot rely on the discovery rule: However reasonable it may have been to
rely on Defendants’ statements about the reliability of
LIBOR in early 2008, it was no longer reasonable to do
so by late May 2008 in the face of substantial reports
to the contrary.”) (internal citations omitted).
Because Solow was on inquiry notice as of May 29,
2008, and no inquiry was pursued, RICO claims had
to be brought by May 29, 2012. Plaintiff’s RICO claims
were not filed until February 13, 2013, however.
(Cmplt. (Dkt. No. 1)) Accordingly, those claims are
time-barred.
B. Plaintiff’s RICO Claims Are Also Barred
By Res Judicata
Even if Plaintiff’s RICO claims were not barred by
the statute of limitations, they would be barred by res
judicata, given the judgment in the state court action
brought by Citibank against Solow.9 (Def. Br. (Dkt. No.
117) at 8-18)
9

Defendants argue that “[r]es judicata applies to all of [Plaintiff’s] claims, including [its] Sherman Act claim . . . .” See Def. Reply Br. (Dkt. No. 121) at 2. Defendants assert that res judicata
bars Plaintiff’s antitrust claim because Plaintiff was required to
raise LIBOR manipulation as a defense in the state court action.
(Id. at 2-4) Plaintiff argues, however, that federal courts have exclusive jurisdiction over Sherman Act claims, and that accordingly res judicata does not bar Plaintiff’s antitrust claim. (Pltf.
Br. (Dkt. No. 120) at 5) Having concluded that Plaintiff’s antitrust claim must be dismissed for failure to allege an antitrust
injury, this Court does not reach the question of whether Plaintiff’s antitrust claim is barred by res judicata.

102a
The doctrine of res judicata provides that
“a valid, final judgment, rendered on the merits, constitutes an absolute bar to a subsequent action between the same parties, or
those in privity with them, upon the same
claim or demand. It operates to bind the parties both as to issues actually litigated and determined in the first suit, and as to those
grounds or issues which might have been, but
were not, actually raised and decided in that
action. The first judgment, when final and on
the merits, thus puts an end to the whole
cause of action.”
Epperson v. Entm’t Express, Inc., 242 F.3d 100, 108-09
(2d Cir. 2001) (quoting Saylor v. Lindsley, 391 F.2d
965, 968 (2d Cir. 1968) (citations omitted)).10 “The policies underlying res judicata reflect the sensible goal
that where possible all related claims be resolved in
one proceeding . . . .” (Id. at 109).
“Whether a claim is precluded depends on
“‘whether the same transaction or connected series of
transactions is at issue, whether the same evidence is
needed to support both claims, and whether the facts
essential to the second were present in the first.”’”
Blue Ridge Invs., LLC v. Republic of Arg., 902 F. Supp.
2d 367, 382 (S.D.N.Y. 2012) (quoting Woods v. Dunlop
Tire Corp., 972 F.2d 36, 38 (2d Cir. 1992) (quoting
N.L.R.B. v. United Techs. Corp., 706 F.2d 1254, 1260
10

“A court may consider a res judicata defense on a Rule
12(b)(6) motion to dismiss when the court’s inquiry is limited to
the plaintiff’s complaint, documents attached or incorporated
therein, and materials appropriate for judicial notice.” TechnoMarine SA v. Giftports, Inc., 758 F.3d 493, 498 (2d Cir. 2014).

103a
(2d Cir. 1983))); see TechnoMarine SA, 758 F .3d at 499
(“Whether a claim that was not raised in the previous
action could have been raised therein depends in part
on whether the same transaction or connected series
of transactions is at issue, whether the same evidence
is needed to support both claims, and whether the
facts essential to the second were present in the first.”
(internal quotation marks omitted)). “[W]hatever legal
theory is advanced, when the factual predicate upon
which claims are based are substantially identical, the
claims are deemed to be duplicative for purposes of res
judicata.” Berlitz Schs. of Languages of Am., Inc. v. Everest House, 619 F.2d 211, 215 (2d Cir. 1980).
1.

Final Judgment on the Merits

Here, there is no question that there has been a
final judgment on the merits. On March 24, 2011, Citibank obtained a judgment against Solow in New York
Supreme Court requiring him to pay more than $100
million in damages to Citibank. (Am. Cmplt. (Dkt. No.
95) ¶ 162; Ruffino Decl. (Dkt. No. 118), Ex. D) The
judgment was affirmed by the First Department on
February 23, 2012. See Citibank, N.A. v. Solow, 92
A.D.3d 569, 570 (1st Dep’t), leave to appeal denied, 19
N.Y.3d 807 (2012). Solow paid the judgment in full on
May 23, 2012. (Am. Cmplt. (Dkt. No. 95) ¶¶ 162-63)
2.

Same Transaction or Occurrence

The prior proceeding also arose out of the same
transactions and occurrences alleged here. In that proceeding, Citibank claimed that
[t]h[e] case [arose] out of Solow’s failure to repay in full loans from Citibank and to provide
cash collateral for letters of credit issued by
Citibank. The loans were made and the

104a
letters of credit were issued or continued in
existence under two lines of credit (one for
$490,000,000 and one for $13,000,000) and
were secured by securities in custodial accounts held by Citibank. Citibank has liquidated its collateral and has set off against
cash on deposit in Solow’s accounts at Citibank, all as allowed under the governing documents and applicable law. The $13,000,000
line of credit has now been repaid, but more
than $67,000,000 in loans and over
$18,500,000 in letters of credit remain outstanding under the $490,000,000 line of
credit.
…
Citibank determined that, as of September
23, 2008, the market value of the Pledged Collateral had fallen below $463,000,000 for five
consecutive business days.
[] By letter dated September 24, 2008, Citibank provided notice of a Margin Call to
Solow demanding that Solow deposit within
two business days collateral acceptable to
Citibank with a market value of not less than
$11,319,494. . . .
[] By letter dated September 26, 2008, Citibank informed Solow that the market value of
additional Pledged Collateral required to satisfy the Margin Call had increased to
$13,561,794 and stated that if Solow did not
furnish by the close of business on September
26, 2008 additional Pledged Collateral in an
amount sufficient to cause the market value

105a
of all Pledged Collateral in Citibank’s possession to equal or exceed $463,000,000, Citibank might begin to sell any or all of the
Pledged Collateral.
[] By letter dated September 30, 2008, Citibank demanded the immediate payment of all
amounts outstanding under the $13,000,000
Note and stated that Solow’s obligations
thereunder that were not paid by October 2,
2008 would bear interest at the overdue rate
set forth in the $13,000,000 Note. Citibank informed Solow that it might begin to sell any
or all of the Pledged Collateral at any time to
satisfy Solow’s obligations under the
$13,000,000 Note.
[] By a second letter dated September 30,
2008, Citibank demanded the immediate payment of all amounts outstanding under the
$490,000,000 Note and indicated that Solow’s
obligations thereunder that were not paid by
September 30, 2008 would bear interest at
the overdue rate set forth in the $490,000,000
Note. Citibank informed Solow that it might
begin to sell any or all of the Pledged Collateral at any time to satisfy Solow’s obligations
under the $490,000,000 Note.
[] Between October 7 and November 3, 2008,
Citibank sold all saleable assets from the
Pledged Accounts on the open market for a total, net of any commissions and fees, of
$415,120,803.10, and applied this amount to
Solow’s loan obligations.

106a
[] On October 9 and October 13, 2008, interest
in the aggregate amount of $15,261.46 was
earned on account of the Pledged Collateral,
and Citibank applied this amount to Solow’s
loan obligations.
[] On October 6, November 3, and November
13, 2008, Citibank set off a total of
$4,247,786.23 against cash on deposit in accounts maintained by Solow at Citibank. Of
this amount, Citibank applied $2,099,802.93
to Solow’s outstanding principal loan obligations and $2,147,983.30 to Solow’s accrued interest obligations.
[] Following these applications, the
$13,000,000 Note was paid in full and the outstanding principal balance due under the
$490,000,000
Note
was
reduced
to
$67,094,168.56 (the “Loan Shortfall”).
[] By letter to Solow dated November 18,
2008, Citibank demanded immediate payment of the Loan Shortfall and all other obligations due under the 2008 Loan Documents.
With respect to the Letters of Credit, Citibank
demanded, without limitation, that Solow deposit cash collateral in the amount of
$18,582,168.49 to secure his reimbursement
obligations under the Letters of Credit, replace the Letters of Credit with letters of
credit from another financial institution, or
cause the Letters of Credit to be cancelled
with the consent of the beneficiaries.
[] To date, Solow has failed to pay the Loan
Shortfall and his other obligations and has

107a
failed to collateralize, replace, or cause to be
cancelled the outstanding Letters of Credit.
(Ruffino Decl. (Dkt. No. 118) Ex. L (“Cmplt.”) ¶¶ 6, 4858)
This same series of “transactions and occurrences”
gives rise to Plaintiff’s claims here. See Am. Cmplt.
(Dkt. No. 95) ¶¶ 9, 147-49, 159-60. Moreover, in the
state court action, Solow litigated Citibank’s declaration of default, sale of collateral, and imposition of default interest rates, arguing—inter alia—that the
value of the collateral had been determined in bad
faith. See Citibank, N.A., 92 A.D.3d at 569-70; Aug. 28,
2013 Rufino Decl. (Dkt. No. 118) Ex. A (“Mar. 26, 2010
State Court Decision”) at 6-13; id. Ex. B (“Solow Answer”) ¶¶ 79-87. The state court rejected Solow’s arguments on the merits. (Mar. 26, 2010 State Court Decision (Dkt. No. 118) at 13) Although Plaintiff now asserts a new legal theory—that the declaration of default, low sale price of the collateral, and default interest rates are all related to Citibank’s and the other Defendants’ manipulation of LIBOR—alternate legal
theories are not sufficient to avoid the res judicata effect of a prior judgment. See Berlitz Schs., 619 F.2d at
215.
3.

Same Parties or Their Privies

The next issue is whether this action involves the
same parties or their privies. “[C]ourts of [New York]
have found that the concept of privity ‘requires a flexible analysis of the facts and circumstances of the actual relationship between the party and nonparty in
the prior litigation [.]’” Syncora Guar. Inc. v. J.P. Morgan Sec. LLC, 110 A.D.3d 87, 93 (1st Dep’t 2013) (quoting Evergreen Bank v. Dashnaw, 246 A.D.2d 814, 816

108a
(3d Dep’t 1998)); see also Amalgamated Sugar Co. v.
NL Indus., Inc., 825 F.2d 634, 640 (2d Cir. 1987) (“The
doctrine of privity, which extends the res judicata effect of a prior judgment to nonparties who are in privity with the parties to the first action, is to be applied
with flexibility.”) (citation omitted).
There is no question that Defendant Citibank,
N.A., was a party to the state court action. See Citibank, N.A., 92 A.D.3d at 570. As to Solow, Plaintiff
claims that it is the assignee of Solow’s claims for injuries arising out of Citibank’s declaration of default
on his loans in September 2008. See Am. Cmplt. (Dkt.
No. 95) ¶ 1. Plaintiff is therefore in privity with Solow
for res judicata purposes. See Savini v. Sheriff of Nassau Cnty., 209 F. Supp. 946, 952 (E.D.N.Y. 1962) (“[I]t
is abundantly clear that the defense of res judicata applies against an assignee as it does against his assignor.”) (citations omitted); In re Slocum ex rel. Nathan A. v. Joseph B., 183 A.D.2d 102, 103 (3d Dep’t
1992) (“Under current New York law, privity of a nonparty to a prior litigation with a party to that litigation
[for res judicata purposes] refers to ‘a relationship
with [the] party to the prior litigation such that his
own rights or obligations in the subsequent proceeding
are conditioned in one way or another on, or derivative
of, the rights of the party to the prior litigation.’”) (alteration in In re Slocum) (quoting D’Arata v. New York
Cent. Mut. Fire Ins. Co., 76 N.Y.2d 659, 664 (1990)).
Accordingly, Plaintiff’s RICO claims against Citibank
are barred by res judicata.
The other Defendants were not named in the prior
state court action, but may properly be considered in
privity with Citibank for res judicata purposes. Plaintiff’s theory is that Citibank and its co-defendants

109a
conspired to manipulate LIBOR and, in doing so,
caused Plaintiff’s injuries. With respect to its RICO
claims, Plaintiff alleges that “Defendants, in concert
and with the assistance of brokers and co-conspirators,
made false statements to the BBA for the purpose and
with the effect of manipulating LIBOR to suit their
needs of the moment.” (Am. Cmplt. (Dkt. No. 95)
¶ 193; see also id. ¶ 5 (“This case arises from the collusion to manipulate and manipulation of LIBOR for the
U.S. dollar . . . .”); id. ¶ 6 (“Defendants conspired to,
and did, manipulate USD-LIBOR by falsely reporting
to the BBA the actual interest rates at which the Defendant banks expected they could borrow funds—i.e.,
their true costs of borrowing—on a daily basis. . . . By
acting together and in concert to knowingly falsely report borrowing costs, Defendants colluded to manipulate and manipulated USD-LIBOR . . . .”); id. ¶ 9
(“Notwithstanding the fact that Solow was at all times
current on [his] loans, at a time when Defendants’ collusion and manipulations caused LIBOR to be artificially inflated, Citibank declared Solow’s bond portfolio collateral to be inadequate for having dropped below the required minimum value, declared a technical
default, seized the bond portfolio and sold it off including to itself and on information and belief to other defendants, at prices that were artificially low as a result
of their collusion and manipulation of USD-LIBOR,
and further imposed a LIBOR-denominated ‘default’
interest rate rather than the LIBOR-denominated contract rate.”); id. ¶ 33 (“Various other persons, firms
and corporations, unknown and not named as Defendants, have participated as co-conspirators with Defendants and have performed acts and made statements in furtherance of the conspiracy.”)) Plaintiff further alleges that “[e]ach of the Defendants named

110a
herein acted as the agent or joint-venturer of or for the
other Defendants with respect to the acts, violations
and common course of conduct alleged herein.” (Id.
¶ 34)
Accordingly, “[a]lthough [Citibank’s co-defendants] w[ere] not named . . . in [the prior] suit . . ., the
pleadings are sufficient to support a finding of privity—i.e., the legal conclusion that the relationship between the parties is sufficiently close to warrant claim
preclusion. Courts have held that alleged co-conspirators are ‘in privity’ with one another for res judicata
purposes.” Discon Inc. v. NYNEX Corp., 86 F. Supp. 2d
154, 166 (W.D.N.Y. 2000) (internal citation omitted);
see also In re Teltronics Servs., Inc., 762 F.2d 185, 192
(2d Cir. 1985) (“LM Ericsson TeleComm, Inc., was alleged to be a co-conspirator in the second Southern
District action filed by Teltronics against the Ericsson
defendants, and is entitled to the res judicata effect of
that decision.”); Fonseca v. Columbia Gas Sys., Inc., 37
F. Supp. 2d 214, 228 (W.D.N.Y. 1998) (“I find that a
sufficiently close relationship existed between the alleged coconspirators to preclude plaintiff from proceeding against any of them in this subsequent, separate action.”); Somerville House Mgmt., Ltd. v. Arts &
Entm’t Television Network, 92 Civ. 4705 (LJF), 1993
WL 138736, at *2 (S.D.N.Y. Apr. 28, 1993) (“[N]ewlyadded defendants may assert a res judicata defense as
long as the ‘newly-added defendants have a sufficiently close relationship to the original defendant.’. . .
[A] number of courts have found that alleged coconspirators can be considered ‘in privity’ with one another for res judicata purposes . . . .”) (quoting Official
Publ’ns, Inc. v. Kable News Co., 811 F. Supp. 143, 147
(S.D.N.Y. 1993)) (citations omitted); McLaughlin v.

111a
Bradlee, 599 F. Supp. 839, 847 (D.D.C. 1984) (“The defendants here may defensively assert claim preclusion
against McLaughlin even though none of the prior
suits named all six of them as defendants. . . . [T]he
defendants in the present suit are closely related to
those named in the 1981 complaints[] . . . [and] there
is only one alleged conspiracy.”), aff’d, 803 F.2d 1197
(D.C. Cir. 1986).
“Res judicata operates to preclude claims, rather
than particular configurations of parties; Plaintiff’s
addition of new defendants, in the context of allegations of their involvement in the series of alleged deprivations, does not entitle [it] to revive the previously[decided] claims,” Cameron v. Church, 253 F. Supp. 2d
611, 623 (S.D.N.Y. 2003), or to litigate claims “which
might have been, but were not, actually raised and decided in [the earlier] action.” Epperson, 242 F.3d at 108
(citation and quotation marks omitted); cf. Official
Publ’ns, Inc., 811 F. Supp. at 147 (“The doctrine of res
judicata also bars litigation of the same causes of action against defendants who were known to plaintiff
at the time the first action was filed but were not
named where the newly-added defendants have a sufficiently close relationship to the original defendant. . . . Where the ‘new’ defendants are sufficiently related to one or more of the defendants in the previous
action which arises from the same transaction all defendants may invoke res judicata” ) (citations omitted).
4.

Plaintiff’s RICO Claims Could Have
Been Asserted in the Prior Action

Plaintiff argues, however, that its RICO claims
are not barred by res judicata, because they could not
have been asserted as counterclaims in the state court

112a
action. See Pltf. Br. (Dkt. No. 120) at 8. Plaintiff is mistaken. Solow could have asserted—as counterclaims in
the state court action—the same RICO claims that
Plaintiff asserts here. See Tafflin v. Levitt, 493 U.S.
455, 458, 467 (1990) (“[S]tate courts have concurrent
jurisdiction over civil RICO claims.”). In bringing
RICO counterclaims, Solow could also have joined
Citibank’s co-defendants as parties. See N.Y. C.P.L.R.
§ 3019(a) (“A counterclaim may be any cause of action
in favor of . . . [a] defendant [] . . . against . . . a plaintiff
and other persons alleged to be liable.”). “While New
York does not have a compulsory counterclaim rule, a
party is not free to remain silent in an action in which
he is the defendant and then bring a second action
seeking relief inconsistent with the judgment in the
first action by asserting what is simply a new legal
theory.” Henry Modell & Co. v. Minister, Elders & Deacons of Reformed Protestant Dutch Church of City of
N.Y., 68 N.Y.2d 456, 461 (N.Y. 1986) (internal citation
omitted); Santiago v. Lalani, 256 A.D.2d 397, 399 (2d
Dep’t 1998) (same); Se Dae Yang v. Korea First Bank,
247 A.D.2d 237, 237-38 (1st Dep’t 1998) (same). Because Plaintiff’s RICO claims arise out of the same
transactions and occurrences as those at issue in the
state court action, those claims could have and should
have been pursued in that action. Cf. Bin Saud v.
Bank of N.Y., 734 F. Supp. 628, 633 (S.D.N.Y. 1990),
aff’d sub nom. Saud v. Bank of N.Y., 929 F.2d 916 (2d
Cir. 1991) (“[W]hen a party fails to raise the defense of
fraud in an initial action, a subsequent collateral challenge to an adverse judgment rendered in that initial
action under the guise of a fraud based RICO claim
may be barred by res judicata.”).

113a
Plaintiff also argues that Solow could not have
raised claims related to LIBOR manipulation in the
earlier state court action because he “had no
knowledge of any of the instant claims prior to or even
while the earlier lawsuit was pending.” (Pltf. Br. (Dkt.
No. 120) at 8) “As a general rule, newly discovered evidence does not preclude the application of res judicata,” however. Saud, 929 F.2d at 920 (citing Guerrero
v. Katzen, 774 F.2d 506, 508 (D.C. Cir. 1985)). “Exceptions to this rule exist when the evidence was either
fraudulently concealed or when it could not have been
discovered with due diligence.” Id.
Here—as the Amended Complaint acknowledges,
and as this Court recounted in finding Plaintiff’s RICO
claims time-barred—the Wall Street Journal reported
on May 29, 2008—several years before the state trial
court entered judgment against Solow—that Defendants had been “reporting significantly lower borrowing
costs for the London interbank offered rate, or Libor,
than what another market measure suggests they
should be,” and that as a result, LIBOR was artificially
low. (Shioleno Decl. (Dkt. No. 116), Ex. A; see also BPP
Ill., LLC, 2013 WL 6003701, at *8 (“By May 29, 2008,
. . . there were at least seven articles in major publications [including the May 29, 2008 Wall Street Journal
article] reporting that there was substantial evidence
to support the conclusion that LIBOR was artificially
low and had been so for some time.”).
According to the Amended Complaint, press reports concerning Defendants’ possible manipulation of
the LIBOR rate continued in subsequent years. Another flurry of media reports concerning this issue appeared in mid-March 2011—also before the state trial
court had entered judgment against Solow. According

114a
to Plaintiff, a “public revelation regarding government
investigations into possible LIBOR manipulation occurred on March 15, 2011,” when Defendant UBS disclosed in an SEC filing that it had received subpoenas
from the SEC, the CFTC, and the U.S. Department of
Justice “in connection with investigations regarding
submissions to the BBA.” (Id. ¶ 81 (citation, quotations marks, and brackets omitted)) UBS disclosed
that “the investigations focus on whether there were
improper attempts by UBS, either acting on its own or
together with others, to manipulate LIBOR rates at
certain times.” (Id. (citation, quotations marks, and
brackets omitted))
On March 16, 2011, the Financial Times reported
that
UBS, Bank of America, Citigroup, and Barclays had received subpoenas from U.S. law
enforcement agencies “probing the setting of”
LIBOR “between 2006 and 2008.” The Financial Times further noted that investigators
had “demanded information from” WestLB,
and that the previous fall, “all 16 members of
the committee that helped the [BBA] set the
dollar LIBOR rate during 2006-08 received
informal requests for information.”
(Id. ¶ 82) Plaintiff asserts that on March 17, 2011,
Bloomberg reported that “Barclays, Citigroup and
Bank of America had received subpoenas from U.S.
authorities investigating whether some firms manipulated the setting of LIBOR and Defendants WestLB
and Lloyds had been contacted by the authorities.” (Id.
¶ 83 (citation, quotations marks, and brackets omitted)) According to Plaintiff, on March 23, 2011, Bloomberg reported that Defendants Citigroup, Deutsche

115a
Bank, Bank of America, and JPMorgan had been
asked by U.S. authorities “to make employees available to testify as witnesses in a probe of potential interest-rate manipulation in connection with the ongoing
LIBOR investigation.” (Id. ¶ 84 (citation and quotation
marks omitted)) All of these articles were published
prior to the state trial court’s entry of judgment
against Solow, and put Solow on notice of the LIBORmanipulation scheme that Plaintiff alleges here.
Even accepting Plaintiff’s allegation that Solow
did not know that the media reports concerning Defendants’ LIBOR manipulation were true, these news
reports put Solow on inquiry notice. With the exercise
of due diligence, he could have learned the details of
the LIBOR manipulation and asserted his claims accordingly. Because Solow “had sufficient information
to create a duty of further investigation,” Plaintiff may
not avoid the effects of res judicata. See Saud, 929 F.2d
at 921 (holding that RICO claims were barred by res
judicata; “[E]ven if Saud did not know the full extent
of the Bank’s alleged fraud at the time the Guaranty
Action was commenced, his pleadings in that suit
demonstrated that he had sufficient information to
create a duty of further investigation. . . . Indeed,
given the substantial amount of money at stake in the
Guaranty Action, Saud had a strong incentive to actively litigate his defense and further uncover evidence of fraud. Having failed to undertake that inquiry, Saud is chargeable with full knowledge of the
fraud.”) (citing Armstrong v. McAlpin, 699 F.2d 79, 88
(2d Cir. 1983) (“The test as to when fraud should with
reasonable diligence have been discovered is an objective one. . . . ‘[W]here the circumstances are such as to
suggest to a person of ordinary intelligence the

116a
probability that he has been defrauded, a duty of inquiry arises, and if he omits that inquiry when it
would have developed the truth, and shuts his eyes to
the facts which call for investigation, knowledge of the
fraud will be imputed to him.’” (citing Higgins v.
Crouse, 147 N.Y. 411, 416 (1895))).
*

*

*

*

Plaintiff’s RICO claims will be dismissed because
they are barred by the applicable statute of limitations
and by res judicata.
V. STATE LAW CLAIM
“[U]nder 28 U.S.C. § 1367(c), a district court may
decline to exercise supplemental jurisdiction if it has
dismissed all claims over which it has original jurisdiction.” Schaefer v. Town of Victor, 457 F.3d 188, 210
(2d Cir. 2006) (citing Carnegie-Mellon Univ. v. Cohill,
484 U.S. 343, 350 (1988)). “[W]hen all federal claims
are eliminated in the early stages of litigation, the balance of factors generally favors declining to exercise
pendent jurisdiction over remaining state law claims
and dismissing them without prejudice.” Tops Mkts.,
Inc. v. Quality Mkts., Inc., 142 F.3d 90, 103 (2d Cir.
1998) (emphasis omitted) (citing Carnegie-Mellon
Univ., 484 U.S. at 350). There is no reason to deviate
from this rule here. Accordingly, the Court declines to
exercise supplementary jurisdiction and will dismiss
Plaintiff’s remaining state law claim under N.Y. Gen.
Bus. Law § 340.
VI. LEAVE TO AMEND
Plaintiff requests leave to amend in the event that
this Court grants Defendants’ dismissal motion. (Pltf.
Br. (Dkt. No. 119) at 55) Leave to amend should be

117a
“freely give[n] . . . when justice so requires.” Fed. R.
Civ. P. 15(a)(2). District courts “ha[ve] broad discretion in determining whether to grant leave to amend
. . . .” Gurary v. Winehouse, 235 F.3d 793, 801 (2d Cir.
2000). Leave to amend may properly be denied in cases
of “ ‘undue delay, bad faith or dilatory motive on the
part of the movant, repeated failure to cure deficiencies by amendments previously allowed, undue prejudice to the opposing party by virtue of allowance of the
amendment, futility of amendment, etc.’” Ruotolo v.
City of N.Y., 514 F.3d 184, 191 (2d Cir. 2008) (quoting
Foman v. Davis, 371 U.S. 178, 182 (1962)); see also
Murdaugh v. City of N.Y., No. 10 Civ. 7218 (HB), 2011
WL 1991450, at *2 (S.D.N.Y. May 19, 2011) (“Although
under Rule 15(a) of the Federal Rules of Civil Procedure leave to amend complaints should be ‘freely
given,’ leave to amend need not be granted where the
proposed amendment is futile.”) (citations omitted).
Given that Plaintiff’s RICO claims are barred by
the statute of limitations and res judicata, it is clear
that any amendment would be futile. Accordingly,
leave to amend is denied as to those claims.
As to Plaintiff’s antitrust claim, it appears unlikely that Plaintiff can plead facts sufficient to cure
the defects noted in this opinion. Moreover, in In re
LIBOR-Based Fin. Instruments Antitrust Litig., 962
F. Supp. 2d at 627-28, Judge Buchwald found that the
attempt to amend the antitrust claim was futile. Nevertheless, this Court will permit Plaintiff to move to
amend the Amended Complaint within thirty days of
this decision.

118a
CONCLUSION
For the reasons stated above, Defendants’ motions
to dismiss the Amended Complaint are granted. Any
motion for leave to file a second amended complaint is
to be filed by April 30, 2015. The Clerk of the Court is
directed to terminate the motions (Dkt. Nos. 114, 139).
Dated: New York, New York
March 31, 2015
SO ORDERED.
s/
Paul G. Gardephe
United States District Judge

